<html>
<title> - EMPTY SEATS IN A LIFEBOAT: ARE THERE PROBLEMS WITH THE U.S. REFUGEE PROGRAM?</title>
<body><pre>[Senate Hearing 107-844]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-844

  EMPTY SEATS IN A LIFEBOAT: ARE THERE PROBLEMS WITH THE U.S. REFUGEE 
                                PROGRAM?

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2002

                               __________

                          Serial No. J-107-58

                               __________

         Printed for the use of the Committee on the Judiciary


84-502              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

                      Subcommittee on Immigration

               EDWARD M. KENNEDY, Massachusetts, Chairman
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
CHARLES E. SCHUMER, New York         ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          CHARLES E. GRASSLEY, Iowa
MARIA CANTWELL, Washington           JON KYL, Arizona
JOHN EDWARDS, North Carolina         MIKE DeWINE, Ohio
                 Melody Barnes, Majority Chief Counsel
                Stuart Anderson, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....     4
Cantwell, Hon. Maria, a U.S. Senator from the State of Washington    62
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................    63
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.     5
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......    65
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.    65

                               WITNESSES

Brown, Anastasia, Assistant Director for Processing Operations, 
  Migration and Refugee Services, U.S. Conference of Catholic 
  Bishops, Washington, D.C.......................................    31
Dewey, Arthur, Assistant Secretary of State, Bureau of 
  Population, Refugees, and Migration, Department of State, 
  Washington, D.C................................................     8
Frelick, Bill, Director of Policy, U.S. Committee for Refugees, 
  Washington, D.C................................................    40
Glickman, Lenny, Chairman, Refugee Council USA, New York, New 
  York...........................................................    21
Ziglar, James, Commissioner, U.S. Immigration and Naturalization 
  Service, Department of Justice, Washington, D.C................    10

                       SUBMISSION FOR THE RECORD

InterAction, Richard Ryscavage, S.J., Director, Jesuit Refugee 
  Service/USA, Washington, D.C...................................    66

 
  EMPTY SEATS IN A LIFEBOAT: ARE THERE PROBLEMS WITH THE U.S. REFUGEE 
                                PROGRAM?

                              ----------                              


                       TUESDAY, FEBRUARY 12, 2002

                              United States Senate,
                               Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 3:00 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, Chairman of the Subcommittee, presiding.
    Present: Senators Kennedy, Brownback, and Grassley.

  OPENING STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR 
                FROM THE STATE OF MASSACHUSETTS

    Chairman Kennedy. We will come to order, if we could, 
please. Just as the way we are going to proceed, I will make 
some opening comments and I will ask Senator Brownback, invite 
him to make some comments, and then we will hear from Senator 
Grassley who has joined with us.
    People can ask why the good Senator from Iowa would be able 
to be so invited, and there is a very special reason. That is 
that this Committee takes note that in 1975 Iowa was the only 
State that became an agency in order to receive refugees, of 
all the 50 States, because of the concern and the interest of 
the people of Iowa. So they have a very special and unique 
position in terms of the refugee policy. This is a tradition 
that is followed by our good friend and we will always look 
forward to hearing from him on this matter or other matters as 
well, but in particular on this matter.
    Senator Grassley. Thank you.
    Chairman Kennedy. The United States refugee program 
provides hope and opportunity to those who are forced to leave 
their native lands fearing for their lives and the lives of 
their loved ones. For decades we have welcomed these men and 
women and children to our shores and provided them with safe 
haven from persecution and oppression. Today our commitment to 
refugee admissions is more necessary than ever. For years we 
have seen a steady increase in the number of refugees and the 
new challenges around the world have intensified the problem.
    The crisis in Afghanistan has forced significant numbers of 
Afghan refugees to flee to already overcrowded camps in 
neighboring Pakistan and Iran, and dire situations in other 
parts of the world continue to deteriorate. Millions of 
Africans have been uprooted from their homes, fleeing civil 
strife, human rights abuses, and natural disasters. In other 
parts of the world there are millions of others in need of 
resettlement due to war-torn homelands, human rights abuses and 
persecutions.
    Yet the United States response to this problem is not in 
keeping with our overwhelming need, more than 14 million 
refugees worldwide and another 20 million internally displaced 
persons. The number of refugees admitted by the United States 
has been on the decline over the past decade.
    Last November, President Bush proposed the admission of 
70,000 refugees for this fiscal year and indicated the 
intention to increase refugee admissions in subsequent years. 
However, I understand that in January the State Department 
submitted a reprogramming request to Congress asking that the 
ceiling be limited to between 45,000 and 50,000. This reduction 
would have made 2002 the lowest number for refugee admissions 
in decades.
    I am pleased that the reprogramming request has been put on 
hold and Assistant Secretary of State Dewey and Commissioner 
Ziglar are both committed to reaching the 70,000 ceiling. 
However, 70,000 is still a significant cut in refugee 
admissions and meeting that number will be difficult given the 
slow pace of admissions so far this year. Last year at this 
time the United States had admitted more than 14,000 refugees 
to this country. So far this year we have only accepted around 
2,000.
    Due to security concerns in the aftermath of the September 
11th attacks the refugee admissions program has experienced 
severe and unavoidable difficulties. Many of those difficulties 
have since been addressed by implementing rigorous screening 
procedures and measures to safeguard U.S. Government personnel 
overseas.
    The decline in admissions cannot be attributed entirely to 
the war on terrorism. Well before the terrorist attacks, and in 
fact over the last decade, actual refugee admission numbers 
have been far below the level approved by the Administration in 
consultation with Congress. For example, in 2000 the 
Administration approved the admission of 90,000 refugees and 
only 72,500 were actually admitted. That means that more than 
17,000 spots for refugees went unfilled. Over the past 10 years 
more than 106,000 refugees could have been admitted as allowed 
by the President's determination and were not, despite the fact 
there are millions of refugees in need of resettlement around 
the world.
    It is clear that the current crisis in the U.S. refugee 
program is not a short term problem. It is endemic. But we 
cannot allow this critical program to continue to decline. We 
must give serious consideration to expanding the use of joint 
voluntary organizations to relieve the burden of the U.N. High 
Commission in processing refugees. We must consider including 
family reunification as a special U.S. humanitarian interest, 
broadening the minority groups we currently give priority to in 
the admission process, and eliminating the backlog of cases 
waiting for processing which currently total almost 40,000 
refugees.
    It is not too late for the U.S. to reach the President's 
ceiling of admitting 70,000 refugees this year and it is not 
beyond our ability to admit significantly greater numbers in 
future years. In the early 1990s we admitted more than 130,000 
refugees. In the early 1980s we admitted almost 200,000 each 
year.
    I look forward to the testimony of our distinguished 
witnesses, and working with the Administration, the U.N. High 
Commissioner, refugee groups, my colleagues to effectively 
address the current shortfalls in the U.S. refugee program and 
increase the level of refugee admissions. I am very encouraged 
by the leadership and commitment of Assistant Secretary Dewey 
and Commissioner Ziglar that the United States can live up to 
its longstanding tradition of providing a safe haven to those 
in need around the world.
    [The prepared statement of Senator Kennedy follows.]

 Statement of Hon. Edward M. Kennedy, a U.S. Senator from the State of 
                             Massachusetts

    The United States Refugee Program provides hope and opportunity to 
those who were forced to leave their native lands fearing for their 
lives and the lives of their loved ones. For decades we have welcomed 
these men, women, and children to our shores and provided them with a 
safe haven from persecution and oppression.
    Today, our commitment to refugee admissions is more necessary than 
ever. For years, we have seen a steady increase in the number of 
refugees, and new challenges around the world have intensified the 
problem.
    The crisis in Afghanistan has forced significant numbers of Afghan 
refugees to flee to already overcrowded camps in neighboring Pakistan 
and Iran. And dire situations in other parts of the world continue to 
deteriorate. Millions of Africans have been uprooted from their homes, 
fleeing civil strife, human rights abuses, and natural disasters. And 
in other parts of the world there are millions of others in need of 
resettlement due to war torn homelands, human rights abuses, and 
persecution.
    Yet, the United States' response to this problem is not in keeping 
with the overwhelming need. There are more than 14 million refugees 
worldwide and another 20 million internally displaced persons, but the 
number of refugees admitted by the United States has been on the 
decline over the past decade.
    Last November, President Bush proposed the admission of 70,000 
refugees for this fiscal year, and indicated an intention to increase 
refugee admissions in subsequent years. However, I understand that in 
January, the State Department submitted a reprogramming request to 
Congress, asking that the ceiling be limited to between 45,000 and 
50,000. This reduction would have made 2002 the worst year for refugee 
admissions in decades. I'm pleased that the reprogramming request has 
been put on hold, and that Assistant Secretary of State Dewey and 
Commissioner Ziglar are both committed to reaching the 70,000 ceiling.
    However, 70,000 is still a significant cut in refugee admissions, 
and meeting that number will be difficult, given the slow pace of 
admissions so far this year. Last year at this time, the United States 
had admitted more than 14,000 refugees to this country. So far this 
year, we've only accepted around 2,000.
    Due to security concerns in the aftermath of the September 
11<SUP>th</SUP> attacks, the refugee admissions program has experienced 
severe and unavoidable difficulties. Many of those difficulties have 
since been addressed by implementing rigorous screening procedures and 
measures to safeguard U.S. government personnel overseas.
    The decline in admissions can't be attributed entirely to the war 
on terrorism. Well before the terrorist attacks--and in fact over the 
last decade--actual refugee admissions numbers have been far below the 
level approved by the Administration in consultation with Congress. For 
example, in 2000, the Administration approved the admission of 90,000 
refugees, and only 72,5000 refugees were actually admitted. That means 
that more than 17,000 spots for refugees went unfilled. Over the past 
ten years, more than 106,000 refugees could have been admitted--as 
allowed by the President's Determination--and weren't, despite the fact 
that there were millions of refugees in need of resettlement around the 
world.
    It's clear that the current crisis in the U.S. refugee program is 
not a short-term problem--it's endemic. But we can't allow this 
critical program to continue to decline. We must give serious 
consideration to expanding the use of joint voluntary organizations to 
relieve the burden of UNHCR in processing refugees. We must consider 
including family reunification as a special U.S. humanitarian interest, 
broadening the minority groups we currently give priority to in the 
admissions process, and eliminating the backlog of cases waiting for 
processing which currently total almost 40,000 refugees.
    It isn't too late for the U.S. to reach the President's ceiling of 
admitting 70,000 refugees this year, and it isn't beyond our ability to 
admit significantly greater numbers in future years. In the early 
1990's we admitted more than 130,000 refugees and in the early 1980's 
we admitted around 200,000 each year.
    I look forward to the testimony of our distinguished witnesses and 
to working with the Administration, UNHCR, refugee groups, and my 
colleagues to effectively address current shortfalls in the U.S. 
Refugee Program and increase the level of refugee admissions. I am very 
encouraged by the leadership and commitment of Assistant Secretary 
Dewey and Commissioner Ziglar. The United States can live up to its 
longstanding tradition of providing a safe haven to those in need 
around the world.

    I recognize my friend and colleague, Senator Brownback.

STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM THE STATE 
                           OF KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman. 
Appreciate it, and appreciate you holding this hearing.
    The success of the United States refugee program is of 
great personal interest to me and obviously to a number of 
other people given the packed room that we have here today. 
Each time I think of our Nation's commitment to providing 
shelter to the world's dispossessed I am moved by the wisdom 
and commands of what we read in Jeremiah where he said this, 
Thus says the Lord, do justice and righteousness and deliver 
the one who has been robbed from the power of his oppressor. 
Also, do not mistreat or do violence to the stranger, the 
orphan, or the widow. Do not shed innocent blood in this place. 
Later then he states that the good King, he pled the cause of 
the afflicted and needy, and then it was well. Is not that what 
it means to know me, declares the Lord?
    Today's hearing, it strikes me, is precisely about doing 
what is just and what is right. Tragic events of September 11th 
interrupted our country's ability to process refugees. However, 
we cannot allow those events which have already caused so much 
death and sorrow to undermine our commitment to rescuing the 
persecuted, the widow, and the orphan. I think everyone here 
agrees it is time that refugee processing got back on track.
    In the fall President Bush determined that our Nation could 
receive up to 70,000 refugees in this fiscal year. While I 
fully appreciate that the figure selected by the President is a 
ceiling, an upper limit on how many refugees we might admit, 
the reality is that 70,000 is a small number of the world's 
refugees. It contains approximately 14 million refugees 
worldwide. That is the externally displaced, not the internally 
displaced. We should strive to admit as many refugees as the 
President thinks that we can handle. To do less, even by a 
single person, is to deprive a victim of persecution of the 
protection that we ought to, and that we can provide.
    I want to point to the board that we have got up over here 
about what has happened over a period of years. Senator Kennedy 
cited to that as well. That we have had a steady erosion, a 
significant erosion of the number of refugees that the United 
States has taken in over a period of years. In the 1980s up to 
200,000 per year and now we are down to 70,000 per year of that 
upper ceiling, and that is continuing. We have up there both 
the number that was approved and the number then that was 
actually admitted as refugees into the United States.
    Again I would point out to you, even one person is a person 
that was then deprived of an opportunity to be able to live and 
to thrive. This is something that we ought to match and that we 
ought to help people out with.
    Before our panelists begin I want to commend both Assistant 
Secretary Dewey and Commissioner Ziglar on their personal 
commitment to reaching this year's 70,000 ceiling. I thank you 
very much for it. I appreciate that playing catch-up is a 
difficult task, but I am confident the dedicated men and women 
of your agencies are up to that task.
    I also look forward to the testimony of our distinguished 
witnesses appearing on behalf of the refugee groups. We all 
appreciate the invaluable service that your organizations 
provide and the unique insights that you as individuals have to 
offer.
    In closing let me say that I look forward to all of our 
witnesses' testimony regarding the decline in refugee 
admissions over the past decade. This statistic concerns me 
greatly. If we are to lead the world by example we need to 
determine why our numbers declined so consistently year after 
year when there is so much need that is there around the world. 
Given this trend we need to ask ourselves, are we truly doing 
what is right and what is just and what we are capable of doing 
to help those that in many cases are the poorest of the poor in 
the most difficult circumstances around the world?
    I, along with my colleagues up here, have had chances to 
visit refugee camps in different places around the world, and 
it is a difficult, horrible plight for a number of people. If 
we can do more and if we can help more, we really are called to 
do more and to help more, these people that are in the most 
difficult of circumstances. Even if it is a few more, we need 
to do it; every bit that we can to help.
    I look forward to hearing the testimony of the panel that 
is in front of us and our expert witnesses of what the United 
States can do to hopefully reduce and to stop this erosion of 
the number of refugees and to start being a better, stronger 
example of taking care of refugees around the world.
    We do a number of things, I want to say, in addition to 
this. This is admissions into the United States. We do help 
refugees in refugee camps, and I want to say on a very positive 
note that a number of people in Afghanistan and Pakistan that 
have fled that conflict are being fed by United States aid. 
Where they were looking at a horrible winter situation, that 
now a number are getting food and shelter that would not have 
gotten it. I am so pleased that our country is doing that. Yet 
I think here is a current situation of something that we can do 
and hopefully will do better.
    Thank you, Mr. Chairman.
    Chairman Kennedy. Thanks very much.
    Senator Grassley?

STATEMENT OF CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Senator Kennedy, thank you for holding 
the hearing. More importantly, I appreciate very much 
accommodating my schedule so I can attend a couple meetings 
that we have of Finance Committee business this afternoon. 
Hopefully Mr. Ziglar will understand that I will have to submit 
questions for answers in writing. I would appreciate that very 
much.
    I think Senator Kennedy made all the points that I want to 
make, but I guess since I like to hear my voice I will just say 
them again. First of all, he gave very important background 
about the leadership of my State. That started under a former 
Republican governor, Robert Ray, who is still a very active 
citizen of the State of Iowa. He was very outgoing and set a 
very good example, and consequently we have a lot of people in 
Iowa that are welcome refugees, want to work with refugees. So 
I thank you for recognizing Iowa for that and giving that 
history.
    Our citizens have been committed to opening their doors and 
hearts to thousands of people who come to this country to 
escape persecution. I think with compassion Iowans have led the 
Nation in helping refugees resettle and become self-sufficient, 
even though we are a State of only 3 million people. I have a 
longstanding record in support of refugee services and remain 
committed to supporting policies that positively affect 
refugees throughout the world.
    Now unfortunately September 11th has had tremendous impact 
on this honest and worthwhile program. I know that many 
churches, volunteers, and youth groups are waiting for families 
to come to Iowa. I am proud to announce that my State will be 
receiving one of the first Afghan families who have been 
victims under Taliban rule. On Valentine's Day, a very 
appropriate day, a mother and child will be welcomed to Iowa 
and be met with sincere compassion.
    So that brings me then to a significant point. Many small 
States such as Iowa have longstanding records of success in 
refugee resettlement. Such success translates to less drain on 
Federal and State resources. In January, however, Iowa received 
less than 0.5 of 1 percent of new refugees that came to the 
United States, so I am interested--and this will be in a 
question form--to know what the State Department is doing to 
encourage resettlement programs in smaller States, which in 
turn save our taxpayers money.
    I agree with Commissioner Ziglar when he says that we 
cannot judge immigrants by the actions of terrorists. 
Nevertheless, we must not ignore that abuses in a system are 
possible. There is room for error, room for improvement. While 
we must continue our refugee assistance, we must also be 
concerned about admitting those refugees who are associated or 
supportive of organizations that wish to harm the United 
States.
    I obviously misspoke because they would not be classified 
as refugees under our approach because we would not want them 
to come into the country if they were here to do that sort of 
activity. On the other hand, people can slip by.
    I need to take some commendation to the Bush Administration 
as well as to the people of my State in greeting those who seek 
a better life. I also urge them to continue to screen 
applicants as they always have in order to protect our American 
citizens. Security is and should remain our country's top 
priority.
    Thank you all very much. And thank you, Mr. Chairman.
    [The prepared statement of Senator Grassley follows.]

Statement of Hon. Charles E. Grassley, a U.S. Senator from the State of 
                                  Iowa

    In my home state of Iowa, many citizens are committed to opening 
their doors and hearts to the thousands of people who come to this 
country to escape persecution. With compassion, Iowans have led the 
nation in helping refugees resettle and become self-sufficient. I have 
a long standing record in support of refugee services, and remain 
committed to supporting policies that positively effect refugees 
throughout the world.
    Unfortunately, the September 11 attacks have had tremendous impact 
on this honest and worthwhile program. I know that many churches, 
volunteers, and youth groups are waiting for families to come to Iowa. 
I am proud to announce that my state will be receiving one of the first 
Afghan families who have been victims under Taliban rule. On Valentines 
Day, a mother and child will be welcomed into Iowa and met with sincere 
compassion.
    That brings me to a significant point. Many small states, such as 
Iowa, have long standing records of success in refugee resettlement. 
Such success translates to less drain on the Federal and state 
resources. In January, however, Iowa received less than .5% of new 
refugees that came to the United States. I want to know what the State 
Department is doing to encourage resettlement programs in smaller 
states, which in turn, saves our taxpayers money.
    I agree with INS Commissioner Ziglar when he says that we cannot 
judge immigrants by the actions of terrorists. Nevertheless, we must 
not ignore that abuses in the system ARE possible. There is room for 
error, and room for improvement. While we must continue our refugee 
assistance, we must also be concerned about admitting those refugees 
who are associated or supportive of organizations that wish to harm the 
U.S.
    I would like to take this opportunity to commend the Bush 
Administration and the people of my state in greeting those who seek a 
better life. I also urge them to continue to screen applicants as they 
always have in order to protect our American citizens. Security is and 
should remain our country's top priority right now.

    Chairman Kennedy. Thank you very much. Our distinguished 
panel this morning includes Gene Dewey. Mr. Dewey, I was 
remembering, we go back a long ways. Is it Biafra or 
Bangladesh?
    Mr. Dewey. Biafra, sir.
    Chairman Kennedy. Biafra. That is a long way back. It is 
nice to see you again.
    He brings to his position as an assistant secretary of 
state for the Bureau of Population, Refugees a long and 
distinguished career assisting refugees. Served five years in 
the State Department, deputy assistant secretary Bureau for 
Refugee Programs, subsequently named as the United Nations 
Assistant Secretary General and served four years in Geneva, 
United Nations Deputy High Commissioner for Refugees. Current 
position as assistant secretary oversees U.S. Government 
policies regarding population, refugees and international 
migration issues.
    Mr. Dewey brings an insightful perspective to his position. 
I look forward to hearing from him and working with him.
    It is a pleasure to see Jim Ziglar once again. Last week at 
the National Immigration Forum Conference Commissioner Ziglar 
said he was recruited for the job of INS commissioner, but had 
he known what he knows today he would have pursued the job 
because it provides to many opportunities to make a difference 
in the lives of millions of Americans and millions of future 
Americans.
    Commissioner Ziglar took advantage of one of those 
opportunities last week when he announced the INS commitment to 
meet the goal of admitting 70,000 refugees for the fiscal year. 
I commend your leadership on this program at such a critical 
time and look forward to hearing more about your plan.
    Also you made some announcement with regard to children, 
unattended children coming in, which has been a matter of 
interest to this Committee and we applaud you for your 
leadership in this area. That is an important initiative and 
one that needed attention so we are glad to have you.
    We will start off with Mr. Dewey. We look forward to 
hearing from you.

STATEMENT OF ARTHUR DEWEY, ASSISTANT SECRETARY OF STATE FOR THE 
 BUREAU OF POPULATION, REFUGEES, AND MIGRATION, DEPARTMENT OF 
                    STATE, WASHINGTON, D.C.

    Mr. Dewey. Mr. Chairman, members of the Subcommittee, I 
welcome this opportunity to meet with you today in my new role 
as assistant secretary of state, Bureau of Population, 
Refugees, and Migration. As you alluded, Mr. Chairman, my first 
appearance before you was also in the middle of a war. This was 
the Nigerian civil war. I was a White House fellow then working 
with Clyde Ferguson on relief initiatives into Biafra.
    This time our country is directly involved in a war 
launched against us on September 11th. In every previous war I 
can remember the first casualty has been more than truth. They 
say that truth is the first casualty in war. In this case it 
has been--in most cases it is far more than that. It has almost 
inevitably been humanity itself is the first casualty in war. 
But not so in this war. From the beginning, the President has 
determined to feed the oppressed even while we are bombing the 
oppressors.
    But what about the oppressed needing the protection of 
admission to the United States? This is a subject of our 
meeting today. While the legitimate demands of homeland 
security have resulted in significant hiatus in refugee 
admissions to the United States, we are determined that this 
particular humanitarian casualty of the war will be as short-
lived as possible. Our original numbers calculated in the wake 
of September 11th posited a significant reduction below the 
President's determination of 70,000 refugee admissions for 
fiscal year 2002.
    We consulted with both our NGO partners and with INS on 
this problem and we were delighted and encouraged that Jim 
Ziglar's recent commitment to streamline and augment INS 
capabilities in ways that would give this partnership of the 
State Department, INS, and the NGOs a realistic prospect of 
restoring our goal of 70,000 admissions. We will give these 
procedures and others, as required, our best shot. It will be 
difficult. It may take a miracle, but we in the population, 
refugee, migration bureau are committed to make the effort, and 
to make the resources available to come as close as possible to 
the 70,000 ceiling.
    Perhaps only in America are the people and its leaders 
capable of waging a major military campaign while keeping the 
imperatives of humanity, both in assistance and refugee 
admissions, at the top of the national agenda. This is the 
essence of our commitment. We will keep a running watch with 
you as to the results of this commitment as we go forward. I 
would welcome that. I hope we can keep in very close touch so 
that we will have total transparency as to how we are doing in 
this challenge.
    With your permission, Mr. Chairman, I would like to submit 
my longer statement for the record. Thank you very much.
    [The prepared statement of Mr. Dewey follows.]

Statement of Arthur Dewey, Assistant Secretary of State for the Bureau 
     of Population, Refugees, and Migration, Department of State, 
                            Washington, D.C.

    Mr. Chairman and members of the Subcommittee:
    It is a distinct pleasure to appear before you today in my new role 
as Assistant Secretary of State in the Bureau of Population, Refugees 
and Migration. It has been 15 years since I last served in the Bureau--
then as Deputy Assistant Secretary when the Bureau was known as 
``Refugee Programs'' or ``RP.'' In the meantime, I have remained 
engaged in several critical refugee issues: serving as the Deputy 
United Nations High Commissioner for Refugees, the Director of the 
Congressional Hunger Center, and as a consultant with the U.S. military 
to ensure that humanitarian assistance considerations are factored into 
post-Cold War military training.
    While most of my professional focus has been on the humanitarian 
relief side of the refugee portfolio, I have always been proud of our 
country's leadership role in refugee resettlement. Whenever the need 
has arisen for the United States to step forward and extend its welcome 
to refugees in need of our protection and the opportunity for a new 
life in freedom, we have never let them down. Upon returning to the 
Department, I am pleased to find that, with President Bush's strong 
support for immigration, the commitment to a vibrant admissions program 
in which refugees receive the highest quality of resettlement services 
remains intact. In the year 2000, of the 37,000 UNHCR-referred refugees 
offered permanent resettlement in third countries around the world, the 
United States accepted 25,000--a clear demonstration of our leadership 
in this field.
    Something that has changed dramatically during my absence from the 
Department is the degree to which our admissions program has become 
decidedly more diverse. During the 1980's, our refugee admissions 
program was overwhelmingly focused on refugees from Indochina. During 
the early 1990's, religious minorities from the New Independent States 
of the former Soviet Union became the dominant group. By the mid-
1990's, the number of persons in need of resettlement from these two 
areas declined. At the same time, the U.S. began to coordinate its 
admissions program more closely with other resettlement countries and 
with UNHCR. As a result, last year we processed members of 77 
nationality groups in a comparable number of processing locations 
around the world. We are now truly global in our commitment to refugee 
resettlement. Our country also continues to lead the world in its 
commitment of resources to all major international relief organizations 
providing life-sustaining humanitarian assistance to refugees in 
desperate circumstances.
    Prior to the tragedy of September 11, we determined in consultation 
with our partners in the NGO community that the current fiscal year 
would be one of consolidation for the resettlement program. We 
recognized that the cost of providing a dignified welcome for arriving 
refugees was exceeding the available public-private funding and that 
the quality of refugee reception was suffering as a result. The 
Department substantially increased the amount of government resources 
available for each refugee in combination with the continued commitment 
of private resources to this important humanitarian undertaking.
    As is well known, the shock of September 11 had a dramatic impact 
on the admissions program. The Presidential Determination of the number 
of admissions for FY 2002 was delayed pending completion of our review 
of the program's security-related aspects. The admission and 
interviewing of refugees overseas was suspended as the Department of 
State and all the other government agencies involved in admissions 
processing addressed very legitimate security concerns regarding 
adequate screening of refugee applicants. To this end, we worked 
diligently with the Department of Justice, the National Security 
Council and the intelligence community to develop reasonable procedures 
for safeguarding the security of the American public and the integrity 
of the refugee admissions program. My implementing these measures we 
balanced the security imperative with our commitment to providing 
resettlement to those in need of protection. To do less could undermine 
long-term public support for the program.
    With our enhanced security procedures in place since late November, 
my staff is working closely with other government agencies and non-
governmental partners to facilitate the processing and admission of as 
many refugees as possible during this fiscal year. We are greatly 
encouraged by INS Commissioner Ziglar's commitment of greater resources 
to the task at hand, and have every intention of doing our part to come 
as close as possible to reaching the President's authorized ceiling of 
70,000 refugee admissions this fiscal year.
    The steps we have taken include authorizing the hiring of 
additional staff at several overseas processing locations to implement 
new security requirements. We have also assumed all pre-screening tasks 
in Moscow, freeing INS officials to carry out other urgent and pressing 
duties. To expedite medical screening, we have authorized the 
International Organization of Migration to conduct most refugee medical 
examinations in Africa, where the remote location of refugee camps and 
other logistical complications often delayed processing. Our overseas 
refugee coordinators are working with UNHCR field staff throughout the 
world to identify refugee populations in need of resettlement. As a 
result, while only 800 refugees arrived in December (compared to almost 
15,000 in the first quarter of FY 2001), we were able to admit 2,000 in 
January and over 3,000 are scheduled to arrive in February.
    But we still have a long way to go. The United States of America 
sustained a tremendous blow on September 11. The refugee admissions 
program was hard hit in the aftermath as we made the difficult 
adjustments to assure its integrity and to ensure our security as a 
nation. Nonetheless, even in the context of the current war, this 
Administration remains committed to keeping the door open to refugees.
    We have a tremendous challenge before us--to bring in as many of 
the 70,000 authorized refugees as we can, being mindful of the 
reduction in funds for the Migration and Refugee Assistance (MRA) 
account for FY 2002, and of continuing large assistance needs overseas. 
I want to assure you, Mr. Chairman, that we have the funding necessary 
to meet that goal. The challenge will continue into FY 2003 as we 
maintain our efforts to implement the enhanced security requirements, 
to protect the integrity of the program, and to improve the qualify of 
refugee reception once services in the United States.
    In closing, I want to assure the Committee that the Bush 
Administration is committed to a refugee program that will be 
responsible as well as responsive and generous, maintaining U.S. 
leadership in this important humanitarian endeavor. Accepting refugees 
for permanent resettlement manifests the best traditions and the 
compassion of the American people, incidentally burnishing the image of 
this country in a way that also advances our foreign policy.
    Once the refugees are within our borders, it quickly becomes clear 
that their activities, and those of other immigrants who have made this 
country their own, contribute immensely to the cultural and economic 
vitality of this nation. There could scarcely be a better or more 
fitting reward for this exercise of the best of our American traditions 
and for the work of the State Department and all of the other agencies 
involved.
    I look forward to your questions.

    Chairman Kennedy. Thank you very much.
    Mr. Ziglar, glad to hear from you.

 STATEMENT OF JAMES ZIGLAR, COMMISSIONER, U.S. IMMIGRATION AND 
NATURALIZATION SERVICE, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Ziglar. Mr. Chairman, Senator Brownback, it is an honor 
to be back before this Subcommittee. I feel like it is almost 
my second home. Been around this place a long time. I am really 
pleased to be here to have the opportunity to testify about 
refugee policy.
    Senator Kennedy and Senator Brownback, I wanted to thank 
both of you for your leadership on refugee issues. You have 
made a very big difference over a long period of time and you 
are to be commended for that.
    Senator Kennedy, I also wanted to take the opportunity to 
congratulate you publicly on your award from the National 
Immigration Forum, which is the Promise of Liberty Leadership 
Award. It was the first time it has been offered, and like I 
said to someone, they have set the standard pretty hard. So my 
congratulations to you.
    Chairman Kennedy. Thank you.
    Mr. Ziglar. Mr. Chairman, and Senator Brownback, I want you 
to know that this Administration and I are personally committed 
to the American ideal that we should keep our doors open to 
people who are the victims of religious and political 
persecution and who want to come to this country to become a 
part of this community and to share in our values of freedom, 
tolerance, and self-sufficiency. You look at people like Albert 
Einstein and Andy Grove, and if that is not the case for 
refugees, I do not know where there is one.
    The concerns that I know about our ability to reach the 
70,000 limit ceiling are widespread, and they are justifiable. 
We had a slow start because of September 11th and then the 
period of time before the authorization was signed, and the 
security concerns that we had regarding a lot of things 
including the refugee process. But I believe, Senator 
Brownback, your admonition from Jeremiah is well taken, and we 
are going to do our best to live up to that admonition for 
sure.
    We are making and we are committed to making a better than 
good faith effort to reach that ceiling. That was the reason 
why on February 1 I announced what I think is a businesslike 
approach, a businesslike program to streamline the process in 
order to get us to that 70,000 person commitment. We cannot do 
it alone, but we can do it in cooperation with our partners at 
the Department of State, at the UNHCR, and obviously, with the 
NGOs that we participate with. We have been working very 
closely with the Department of State, with the National 
Security Council, and with the Domestic Policy Council in our 
attempts to come to closure on a way of doing this and doing 
this effectively.
    The events of September 11 had an enormous impact on the 
refugee program. I do not think there is any question about 
that. As you know, we suspended our circuit riders because of 
safety concerns for them during that period. On September 30, 
the authority expired and was not immediately reinstituted, as 
you know. During that period between September 30th and 
November 21st a host of new security measures were put into 
place that were approved by the Homeland Security Council late 
in November and then on November 21st the President authorized 
a ceiling of 70,000 to come in.
    We resumed our process, but I will be first to admit that 
the process resumed rather slowly; probably too slowly. But we 
are moving and moving aggressively to resume that processing 
and to find more and better and more effective ways to do it. 
Let me just make this comment about that. I believe that this 
is an opportunity, this situation is an opportunity for us at 
INS to take the process that we have got now and fix it for the 
long term so that we can avoid those shortfalls that you have 
over there, at least with respect to our part of it.
    I am looking at this whole relook at it in a way that is 
permanent, not just a quick fix for a short term problem. So 
that has been my approach at INS is to try to get out in front 
of problems instead of responding to them. It is sometimes 
tough, but that is the approach.
    I am pleased to report that we are now interviewing in 
Moscow, Zagreb, Vienna, Nairobi, Accra, and we are going to 
begin interviewing in Cairo, Belgrade, and hopefully Islamabad, 
although we are having some problems with our facilities in 
Islamabad at the moment. But we are going to hopefully do all 
of those in the next couple of weeks. But we need to do a lot 
more.
    Our plan to meet the 70,000 ceiling has five elements to 
it. First, we are substantially increasing the personnel that 
are going to be available on the ground to do the processing. 
In fact, we are in the process right now of training a 
substantial number of additional officers. These are 
adjudicators in our organization who will be deployed to 
wherever it is in the world that we need to send them to meet 
the surge. It is a firm commitment. I have committed the 
resources and the people, and the training is ongoing. We will 
have all of those people trained and ready by the middle of 
March. It is a series of training sessions.
    Secondly, we are securing safe interviewing locations for 
these interviews. We have had a problem with security in some 
of the embassies. We have had a particular problem in Moscow. 
We are back now to five interview rooms of the nine that we had 
before October 11th when we had to shut down in Moscow. The 
State Department has been extremely helpful to us in trying to 
work with our embassies to give us the facilities to do our 
interviews.
    The third item of this plan is one that I consider maybe 
the most important in the long term. That is to expand the pool 
of possible refugees by reaching out beyond the normal process 
that we have now where UNHCR and walk-ins to the embassy are 
the people that fundamentally we talk to. UNHCR is overwhelmed. 
Let us face it, they have got 14 million refugees out there. 
They have got a tough job. They try to do their job, but the 
fact is that we are not looking in all the right places.
    I am hoping to engage the NGOs and the refugee advocacy 
groups so that our pool of prospective refugees can be much 
broader. I think that is going to create a rich source of 
Albert Einsteins and Andy Groves and others, and also identify 
the people who truly do need to be treated as refugees and need 
to be protected. So I am encouraged and we are reaching out to 
have as big a pool as we can so that we will not have that 
shortfall. We will have a real challenge in doing what we are 
trying to do.
    We are also going to work with our processing partners, and 
we are working with the processing partners, although I have to 
say it has not been very satisfactory in the past, to also 
identify vulnerable populations under our Priority Two 
category. I think that we can do better in terms of identifying 
those populations by working with organizations like HIAS and 
others to do that.
    Fifth, and this is also an important long term initiative, 
and that is to identify additional ports of entry for refugees 
to come in. As it is now we have New York, Miami, Chicago, and 
Los Angeles. Those are the four ports they come into. But with 
some of the new security screening requirements and that sort 
of thing, it is very labor intensive and what we are having to 
do is to limit the number that can come in at any one time. So 
what we need to do is get more ports of entry where we can 
process people through and get them in in an orderly and 
expeditious fashion.
    Mr. Chairman, I know my time is up and as you know, I am 
the eternal optimist, but I do not think that my optimism is 
misplaced in the sense that I believe that with a strong 
cooperative effort--and this is an all-American college try to 
try to reach this goal, but I think that if we really put our 
nose to the grindstone that we can reach this goal of 70,000 in 
this fiscal year. I just want you to know that I am committed 
to doing it. I am committed to the best--good faith and the 
best efforts to do that, and I know that my colleagues at the 
State Department feel the same way.
    With that, I thank you for the opportunity of being here 
again and I look forward to your questions.
    [The prepared statement of Mr. Ziglar follows.]

Statement of James W. Ziglar, Commissioner, Department of Justice, U.S. 
        Immigration and Naturalization Service, Washington, D.C.

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to testify about U.S. refugee policy. 
I first want to acknowledge the leadership and long history of support 
for refugees exhibited by both you, Mr. Chairman, and Senator 
Brownback. It is a record of dedication to an important cause.
    Mr. Chairman, it was Ronald Reagan who said, ``It's the great life 
force of each generation of new Americans that guarantees America's 
triumph shall continue unsurpassed into the next century and beyond.'' 
And part of that triumph has been America's enduring commitment to 
protect those who face religious or political persecution. Whether it 
is Albert Einstein and fellow scientists fleeing the Nazis, or Intel 
chairman Andy Grove escaping communism, or the ``Lost Boys'' of Sudan 
running from oppression in Africa, America has remained committed to 
freedom and offering that freedom to others. I share that commitment 
and pledge to do everything within my power as INS Commissioner to keep 
America's door open to those who must escape political or religious 
persecution.
    I know there are concerns that the ceiling of 70,000 refugees set 
by the President for this fiscal year simply cannot be met because of 
the late start in processing and the new security enhancements put into 
place as a result of the terrorist attacks of September 11. That is why 
I announced on February 1st that we have designed a realistic business 
plan to address this issue. I realize that meeting the 70,000 ceiling 
will be a difficult task, that we must overcome logistical barriers, 
and that we need, to a great extent, to rely on excellent interagency 
cooperation, but I believe this is so important that we must try. And 
that is why INS and the State Department, with the help of the Domestic 
Policy Council and National Security Council, have been working closely 
together on this issue. I intend to continue working closely on refugee 
matters with Assistant Secretary Gene Dewey and other key individuals 
in the Administration, as well as with Members of Congress and with 
religious and relief organizations.
    The events of September 11 had a significant and immediate effect 
on our refugee program. The need to address a range of security 
concerns resulted in significant processing delays. Out of concern for 
the safety of our officers, we were forced to curtail the circuit rides 
by INS officials interviewing refugees. In addition, refugee travel to 
the United States was suspended while security enhancements for the 
refugee program were reviewed and developed. Those heightened security 
measures were adopted, following approval by the Homeland Security 
Council, in November. Immediately thereafter, the President authorized 
the admission of up to 70,000 refugees during FY 2002, and refugee 
travel to the United States resumed, albeit on a limited basis.
    Throughout this difficult period, INS worked steadily to ensure 
that refugee processing resumed as quickly and as smoothly as possible. 
We are back at work and remain committed to our humanitarian mandate of 
providing protection and resettlement opportunities for refugees. I am 
pleased to report that 12 INS officers are on the ground in Africa and 
interviews will begin this week in Nairobi and Accra. Other INS 
officers are already interviewing refugee applicants in Zagreb, Moscow, 
and Vienna. Additional officers will be deployed to Islamabad, Cairo, 
and Belgrade in coming weeks. While this is good news, more needs to be 
done.
    Toward that end, INS has developed an action plan to enhance 
refugee processing activities overseas:
    First, INS will increase financial resources devoted to refugee 
processing. INS will select and train a significant number of 
additional officers who will be available for refugee details by March. 
INS will also fund overtime to lengthen the workday or workweek, 
allowing INS to increase its interview capacity at overseas processing 
locations.
    Second, in close cooperation with the Department of State, INS will 
seek out safe and secure interview settings at all refugee processing 
posts overseas--a challenge in the post-September 11 world. For 
instance, because of security concerns, less space has been made 
available in Moscow for INS interviews. We are working to try and fix 
that.
    Third, there are many bona fide refugees who never get in to see an 
INS officer. I believe that current U.S. government processes and 
criteria used to identify the pool of applicants eligible for INS 
refugee interviews needs to be revisited. Therefore, I am directing me 
staff to work with the Department of State, the NGO community and other 
refugee advocates to identify additional mechanisms for identifying 
individuals who are of humanitarian interest to the United States. That 
is why I am proposing an organized effort to allow U.S. nongovernmental 
organizations to refer individuals for interviews with INS officers in 
the field. Those individuals still must pass the legal standard for a 
refugee, but these referrals would significantly and fairly bring to 
our attention a larger pool of individuals who are of potential 
humanitarian or foreign policy interest to the United States.
    Fourth, while the designation of Priority Two categories (specific 
groups of humanitarian concern within certain nationalities) is 
primarily the responsibility of the Department of State, INS pledges to 
work with our processing partners to identify new vulnerable 
populations appropriate for resettlement consideration.
    Finally, the action plan identifies ways that the INS can 
accommodate greater numbers of refugee arrivals to the United States. 
New fingerprinting requirements at Ports-of-Entry have resulted in our 
request to the International Organization for Migration to schedule no 
more than 35 refugees per flight. While space constraints at Ports-of-
Entry now designated to receive refugees preclude increasing this 
number, I have directed my staff to explore the possibility of 
designating additional ports for refugee arrivals.
    These measures--increasing the number of officers available to 
conduct refugee interviews, ensuring work space for officers, expanding 
the workday or workweek, increasing the pool of applicants eligible for 
INS interviews, and accommodating more refugee arrivals at Ports of 
Entry--will give us the tools to increase the number of refugee 
applications processed. All of these initiatives to maximize refugee 
admissions numbers during FY 2002 involve a number of players that are 
working to attain these goals--the Department of State, the United 
Nations High Commissioner for Refugees, the International Organization 
for Migration, and the various agencies that assist in refugee 
processing overseas and receiving refugees in the United States.
    Mr. Chairman, as I have said before: The terrorist attacks of 
September 11 were caused by evil, not by immigration. These tragic 
events have forced us to re-evaluate the way we live and think, and the 
way we function as a government. We can and will protect ourselves 
against people who seek to harm the United States, but we cannot judge 
immigrants--or refugees--by the actions of terrorists. Our Nation must 
continue its great tradition of offering a safe haven to the oppressed 
and persecuted.
    Thank you. I would be pleased to answer any questions you may have.

    Chairman Kennedy. Thank you. I will just start off with 
you, Mr. Ziglar. On some of these matters that you mentioned in 
the latter part of your testimony about the pipeline. As you 
mentioned, four cities, groups of 35. It is a major bottleneck, 
and you have indicated to us you are attempting to open that up 
in some period of time. You might give us some idea--we will 
ask the question and maybe for the record you could give us 
some idea about, some details about what you do and when you 
think that that might be worked out, unless there is something 
you want to add now.
    Mr. Ziglar. I can tell you that we are looking at, there 
are obviously a number of things, resources available at the 
airport, the kind of flights that come in there, the inspection 
capabilities, all of those sorts of things. We are looking 
everywhere to see what those opportunities are. If you are 
lobbying for Boston, I am sure it will be on the list.
    Chairman Kennedy. Let me ask you with regards to, just on 
the number of how many INS were performing the refugee status 
and determinations or other refugee processing tasks prior to 
September 11th and how many are doing so now. You can provide 
those if you want to.
    Mr. Ziglar. I can tell you----
    Chairman Kennedy. Can you tell us?
    Mr. Ziglar. Prior to September 11th we had between, on the 
ground, permanently, overseas between 10 or 15 people that did 
refugee processing. Then in the asylum corps we have 100 
people, 102 people that were involved in this. That is last 
fiscal year. This fiscal year we have roughly the same number 
overseas but roughly 100 in the asylum corps. That is going to 
be supplemented by these additional people, primarily 
adjudicators, that are going through our training now to become 
refugee screeners. That is a substantial number of people that 
we are going to have.
    Let me make one point about that.
    Chairman Kennedy. How many more, just do you have an 
approximate?
    Mr. Ziglar. If you press me I will tell you, and since you 
pressed me I will tell you. It is 60, which is a substantial 
increase.
    Chairman Kennedy. Good.
    Mr. Ziglar. But I also see this as an opportunity to 
increase our, I do not want to use the word refugee corps 
because we do not have a refugee corps, but it does increase 
our numbers of people that are cross-trained that will allow us 
to move people around to meet demands where we have them. That 
is one of the things I am trying to do at INS is to do some 
cross-training so that as we have these surges in different 
kinds of programs that we can meet those challenges. This is 
one of the goals that I have with respect to the refugee 
program.
    Chairman Kennedy. You need cooperation from State 
Department, the NGO community and others to secure adequate 
interview sites as I understand it. Is that something that you 
are working on?
    Mr. Ziglar. Yes, sir, very much so. Primarily State 
Department because we do a lot of these at the embassies. The 
security at embassies has been a real concern, particularly we 
have had a problem in Moscow. But I know Elliott Abrams has 
been working on our behalf in the Moscow embassy to get it 
moving as fast as we can.
    Chairman Kennedy. I will come back to Mr. Dewey on that. 
Let me just ask you about the--I will go to Mr. Dewey. If I 
could ask you about, you have only a handful of groups as 
Priority Two refugees and that has remained virtually unchanged 
for over a decade despite the increasing number of refugees. I 
have got the list of those here. They are from Africa, Bosnia, 
Burma, Cuba, Iran, former Soviet Union, Vietnam. Of course, 
this has changed a lot, some of those countries. Burma and 
Bosnia certainly, obviously changed. This group has not been 
changed.
    Are you considering altering or changing? Some of our 
witnesses that will be appearing later make a recommendation of 
the kinds of people that ought to be included in that category 
two, Afghan women, religious from Burma, widows and orphans 
from Chechnya, and other kinds of groups. Could we not broaden 
that group to include some of these targeted groups, and would 
that not help us move this whole process more rapidly?
    Mr. Dewey. Yes, Mr. Chairman, that certainly is our 
commitment, to work with the refugee coordinators in the field 
who have access to these groups, to work with UNHCR people in 
the field who also have access, and particularly to work with 
the NGO representatives in the field who come in as close 
contact with theses groups as anybody. We are continuing our 
discussions with all of these mentioned to reach out, to 
continue the diversity of our program which has to reach to the 
groups that you mentioned plus some others that we have not----
    Chairman Kennedy. What do we take from it? This has been 10 
years in place. We have got a new situation. I have mentioned 
some of these groups that seem to be compelling. What can you 
tell us? Will you in the next month look at these? Do you want 
me to give you a list of them and have you look over the next 
month and give us answers which ones are in or out and for what 
reason? Or are you prepared to tell us that in a month you will 
do something? How are we going to leave it so that we know----
    Mr. Dewey. I am prepared to tell you that within a month 
certainly we will be looking at these groups and we will be 
prepared to consult with----
    Chairman Kennedy. Make some recommendations as to which 
groups might fall in the second?
    Mr. Dewey. Exactly.
    Chairman Kennedy. And if there ought to be some changes in 
the ones that have been as well.
    Mr. Dewey. Yes.
    Chairman Kennedy. I appreciate that.
    Mr. Dewey. We will do that.
    Chairman Kennedy. Let me ask you about the current Priority 
Three, to open current Priority Three to all nationalities for 
immediate family reunification. We allow people from only six 
nationality groups to petition for their immediate refugee 
relatives to join them. Now obviously, reuniting families has 
always been a fundamental component of the U.S. refugee 
program. This proposed change seems to make some eminent sense. 
Can you give us any sense where you are on this?
    Mr. Dewey. Yes, where we are on the Priority Threes, Mr. 
Chairman, is we have, as you know, have moved from the practice 
during the entry of the Vietnamese refugees where we had 
expanded the Priority Threes to the extended families and have 
over time seen that those persons would be better accommodated 
in the regular immigration program. Whereas, now we are looking 
at the new affidavits of relationship for Priority Three being 
accepted for applicants from Sierra Leone, Sudan, Burundi, the 
Democratic Republic of the Congo, Angola, and Congo 
Brazzaville. So we are looking at these cases.
    A problem with the family reunification cases has been 
fraud. As you know, the recent problems in Africa with fraud in 
the UNHCR have been of great concern to us as they have to the 
High Commissioner for Refugees. This has slowed us up. But we 
are trying to work through that. The Africa case, as you know, 
has been dealt with and we are hoping that these steps that 
have been taken will restore some of the integrity of the 
program there.
    Chairman Kennedy. None of us want to certainly encourage 
the fraud but it does seem that with the changed situation we 
have got to--we have had only six nationality groups and it 
does seem to me that it is valuable or worthwhile. If there are 
going to be particular problems in some because of fraud then 
we have got to deal with those. But we have only had the six. 
We have been stuck with this. It is difficult to believe that 
all the others have been tainted with fraud.
    Clearly, we ought to see if there is reasonable 
justification--I think a compelling case could be made for 
these family unifications outside of that. If this is as a 
result of these investigations of fraud then I think it is 
worthwhile for us to know. If not, we would like to know if you 
have looked at them and the reasons that you think they could 
be opened up, or the reasons that they should not be. Could you 
take a look at that too and let us know?
    Mr. Dewey. I will do that, Mr. Chairman, and also keep you 
apprised of our work.
    Chairman Kennedy. Thank you. Senator Brownback?
    Senator Brownback. Thank you, Mr. Chairman. Thank the 
gentlemen. I know both of you and your past work are deeply 
concerned about refugees and what takes place. So I know what 
you want to do is the right thing to do and you may be caught 
in a series of policy issues and some problems, particularly 
what we saw last September 11th, that makes it more difficult.
    Let me add my voice to the Chairman's on this P-2 category. 
I hope, Mr. Dewey, we can get from you some clarity and some 
changes involved in that, because it looks like to me that that 
is an area where we could fairly quickly take some action to be 
able to go at some of these refugee pools and populations that 
it seemed like followed on with what Mr. Ziglar was saying 
about going to other places than what normally we have been to 
in identifying people that we should be helping out more, given 
the current set of circumstances around the world. They have 
certainly changed over the last 10 years.
    Let me ask you a general question because I do not know--
this does not make much sense to me, about why the number has 
been falling so much over the past really 15, 20 years even, 
but we have got it charted up here for the past 10, of the 
number of refugees that we have put in at the ceiling and in 
the actual number that we have experienced. Both of you have 
only been in your jobs a short period of time, but yet you have 
inherited a declining graph when the number of refugees around 
the world has not been falling in that nature. Certainly what 
we have seen recently, that there is a number of people in dire 
circumstances, whether they are refugees or internally 
displaced.
    Do we need law changes to change this? What has produced 
this particular situation through both Democrat and Republican 
administrations over the past 10 to 20 years?
    Mr. Dewey. If I could, Senator, there are several things 
which have been produced it. We can explain I think what has 
happened. The large groups of people that we have brought in as 
a result of the end of the Vietnam War, I think we understand 
the huge numbers that were accommodated during that period. The 
large numbers that came in from the former Soviet Union is 
another large peak in our admissions program. So we go from 
peaks to reductions and to peaks again.
    Right now and beginning in the early 1990s as the former 
Soviet Union program began to taper off we began to see a 
change in the number of people for whom resettlement, the 
admissions solution, was the best solution. We all admitted 
that for the Vietnamese and for those in the former Soviet 
Union this was the best solution. Now we are in a consolidation 
phase where we are seeing the need to diversify and look all 
over the world, not just in major blocks of beneficiaries, but 
all over the world for people in compelling cases where the 
best solution for them and the one that satisfies their 
protection rights is the resettlement solution and admission to 
the United States in many cases. So this is the explanation as 
to why it is happening.
    I think it forces us to realize too that when we look at 
70,000 as our ceiling, this is not a 70,000 block. These are 
70,000 refugees that come one by one. I think more and more we 
are brought to focus upon that fact, that each one in that list 
in our view, and in the consultation with our consultative 
partners, was of a compelling concern to the United States. 
That is why we are so determined to reach that ceiling because 
we feel that that is the level of need.
    Senator Brownback. Could I challenge you somewhat on that 
point? We have or we did have in refugee camps on the border 
and there are still a number of refugees out of the Sudan. I 
have been to refugee camps there; 2 million refugees, rough 
numbers there, probably more. We had 4 million displaced out of 
Afghanistan. Now maybe the situation gets better moving back 
in. I have met with Tibetan refugees fleeing over the Himalayas 
to get out in large refugee areas. Those are just places and 
people that I have seen or know of. Now I have not been to the 
Pakistani refugee camps to see that.
    And 70,000 out of 14 million does not strike me as a 
particularly high number for a country like the United States 
to be able to deal with. I understand the rationale for saying 
what it has fallen down, but I think if we are to lead the 
world by example, and we need to in these situations, we need 
to help them on the ground in those places, but we also need to 
be able to help them if it is best for them to be resettled. In 
some of these countries there are desperate situations that 
they need to resettle out of.
    I think that P-2 category may be one, and I am particularly 
concerned about some of those in the most precarious positions, 
particularly the widows and orphans that you see in some of 
these refugee camps. My goodness, there just is not much of an 
opportunity for them to be able to have a life or a hope in 
some places. Do you not think we can do better?
    Mr. Dewey. I think we can do better, Senator. Let me just 
address the widows and the orphans that are among the most 
compelling cases. The UNHCR is taking a strong lead in 
recognizing the special needs of refugee women, which include 
widows. When I was in UNHCR, remember that we used to think if 
we did a good job for every refugee, since the majority of 
refugees are women and children, we were doing a good job for 
women and children. I soon realized that that was not the case. 
That the special needs of women, the special needs of children, 
the special needs of widows, the special needs of orphans have 
to be taken into account and it has to be a very gender and 
age-sensitive kind of approach that is needed.
    We set up a women's steering Committee in UNHCR when I was 
there as the deputy to deal with these issues. This I 
understand has continued and strengthened over the years. So 
the UNHCR is well aware of the U.S. concern for this particular 
category and they are, at our urging are identifying 
particularly the widows for referrals to the United States for 
admission. I assure you we will do our utmost to provide the 
admissions protection for that group.
    As far as the orphans are concerned, another very 
vulnerable group. We abide by the international conventions 
that a search should be made for parents, an exhaustive search 
to try to find the parents. For some of the orphans, being with 
a foster family or being with an extended family is the best 
solution for them. But the UNHCR makes what is called a benefit 
judgment, what is the best solution for the refugee. Where that 
judgment is that this person, this child should be resettled in 
a resettlement country then we are eager to do that.
    We will be pursuing that very vigorously I assure you, and 
again I would like to, in our more regular consultation 
process, keep you apprised of how we are doing in this 
particular area.
    Senator Brownback. I hope we can do better in those 
populations as well.
    Mr. Ziglar, I appreciate your comments on identifying new 
vulnerable populations for refugee resettlement, going to some 
different places. Could you flesh that thought out a little bit 
further? Where are you thinking about going to other vulnerable 
populations? Has that taken any more form than your study in 
your office?
    Mr. Ziglar. Let me talk about it generally and then a 
little more specifically. As it is now, primarily this is a 
U.S. Government function to make determinations about 
vulnerable populations. Now there have been situations in the 
recent past where some of the NGOs I know have reached out to 
the State Department in terms of trying to provide additional 
information to them and to us about vulnerable populations. 
That consultation process I do not think has really gone very 
far.
    But I do believe that we could get a whole lot more 
information, a lot more on the ground intelligence about where 
the needs are by reaching beyond the end of our nose, because 
the Federal Government is not omnipotent. It does not know 
everything, and that there are people out there on the ground 
who do have a real sense of that. And take that information 
into account in some kind of consultation process and put that 
into our equation about where we should be doing these P-2 
priorities. So that is my view of where we ought to go with 
this.
    Now I cannot tell you that that process has taken any wings 
and is flying, but it is clearly part of the five-point 
initiatives that I have announced and part of our overall 
trying to restructure how we do our part of the refugee 
program.
    Senator Brownback. Good. I would note too, I think both of 
you have commented previously about that refugees are not 
likely people to be in the terrorist category that would come 
into this country. While I think we have got to watch our 
security concerns, it seems like this is not generally a 
population for where we have that concern to come from.
    I would just say finally, if I could, Mr. Chairman, I just 
think that the United States, really we have to do more in this 
category if we are to lead by example. The 70,000 in a world 
where we have so many millions of refugees we need to reach out 
and to feed and to help. I know you two gentlemen I think would 
share that same feeling, that for the United States to be a 
world leader that we need to be doing this to help those who 
are in the most vulnerable situations of any populations around 
the world. It is our duty to do these things.
    I am glad that we are going to meet that 70,000 and I hope 
we can see about doing more of that in the future, and 
particularly looking at this P-2 category. I think that is a 
place where we can do this pretty efficiently.
    Thank you, gentlemen.
    Chairman Kennedy. We want to work together on this and I 
think that Senator Brownback has made a strong--in times in the 
past that has not been the case. We have had administrations 
and Congress looking at this different ways. But I think we 
have, as he pointed out, a recognition that in our whole real 
struggle in dealing with terrorism is multifaceted and we 
obviously have special responsibilities in the areas of entry, 
those that enter our country in particular, but we have also, I 
think, special responsibility in the area of refugees, 
particularly in these areas, demonstrate our values as well in 
dealing with these problems of terrorism.
    So we want to work very closely with you. We thank you very 
much for your appearance here today. We will be following up 
with you and looking forward to hearing from you. Thank you.
    Mr. Ziglar. Mr. Chairman, Senator, thank you very much.
    Mr. Dewey. Thank you.
    Chairman Kennedy. Our second panel, Leonard Glickman, a 
strong voice for refugees and immigrants, president and chief 
executive of the Hebrew Immigrant Aid Society, the oldest 
immigration refugee resettlement agency in the United States. 
Also an impressive record in Government service, working a 
number of years in the Office of Refugee Resettlement at HHS, 
prior to that as press secretary to Representative Tom Ridge, 
staff director for Senator John Heinz.
    Mr. Glickman appears today in his capacity of chair of the 
Refugee Council USA, a coalition of agencies concerned about 
refugee protection. He is uniquely qualified to testified on 
the important. I am pleased he is here.
    Anastasia Brown is the assistant director for processing 
operations, migration and refugee services, United States 
Conference of Catholic Bishops. Her organization sponsors 
approximately one-quarter of all refugee arrivals in the United 
States. Ms. Brown is responsible for all the steps involved in 
the refugee resettlement process prior to the refugee's arrival 
in the United States.
    Prior to joining U.S. Catholic Conference Ms. Brown worked 
at the International Catholic Migration Commission where during 
her tenure over 320,000 Indochinese refugees departed through 
the orderly departure program and resettled in the United 
States. I am pleased to have her speak on this subject based on 
her significant experience.
    Bill Frelick is a well-respected expert on refugees having 
traveled to some of the most dangerous parts of the world to 
assess the plight of refugees and internally displaced. He is 
the director of U.S. Committee for Refugees, a non-profit 
organization dedicated to defending the rights of refugees and 
asylum seekers throughout the world in his work at the USCR 
since 1984. Today he is responsible for coordinating the 
agency's policy and research as well as producing both refugee 
reports and world refugee survey, and USCR's annual report of 
refugee conditions throughout the world. I am pleased to have a 
person with such experience here today and look forward to 
hearing his recommendations.
    So we thank all of you. We have invited our previous panel 
to leave well-qualified staff here to listen to your 
recommendations on it because there are some thoughtful 
comments that I have seen in the recommendations. We look 
forward to hearing from you. We will start with you, Mr. 
Glickman.

STATEMENT OF LENNY GLICKMAN, CHAIRMAN, REFUGEE COUNCIL USA, NEW 
                         YORK, NEW YORK

    Mr. Glickman. Thank you, Mr. Chairman. Chairman Kennedy, 
Senator Brownback, on behalf of the 19 resettlement processing 
assistance and advocacy organizations which are members of the 
Refugee Council USA I want to thank you for convening this 
hearing on the current crisis in the U.S. refugee admissions 
program and for giving us the opportunity to testify.
    Refugee Council USA shares the horror and the grief of all 
Americans at the terrible tragedy of the September 11th 
attacks. As agencies dedicated to the protection of refugees 
around the world we are troubled that in its aftermath the U.S. 
refugee admissions program has virtually ground to a halt, 
stranding over 22,000 U.S. already approved refugees overseas 
and leaving thousands of others unable to access our program. 
These refugees, many of whom have fled the extremists and the 
terrorists with whom we are now at war have been left in harm's 
way.
    That being said, when the terrorists attacked the U.S. on 
September 11th the refugee program was already in a crisis. In 
1993, when President George H.W. Bush left office the U.S. 
resettled nearly 120,000 refugees. In 2001, after eight years 
of the State Department driving down refugee admissions level, 
less than 69,000 out of 80,000 authorized were resettled. With 
more than 14 million refugees, as has been pointed out, many of 
whom desperately need resettled as their only durable solution, 
it is unacceptable that so many refugee admission slots go 
unfilled.
    As you will hear later, we are disturbed but not shocked. 
Over the years, despite some exceptional people at the 
department, State has viewed this program as why we cannot 
rather than how we can. Had the U.S. actually settled all of 
the refugees authorized over the past 10 years, as you can see, 
more than 100,000 people would have had the opportunity to 
begin new lives here, safe and secure. Quite frankly, in all of 
my years of Government service and as HIAS' president I have 
never seen such an example of a government bureau failing to 
meet both the President's stated objectives and the will of the 
American people as expressed through you their elected 
representatives.
    In late September 2001, while the Administration would only 
commit to 70,000 admissions for fiscal year 2002, we agreed to 
work with the State Department to increase U.S. resettlement 
capacity. The Administration declared that it would 
incrementally increase admissions and by 2006 achieve an 
admissions level of 90,000 refugees.
    Commissioner Ziglar and Assistant Secretary Dewey now 
advise that they will strive to resettle 70,000 refugees this 
year. We welcome this new commitment. We agree with the 
commissioner and with the assistant secretary that with 
proactive leadership and a sense of urgency the Administration 
can ensure that 70,000 refugees will be protected and resettled 
in the U.S. this year.
    But again, with over 14 million refugees in the world, it 
is difficult, if not impossible, to understand why the U.S. has 
had such trouble finding 70,000 refugees to resettle. The 
simple answer is that the U.S. refugee program has becoming 
increasingly inaccessible, notwithstanding specific 
recommendations of Refugee Council USA, members of Congress, 
and others, on how to make it more responsive to those in need 
of rescue and refuge.
    Since 1995, the Office of the U.N. High Commissioner for 
Refugees has nearly doubled the number of refugees whom it 
referred for resettlement to the United States. This is no 
small feat given that the overall number of refugees admitted 
to the U.S. has declined by more than 30 percent over the same 
period. During this time the State Department has increasingly 
made UNHCR the gatekeeper to the U.S. refugee program.
    We do welcome and encourage UNHCR's increasing use of 
resettlement as a tool of protection. At the same time, if we 
expect the already overburdened UNHCR to be the primary source 
of refugee referrals for the U.S. program, it unrealistic, it 
is inefficient, and it is an abdication of our leadership.
    Resettlement through UNHCR to the U.S. refugee program 
cannot occur until a refugee endures three separate 
adjudications, four interviews, massive paperwork. This usually 
takes months, if not years. As a result, the UNHCR resettlement 
referral process is often more of an exercise in the survival 
of the most patient rather than protection of the most 
vulnerable. In such a system, refugees in hiding, torture 
victims, widows and children stand little chance of being 
resettled.
    What is the answer? I appreciate your discussion about P-
2s. We believe that in addition to encouraging UNHCR's 
referrals, the State Department should reinvigorate its use of 
the so-called Priority Two category. As you and Commissioner 
Ziglar indicated, this mechanism has allowed specific 
categories of refugees chosen by our own Government, such as 
religious minorities from Iran, ex-detainees, victims of ethnic 
cleansing from Bosnia, Jews and evangelicals from the former 
Soviet Union, and pro-democracy activists from Burma to apply 
for refugee status. In 2000 we identified a number of refugee 
groups who should be able to access the U.S. program without 
UNHCR referral. Not a single one of these were implemented.
    A second policy shift that has undermined refugee 
admissions has been the near abandonment of family reunion in 
refugee processing. From the experience of the Holocaust when 
immigration restrictions prevented many American families from 
reuniting with their relatives in Europe, refugee advocates are 
familiar with the anguish felt by Americans who relatives 
overseas are unable to flee persecution.
    Learning from those years, the U.S. had made family reunion 
a cornerstone of its refugee resettlement program. In recent 
years, as you indicated in your discussion with Assistant 
Secretary Dewey, that cornerstone has been chipped away. Year 
after year we have urged the State Department to facilitate 
family reunification for refugees with immediate family members 
in the U.S. without a UNHCR referral, regardless of 
nationality. Yet today, our Government has taken the opposite 
extreme measure of making it even more difficult through INS 
audits of the anchor relative here in the United States.
    A third element of the failure to reach out to many 
refugees in need is its tragic missed opportunities to protect 
victims of religious persecution. Under the International 
Religious Freedom Act of 1998 the Attorney General is 
instructed to provide training to all officers adjudicating 
refugee cases on the nature of religious persecution abroad. 
Given recent events, we have to question whether this statute 
has been implemented.
    For example, in Vienna INS adjudicates refugee applications 
from Iranian Jews, Bahai, Christians, and Zoroastrians. Austria 
admits these individuals into its country for the express 
purpose of applying to the U.S. refugee program. We owe that 
nation a debt of gratitude for maintaining its post-World War 
II legacy as a transit nation to freedom. The Austrian 
authorities, however, are now concerned that in recent months 
INS has been denying refugee status to 23 percent of religious 
minorities who have fled Iran. That is a 600 percent increase.
    Now to its credit, INS headquarters has finally agreed to 
work with the NGO community and PRM to resolve this situation. 
However, our experience causes us to fear that the constant 
discrimination and oppression faced by Christians, Jews, and 
Bahais in Iran may not, in INS' view, always been sufficient to 
warranting the granting of refugee status. In such cases we 
urge the Attorney General to, at the very least, follow earlier 
precedent and allow members of these religious minorities to 
enter the U.S. under humanitarian parole so that they will not 
be forced to return to Iran where they cannot practice their 
faith in safety and in dignity.
    We hope that now, when confronting a true crisis in the 
refugee program, the Administration will join fully with our 
communities in identifying groups who should be given access to 
the refugee program without having to wrestle with the U.N. 
bureaucracy. We also urge that it promote reunification of 
refugees with their families in the U.S. And we request that 
they ensure that oppressed religious minorities are not 
returned to countries that routinely and egregiously violate 
religious freedom.
    With the recent statements supporting expanded 
resettlement, we hope the U.S. will fulfill this pledge and 
reverse the downward trend of the previous eight years and 
restore its commitment to refugee protection. We look forward 
to building our communities partnership with the State 
Department under the new leadership of Assistant Secretary Gene 
Dewey, and our partnership with INS under Commissioner Ziglar. 
We hope you very much for holding this hearing, and I have a 
much fuller statement I hope we can insert into the record.
    [The prepared statement of Mr. Glickman follows.]

   Statement of Leonard S. Glickman, Chair, Refugee Council USA and 
            President and CEO, Hebrew Immigrant Aid Society

    Chairman Kennedy, Senator Brownback, members of the Subcommittee, 
on behalf of the 19 refugee resettlement, processing, assistance and 
advocacy organizations who are members of Refugee Council USA, I would 
like to thank you for convening this hearing on the current crisis in 
the U.S. Refugee Admissions program, and for giving us the opportunity 
to testify.
    The Refugee Council USA is the coalition of U.S. non-governmental 
organizations focused on refugee protection. The Refugee Council USA 
provides focused advocacy on issues affecting the protection and rights 
of refugees and displaced persons in the United States and across the 
world. Particular areas of concern are adherence to international 
standards of refugee rights, the promotion of the right to asylum, 
political and financial support for UNHCR, and the promotion of durable 
solutions, including resettlement to the United States. The Refugee 
Council USA also serves as the principal consultative forum for the 
national refugee resettlement and processing agencies as they formulate 
common positions, conduct their relations with the U.S. Government and 
other partners, and support and enhance refugee service standards.
    I would also like to welcome recent statements by Commissioner 
Ziglar and Assistant Secretary Dewey that show a strong commitment to 
refugee protection and resettlement. My testimony today will focus on 
the challenges that lie ahead for the program, and the private sector's 
enthusiasm to work together in partnership with the State Department, 
the Immigration and Naturalization Service (INS) and the United Nations 
High Commissioner for Refugees (UNHCR), to meet our commitments.
    For refugee advocates--and I believe for all Americans--the United 
States Refugee Program is a defining element of our country's core 
values. Through this program we have offered new hope, and new lives, 
to victims of persecution around the world. Whether they are courageous 
victims of religious persecution or attempts at stifling political 
dissent--or are the vulnerable widows, orphans, or torture survivors 
from vicious civil conflicts across the globe--refugees have looked to 
us for a chance at a future. In return, refugees have made America 
home, have revitalized neighborhoods, have helped businesses thrive, 
and have reaffirmed American values of family, community and love of 
country. Refugees are truly as much part of America's future as they 
are part of our past.
    Refugee Council USA shares the horror and grief of all Americans at 
the terrible tragedy of the September 11 attacks. As agencies dedicated 
to the rescue of refugees around the world, we are troubled that the 
U.S. refugee admissions program has virtually ground to a halt, 
stranding over 22,000 U.S.-approved refugees overseas. These refugees--
many of whom have fled the extremists and terrorists with whom we are 
now at war--have been left in harm's way instead of being granted a 
safe future in America.
    We must emphasize, however, that much of the crisis faced by the 
Refugee Admissions program pre-dates September 11.
    The agencies of Refugee Council USA have long enjoyed a public-
private partnership with the U.S. government. Overseas, our member 
agencies help the Department of State and the INS with preparing 
refugee applicants for their INS interviews, and for life in the United 
States. Domestically, our networks of local volunteer organizations, 
professional staffs, and faith-based communities work with the State 
Department and the Office of Refugee Resettlement to help the refugees 
find housing, learn English, get employed, and prepare to become 
citizens of our country.
    From this perspective we have seen some positive trends in recent 
years. The United States remains the leading international advocate for 
refugee protection. We are also pleased that the refugees recently 
resettled in the United States represent the most diverse caseload 
since the enactment of the Refugee Act of 1980.
    That being said, when the terrorists attacked the United States on 
September 11, the refugee program was already in crisis. In 1993, when 
George H. W. Bush left office, the United States resettled nearly 
120,000 refugees. In FY2001, after eight years of the State Department 
driving down refugee admissions levels, less than 69,000 refugees--out 
of 80,000 authorized--were resettled. With more than 14 million 
refugees in the world, many of whom desperately need resettlement, it 
is unacceptable that, year after year, so many refugee admission slots 
go unfilled.
    In late September 2001, while the Administration would only promise 
70,000 admissions for FY 2002, we agreed to work closely with the State 
Department to increase U.S. resettlement capacity. The Administration 
declared that it would incrementally increase admissions and, by 
FY2006, achieve an admissions level of 90,000 refugees--still 
significantly lower than several years ago.
    Commissioner Ziglar and Assistant Secretary Dewey now advise that 
they will strive to resettle 70,000 refugees this year. We welcome this 
modest number because, only a few weeks earlier, the Administration 
asserted that we should expect little more than half of that number, 
and well under the target of 75,000 in FY 2003. We agree with the 
Commissioner and the Assistant Secretary that--with proactive 
leadership and a sense of urgency--the Administration can ensure that 
70,000 refugees are rescued from persecution and resettled in the 
United States this year.
    At the same time, we are concerned that this commitment may not be 
able to be maintained with the President's FY 2003 budget request of 
only $705 million for the Migration and Refugee Assistance (MRA) 
account. This budget request is $10 million less than the 
Administration sought for FY 2002. While we are suggesting changes that 
would make some aspects of refugee processing more cost-efficient, 
enhanced security measures will likely cause an overall increase in the 
cost of resettlement. Under these circumstances, a higher level of 
funding for MRA will be needed.

   Grassroots Network for Refugees and the Public Private Partnership

    I would like to underscore the breadth of public support for 
refugee resettlement. The U.S. refugee admissions program is an 
excellent example of a public-private partnership. In refugee 
resettlement, core American values are put into action through joint 
efforts of the government, a coalition of national refugee agencies and 
a vast network of local organizations and volunteers who provide 
services to refugees and help them integrate into American society.
    Below are brief descriptions of many of the Refugee Council USA's 
member networks illustrating the depth of involvement of Americans 
across our country in the refugee protection movement.

        <bullet> Lutheran Immigration and Refugee Service (LIRS) is a 
        cooperative agency of the Evangelical Lutheran Church in 
        America, the Lutheran Church--Missouri Synod and the Latvian 
        Evangelical Lutheran Church in America. Together, these church 
        bodies include more than 17 thousand congregations around the 
        country with nearly 8 million members. LIRS and its 27 
        affiliates and 16 sub-offices around the country resettled 
        approximately 13,000 refugees per year before the crisis.

        <bullet> World Relief is the relief and development arm of the 
        National Association of Evangelicals, which represents 43,000 
        congregations in the United States. World Relief has 27 refugee 
        resettlement offices nation-wide and worked with nearly 2,000 
        churches. World Relief's volunteers are dedicated to helping 
        refugees rebuild their lives by providing their time, 
        resources, and dedication. Since 1998, World Relief has had 
        over 10,000 volunteers from churches and local communities 
        assist refugees in their resettlement offices.

        <bullet> The Church World Service Immigration and Refugee 
        Program (CWS/IRP) is a network of ten national Protestant 
        denominations, representing over 30 million people and 45 local 
        affiliate offices serving the needs of refugees as they 
        resettle in the United States. CWS/IRP seeks to involve the 
        local congregations of these ten denominations in life-giving 
        ministry to refugees from around the world. As refugee 
        sponsors, congregations live out the biblical call to ``welcome 
        the stranger'' by creating hospitable communities for refugees 
        and providing for their material needs upon their arrival.

        <bullet> The Hebrew Immigrant Aid Society (HIAS) is the Jewish 
        Community's international migration agency. HIAS, at 120 years 
        old, is the country's oldest migration and assistance 
        organization and includes over 100 affiliated Jewish 
        communities that resettle refugees across the United States. 
        Services are provided by HIAS, local Jewish Family and Children 
        Services and Jewish Vocational Services offices, and are 
        supported by the local Jewish Federations.

        <bullet> The Ethiopian Community Development Council (ECDC) is 
        a community-based organization dedicated to serving newcomers 
        from around the world while maintaining a focus on Africans. 
        Through its refugee resettlement, health education, social 
        services, cross-cultural understanding and micro-credit 
        programs, ECDC assists a diverse community of refugees and 
        immigrants to become self-sufficient and make contributions to 
        their new homeland. ECDC is dedicated to improving 
        opportunities for strengthening communities and individual 
        advancement among newcomers by coordinating with over 40, 
        mainly African, community-based organizations around the 
        country.

        <bullet> The International Rescue Committee (IRC) is a leading 
        nonsectarian organization that normally resettles nearly 10,000 
        refugees in over 21 cities across the country. IRC has an 
        extensive volunteer network of over 1,000 persons committed to 
        assisting refugees resettled in their communities. IRC's 
        experience and knowledge as a resettlement agency are enhanced 
        by its provision of emergency assistance to refugees and other 
        populations displaced by violence and oppression, in over 30 
        countries worldwide.

        <bullet> Migration and Refugee Services of the U.S. Conference 
        of Catholic Bishops coordinates the refugee resettlement 
        activities of the Catholic Church in the United States and is 
        the largest resettler of refugees in the nation. Through more 
        than 100 diocesan affiliates across the nation, MRS/USCCB 
        resettles approximately one-quarter of the refugees brought 
        into the United States each year. In FY 2001, MRS/USCCB helped 
        resettle close to 17,000 refugees of 102 ethnicities and fifty-
        five nationalities.

        <bullet> Episcopal Migration Ministries (EMM), which serves as 
        the refugee assistance and advocacy arm of the Episcopal Church 
        serves 26 dioceses throughout the U.S., encompassing 38 
        different U.S. communities. Churches and private volunteers 
        figure strongly in EMM's assistance to about 3000 refugees 
        annually.

        <bullet> The Immigration and Refugee Services of America (IRSA) 
        has served the needs of refugees and immigrants since 1917 when 
        its affiliate structure assisted in the resettlement and 
        reunion of families after the ravages of World War I. IRSA is 
        composed of a national headquarters in Washington, DC; a 
        network of 35 community-based partner agencies throughout the 
        United States that provide resettlement and integration 
        services to all refugees from all ethnic groups; and the US 
        Committee for Refugees, its public information and advocacy 
        arm.

        <bullet> The Center for Victims of Torture, based in 
        Minneapolis and St. Paul, was established in 1985 as the first 
        U.S. comprehensive treatment center for victims of torture. 
        There are now 34 programs in 19 states assisting victims of 
        torture and organized in the National Consortium of Torture 
        Treatment Programs. Many of the National Consortium members 
        receive financial support through the Torture Victims Relief 
        Act, which authorizes the Office of Refugee Resettlement of the 
        Department of Health and Human Services to support these 
        programs.

        <bullet> The Southeast Asia Resource Action Center (SEARAC) is 
        the national advocacy and capacity-building organization for 
        Americans who arrived in this country as refugees from 
        Cambodia, Laos, and Vietnam. SEARAC's national network includes 
        over 130 community-based nonprofit organizations known as 
        ``mutual assistance associations'' (MAAS) that are managed by 
        and for Southeast Asian Americans. SEARAC focuses much of its 
        effort on working with the twenty-two MAA members of its 
        Southeast Asian American Advocacy Initiative.

        <bullet> The Lawyers Committee for Human Rights has, since 
        1978, worked to promote human rights and to protect the rights 
        of refugees in the United States and abroad. The Lawyers 
        Committee grounds its work on refugee protection in the 
        international standards of the 1951 United Nations Convention 
        Relating to the Status of Refugees and its 1967 Protocol as 
        well as other international human rights instruments. It 
        advocates adherence to these standards in U.S. law and policy. 
        Through its Asylum Program, the Lawyers Committee operates one 
        of the largest and most successful pro bono asylum 
        representation programs in the country.

        <bullet> The Institute of International Law and Economic 
        Development has advised a number of small states on their 
        constitutional development and supported human rights seminars 
        both in Africa and the Pacific. Currently it is engaged in an 
        examination of emergency mass asylum and the development of 
        specialized training materials for the U.N. High Commissioner 
        for Refugees.

        <bullet> The United States Association for UNHCR is an 
        organization with members in all 50 states. It exists to 
        support the work of UNHCR, primarily by accepting private 
        donations to augment United States Government contributions. 
        USA for UNHCR conducts outreach and awareness projects that 
        build support for UNHCR in communities across the United 
        States.

    This combined movement constitutes the active commitment of the 
American public to provide an essential safety net for newly arrived 
refugees, and its shared responsibility to facilitate the smooth 
functioning of the United States government's policy in the refugee 
arena.

      Problems with the U.S. Refugee Program Prior to September 11

             U.S. REFUGEE PROGRAM INCREASINGLY INACCESSIBLE

    With over 14 million refugees in the world, why has it been so 
difficult for the United States to find 70,000 to resettle?
    The simple answer is that the U.S. Refugee Program has become 
increasingly inaccessible, notwithstanding specific recommendations 
from Refugee Council USA, members of Congress, and others on how to 
make it more responsive to those in need of rescue and refuge.
    Since 1995, the UNHCR has nearly doubled the number of refugees 
whom it referred for resettlement in the United States. This is no 
small feat, given that the overall number of refugees admitted to the 
United States has declined by more than 30% over the same period. 
During this time, the United States has increasingly made the office of 
the UNHCR the gatekeeper to the U.S. Refugee Program. Do not get me 
wrong--we welcome and encourage UNHCR's increasing use of resettlement 
as a tool of protection and as a durable solution for refugees, and 
strongly believe that UNHCR should be encouraged to refer refugees in 
need of resettlement to the United States. At the same time, expecting 
UNHCR to be the primary source of refugee referrals for the U.S. 
program is unrealistic, inefficient and an abdication of our 
leadership.
    UNHCR has a mandate to protect millions of refugees all over the 
world. This mission is overwhelming for the agency and where, in some 
regions, there is only one protection officer for every 500,000 
refugees. Under these circumstances, UNHCR Protection Officers, among 
many other duties, are expected to identify individuals for status 
determination and resettlement. Such refugees must endure two lengthy 
UNHCR interviews and adjudications concerning their persecution, 
conditions of first asylum and need for resettlement. Protection 
Officers must provide extensive written justification for their 
decisions in each of these adjudications.
    Once these steps are completed, the UNHCR Protection Officer must 
find a way to get the refugee physically in front of what the State 
Department calls the ``Overseas Processing Entity'' (and what we still 
prefer to call a ``Joint Voluntary Agency '') for another interview and 
preparation of yet another redundant and lengthy INS refugee 
application form, the I-590. Once the I-590 is completed, the refugee 
must be interviewed for the fourth time--now by the INS. In Africa, 
there are only three regular INS refugee processing posts on the entire 
continent, and in the fifteen countries which once made up the USSR, 
there is only one processing post--incredible hurdles to overcome.
    With a screening process like this, UNHCR Protection Officers 
deserve great credit for referring any refugees for resettlement. 
However, with three lengthy forms and four interviews that the refugee 
must endure, this process almost always takes many months, and often 
takes years. During this time, the refugee is seldom able to get any 
information about the status of his case. If he or she is screened out 
by UNHCR during the process, there is no appeal. As a result, the so-
called ``Priority One'' resettlement referral process is often more an 
exercise in the survival of the fittest than the protection of the most 
vulnerable.
    In such a system, refugees in hiding, torture victims, widows, and 
children stand little chance of being resettled.
    We do not entirely blame UNHCR, however. While their exhausting 
procedures should be streamlined and improved, they are in place to 
ensure that UNHCR officers do not stray from established resettlement 
criteria. INS could also help make the referral process more efficient 
by allowing UNHCR referrals to submit simplified INS application forms 
that are not redundant to the exhaustive forms already completed by 
UNHCR. It could also show more flexibility in choosing interview sites.
    What is the answer? In addition to encouraging UNHCR referrals, the 
State Department should reinvigorate its use of the so-called Priority 
2, or P-2, category to allow access to the U.S. Refugee Program. This 
mechanism allows specific categories of refugees chosen by our own 
Government- such as religious minorities from Iran, ex-detainees and 
victims of ethnic cleansing from Bosnia, Jews and Evangelicals from the 
former Soviet Union, and pro-democracy activists from Burma--to apply 
for refugee status without having to spend years navigating the UNHCR 
protection bureaucracy. Registration without a UNHCR referral can be a 
much more cost-effective and expeditious means of resettlement. And 
remember, to be admitted under Priority 2, each individual must still 
establish that he or she meets the U.S. definition of a refugee--an 
individual with a well-founded fear of persecution on the basis of 
race, religion, political belief, nationality, or membership in a 
particular social group.
    The Refugee Council USA has had a long and frustrating experience 
attempting to work with the State Department to develop new P-2 
categories.
    In 1999, we identified a number of refugee groups who should have 
been allowed to access the U.S. program without a UNHCR referral. One 
of these, the Somali Bantu, was adopted by the State Department. While 
there are almost 10,000 Somali Bantu languishing in an extremely 
dangerous refugee camp in Kenya, at the border with Somalia, not a 
single one has yet entered the U.S. as a refugee.
    In 2000, we identified a similar number of refugee groups who 
should be able to access the U.S. program without a UNHCR referral. Not 
a single one of these were implemented.
    Finally last year, the State Department asked us for our 
recommendations of categories of refugees who should be able to access 
the US program without a UNHCR referral. We recommended no less than a 
dozen specific groups for the State Department's consideration. In 
June, UNHCR wrote to the State Department agreeing with many of our 
recommendations and, to its great credit, identified an additional four 
categories of refugees who should be given access to the U.S. program 
without a UNHCR referral.
    Again, thus far no concrete action has been taken on these 
recommendations.
    Our first recommendation is that the State Department should permit 
direct registration of refugee caseloads. It should stop relying to 
such a degree on UNHCR referrals, when UNHCR itself, together with 
Refugee Council USA, has suggested numerous vulnerable caseloads which 
could be adjudicated much more efficiently without a UNHCR referral.
    My colleague from the US Committee for Refugees, a member agency of 
the Refugee Council USA, will provide additional information about 
specific groups of refugees in need of this type of processing and 
protection in separate testimony.

     NEAR ABANDONMENT OF FAMILY REUNIFICATION IN REFUGEE PROCESSING

    From the experience of the Holocaust, when immigration restrictions 
prevented many American families from reuniting with their relatives in 
Europe, refugee advocates are familiar with the anguish felt by 
Americans whose relatives are stuck as refugees overseas. After World 
War II, the U.S. learned from this experience and made family reunion a 
cornerstone of its refugee resettlement program. Family reunion rescues 
the persecuted, helps Americans reunite with their families, and 
facilitates the successful integration of refugees into our society.
    In recent years, that corner stone has been chipped away.
    While many refugees have links to Americans, very few would be 
eligible for immigrant visas without waiting for years and years. 
Today, only a half dozen nationalities are eligible to gain access to 
an INS refugee interview based on having immediate family members in 
the U.S. This is the so-called P-3 category. Unlike in years past, the 
siblings, grandparents, grandchildren, or married children have no 
access to the refugee program, regardless of nationality. This was 
covered by the now extinct P-4 category.
    Increasingly, the only hope families have of reuniting with 
relatives who are living as refugees overseas is through referrals from 
the over-burdened UNHCR bureaucracy. Such referrals are far too few.
    Year after year, the agencies of Refugee Council USA have urged the 
State Department to facilitate family reunification for refugees with 
immediate family members in the U.S. without a UNHCR referral, 
regardless of nationality. We have also urged that, with certain large 
refugee caseloads, the U.S. allow refugee siblings, grandparents, 
grandchildren and married children of Americans to have direct access 
to the U.S. program. UNHCR has been supportive of these requests, 
indicating that the INS is in a better position to verify family links 
to the United States than is UNHCR.
    That being said, in the recent past INS has paid too little 
attention to verifying family links. Today, INS has taken the opposite 
extreme, suspending processing of its entire family reunification 
caseload. Every single family reunification case is now required to 
undergo a Washington, D.C. audit prior to approval. With few new cases 
eligible and all old cases tied up at INS headquarters, family-based 
refugee processing is now in a state of paralysis.
    As with our other recommendations, our requests for the State 
Department to expand family reunification have been repeatedly ignored.
    To summarize, our second recommendation is that the State 
Department employ a ``universal P-3'' designation to facilitate the 
processing of refugees, regardless of nationality, with close relatives 
in the United States. When dealing with large and vulnerable caseloads, 
it is also appropriate for the State Department to also give priority 
to refugees who have more extended family links to the United States.

                    VICTIMS OF RELIGIOUS PERSECUTION

    Under the International Religious Freedom Act of 1998, the Attorney 
General is instructed to provide training to all officers adjudicating 
refugee cases on the nature of religious persecution abroad. Given 
recent events, we have to question whether this statute has been 
implemented.
    For example, in Vienna, INS adjudicates refugee applications from 
Iranian Jews, Bahai, Christians and Zoroastrians who have fled 
religious persecution. Up until August 1, 2001, the denial rate for 
this caseload had averaged 3.6%. Since August 1, 2001, 23% of members 
of Iranian religious minorities have been denied refugee status by 
INS--a 600% increase in denials. This denial rate is disturbing, as 
country conditions for religious minorities remain unchanged in Iran, a 
country that President Bush has just described as being part of the 
``axis of evil.'' Indeed, the State Department has cited Iran as a 
``country of particular concern for its severe and egregious violations 
of religious freedom.''
    Austria admitted these individuals into the country for the express 
purpose of applying to the U.S. Refugee Program. We owe that nation a 
great deal of gratitude for maintaining its post-World War II legacy as 
a transit nation to freedom. The Austrian authorities, however, are now 
so concerned by the surge in INS denials of refugee applications that 
it has told the U.S. government that Austria may have to close its 
borders to religious minorities fleeing from Iran.
    To its credit, INS has acknowledged the problem and has started 
taking steps to re-examine its adjudications in Austria, including 
those cases that it has already denied. The State Department has been 
supportive of working with INS and the Overseas Processing Entity/JVA 
to facilitate reconsideration of these denied cases.
    However, our experience causes us to fear that the constant 
discrimination and oppression faced by Christians, Jews, and Bahais in 
Iran may not, in INS' view, always be sufficient to warrant the 
granting of refugee status. In such cases, we urge the Attorney General 
to follow earlier precedent and allow members of these religious 
minorities to enter the United States under humanitarian parole so that 
they will not be forced to return to Iran where they cannot practice 
their faith in safety and dignity.
    Our third recommendation, therefore, is that the U.S. Refugee 
Program implement the training and guidelines required under the 
International Religious Freedom Act, and offer humanitarian parole to 
bona fide members of persecuted religious minorities who should not be 
forced to return to a country where they would be mistreated on account 
of their religious beliefs.

                THE REFUGEE CRISIS AFTER SEPTEMBER 11TH

    The refugee program was severely impaired prior to September 11. 
Today, it is virtually paralyzed. However, we believe that, with 
appropriate resources, refugee processing can be efficient without 
compromising the security of the United States. So far, such resources 
have not been dedicated, processing has come to a standstill, and 
refugees who are trying to flee terror are paying the price.
    In the aftermath of the September 11th tragedy, the Refugee Council 
USA fully understood the necessity of enhancing the integrity and 
security of the U.S. Refugee Program. However, we were greatly troubled 
by the length of the review and the absence of any opportunity for us 
as the voluntary agency partners in the refugee program to provide 
input based on our decades of experience in overseas refugee 
processing. Substantively, we were very concerned that while none of 
the terrorists were refugees, the refugee program was the only 
``immigration'' program that faced a near moratorium. In addition to 
stopping the admission of already approved refugees, the INS has only 
been permitted to conduct new refugee adjudications in three sites 
around the world.
    The human costs of this delay have been enormous. Among the 
refugees placed in limbo waiting for the possibility to find freedom 
and safety in America were Afghan widows, single women and children in 
Pakistan, religious minorities from the former Soviet Union and Iran, 
long-time refugees living in West African refugee camps, and many 
others. Family members here in the United States became sick with 
worry.
    Officially, the moratorium was lifted on November 21st when 
President Bush signed the Presidential Determination on the fiscal year 
2002 refugee program and the security review was completed. The refugee 
community was pleased that, despite the lost time, the President 
recommitted the Administration to reaching this year's goal of 70,000 
refugee admissions.
    While strengthening security procedures is necessary, the manner in 
which this has been implemented has had an extremely negative impact on 
refugee arrivals, thereby exacerbating the crisis for refugees in the 
field. Our calculations indicate that in the first four months of FY 
2002, only 2,981 refugees were admitted compared with over 16,000 in 
the same period in FY 2001. Reports that the International Organization 
for Migration has scheduled only 2,600 refugees for admission in 
February 2002, instead of the usual 5,000-7,000, demonstrates that the 
ominous shortfall in admissions is continuing. Again, I need to 
underscore that refugee numbers lost are not numbers alone, but lives 
of individuals in tremendous need of protection.
    To demonstrate the impact on local communities, and the refugee 
resettlement capacity of the United States, I would like to use my own 
agency as an example.
    During the first three months of FY 2002, nine HIAS affiliates 
received a total of only 56 refugees. During the same period last year, 
102 HIAS affiliates resettled a total of 2,142 refugees. Indicating the 
impact on local communities, in the first quarter of fiscal year 2002, 
HIAS' affiliate in Tucson resettled one refugee instead of 34; in San 
Francisco, three instead of 86; and in New York City, seven instead of 
837. As a consequence of the lack of arrivals, affiliates are being 
forced to retrench resettlement staff. Most are aware that should 
arrivals pick up later in the year, the linguistically skilled case 
managers who are being laid off and the dedicated volunteers who are 
moving on to other programs may not be available to assist in 
resettling newly arrived refugees.
    These dramatic shortfalls can be seen throughout the networks of 
the Refugee Council USA member agencies. In polling our members to 
determine the current and anticipated impact of low arrivals, and 
consequent drop in revenues to support local programs, we see alarming 
developments. Agencies report between 10% and 60% reductions in staff 
at the affiliate level due to lack of revenues. And, if the network is 
diminished further, our ability to gear back up when U.S. policy 
requires assistance for future arrivals will be made all the more 
challenging. Our objective of enhancing the quality of the resettlement 
experience for newly arriving refugees will be in jeopardy under these 
circumstances.

        POST-SEPTEMBER 11 MIXED MESSAGES FROM THE ADMINISTRATION

    Based on projected admissions figures alone, FY 2002 will be a 
crisis year of monumental proportions. At the current rate, the United 
States will not even admit half of the 70,000 refugees whom the 
Administration pledged to admit even after September 11. Other groups 
of immigrants, temporary workers and visitors to the United States have 
not been similarly impacted. We can still resettle 70,000 refugees this 
year if the U.S. Government takes an aggressive and creative approach 
to refugee processing and admissions. Time, however, is running out.
    In January, Refugee Council USA was concerned to learn from the 
Department of State that they believed no more than 45-50,000 refugees 
could be admitted in FY 2002, and so had decided to reprogram $38 
million from resettlement to other refugee assistance needs. While all 
Refugee Council agencies are strong supporters of overseas refugee 
assistance, and some provide this assistance themselves, we believe 
both assistance and resettlement are essential components of refugee 
protection, and require appropriate funding to fulfill their missions. 
Particularly when the admissions program is already struggling to meet 
the President's goals, we believe that processing funds should not be 
cut, thereby dooming hopes for this crucial protection tool.
    Against this background, we were encouraged by INS Commissioner 
Ziglar's public declaration in early February that the Bush 
Administration would take the steps necessary to meet the target of 
70,000 admissions.
    However, in the immediate aftermath of this reassuring news, 
refugee advocates were disappointed to see that the President's FY 2003 
budget request does not seek an increase for the Migration and Refugee 
Assistance account that would allow badly needed protection to reach 
more refugees. The budget request seeks $705 million for this account--
a funding level that is the same as the FY 2002 final appropriation, 
but $10 million less than the President's own FY 2002 proposal. Sadly, 
the message of this budget is the contraction of the United States' 
commitment to refugees. It does not promote the growth and expansion of 
this critical tool of the United States' humanitarian and foreign 
policy, to which the State Department just last year told us they were 
committed.
    Finally, I would like to identify several key problems relating to 
the new security measures that have had a devastating impact on this 
year's refugee program. We firmly believe that each of these 
difficulties can be resolved with additional resources and an energetic 
common sense approach that fulfills both our legitimate security needs 
and our commitment to refugee protection.

        <bullet> The system is so slow on the U.S. side that only 30 
        refugees can be scheduled per flight because refugees, unlike 
        other immigrants and nonimmigrants, must undergo a special 
        security screening upon arrival at each airport.

        <bullet> There are only four ports of entry where refugees may 
        be admitted--New York, LA, Chicago, and Miami.

        <bullet> New fingerprints are required at ports of entry, but 
        insufficient staffing and equipment has been made available to 
        admit refugees in a timely manner.

        <bullet> There is a terrible backlog in the processing of 
        Security Advisory Opinions (SAOs), thereby holding up refugees 
        stranded abroad. For example, in Vienna, SAOs are taking two 
        months to process.

        <bullet> New requirements that all family reunion refugee cases 
        be sent back to Washington for additional review has caused 
        indefinite delay for thousands of refugees, and has had a 
        particularly negative impact on refugees in Africa.

        <bullet> While upcoming INS activity may improve the situation 
        to some degree, the United States government has not 
        expeditiously addressed the need to begin adjudicating or even 
        registering new refugee cases.

        <bullet> Further affecting refugee processing is the new 
        requirement that the Regional Security Officer must declare 
        overseas sites to be ``secure'' before INS can conduct 
        interviews there. Last week, there were only two such 
        ``secure'' sites worldwide, and this week, there are a total of 
        three--Vienna, Havana, and Moscow.

    My colleague from Migration and Refugee Service of the United 
States Conference of Catholic Bishops, a member agency of Refugee 
Council USA, will address these new processing impediments in greater 
detail in separate testimony.

                               Conclusion

    Again, I would like to thank you for inviting me to testify here 
today on behalf of Refugee Council USA. We hope that now, when 
confronting a true crisis in the refugee program, the Administration 
will join fully with the refugee community in identifying groups who 
should be given access to the refugee program without having to wrestle 
with the UN bureaucracy. We also urge that it promote reunification of 
refugees with their families in the United States. We request that they 
ensure that oppressed religious minorities are not returned to 
countries that routinely and egregiously violate religious freedom. 
With the recent statements supporting expanded resettlement, we hope 
the United States will fulfill this pledge and reverse the downward 
trend of the previous eight years and restore its commitment to refugee 
protection. Finally, we look forward to a building of our communities' 
partnership with the State Department under the new leadership of 
Assistant Secretary Gene Dewey.

    Chairman Kennedy. All the statements will be printed in 
their entirety in the record as if read.
    Ms. Brown?

STATEMENT OF ANASTASIA BROWN, ASSISTANT DIRECTOR FOR PROCESSING 
OPERATIONS, MIGRATION AND REFUGEE SERVICES, U.S. CONFERENCE OF 
               CATHOLIC BISHOPS, WASHINGTON, D.C.

    Ms. Brown. Thank you, Mr. Chairman, for inviting me to 
testify today. You have the written testimony of my agency 
which addresses more fully the many issues involved in the U.S. 
refugee admissions program. My presentation today focuses on 
the number of refugees known to be available for interviews and 
recommendations for reaching admissions of 70,000 refugees in 
this fiscal year.
    The main message of my testimony is that with concentrated 
effort and political will the U.S. can process 70,000 refugees 
into the country in this fiscal year. This will require several 
steps of the refugee process to occur concurrently, and will 
require the cooperation of all partners, U.S. Government and 
NGOs, to achieve the goal.
    Analysis of the most recent data from overseas posts 
indicates that as of the end of the November there was a pool 
of approved refugees from all regions of the world of over 
21,000 persons, and that almost 55,000 persons were pending INS 
interviews. In addition, cases were open for over 7,000 new 
persons in one month. Based on this information, if INS is able 
to conduct large scale interviews over the next five to six 
months sufficient numbers of refugees could be approved and 
could arrive in the U.S. by the end of the fiscal year.
    Chairman Kennedy. Could you give me that just again, 
please? I was listening but I want to get it. Could you just 
restate that?
    Ms. Brown. Certainly. There were 21,000 persons who had 
already been approved. There were 55,000 persons pending INS 
interviews. And they had opened within one month cases for 
7,000 new persons.
    Chairman Kennedy. So you are saying 21,000 are overseas 
already approved.
    Ms. Brown. Already approved.
    Chairman Kennedy. And they are not included in any of the 
lists that we have so far? They do not count them?
    Ms. Brown. This group of refugees was already identified, 
approved, and are pending departure to the United States.
    Chairman Kennedy. And the 50,000, they are in what 
category?
    Ms. Brown. Fifty-five thousand have been identified, cases 
prepared and are pending INS interview.
    Chairman Kennedy. Then the last 7,000?
    Ms. Brown. The overseas posts had opened new cases for 
7,000 persons in one month.
    Chairman Kennedy. Thank you.
    Ms. Brown. So interviewing at the rate of large scale 
interviews for five to six months there would be sufficient 
persons approved to enter in this fiscal year.
    Because of the events of September 11th certain new 
security procedures are required which delay the arrival of 
approved refugees. They are fingerprinting of all refugees, 
which is currently done at the U.S. port of entries; security 
advisory opinion name checks which are conducted by the FBI on 
certain nationalities of refugees; the INS review of family-
based refugee claims which involves INS headquarters review of 
the refugee records to ensure claimed relationships are 
genuine; and there is the need to identify secure facilities 
for INS to conduct interviews overseas.
    We believe there are proactive steps that the Government 
can take to expedite the processing of refugees without 
sacrificing security concerns. In the area of fingerprinting, 
more personnel should be committed to this process and our 
Government should be more proactive to identify secure 
locations at ports of entry. We need to process over 200 
refugees arriving per flight to process such a large number of 
refugees into the country in a short period of time.
    In the area of INS review of the family-based refugee 
claims, INS must have sufficient staff to complete this review 
within six months. In order to save time and increase 
efficiency overseas other necessary steps in the process, 
including name checks, medical exams, sponsorship assurances by 
the U.S. resettlement agencies, even INS interviews must be 
completed prior to or concurrent with the INS review here in 
the United States.
    In the area of security advisory opinions, review should be 
completed more expeditiously. It requires placing refugee 
reviews as a priority within the Justice Department, and 
ensuring that the FBI has the resources and capacity to meet a 
shorter deadline. As with INS review, all other steps should be 
completed while waiting for the results of the name checks. 
This was including INS interviews with approvals based pending 
the reviews of the security checks.
    The INS interview facilities overseas, the Department of 
State must identify the number of interviewing officers 
required to reach the admissions ceiling and communicate the 
need to expeditiously locate these interviewing space to the 
embassies. We would calculate very roughly that 30 to 40 INS 
officers committed to interviews over five months could achieve 
the number of refugee admissions required.
    While the immediate crisis has brought delays to light, 
there have been chronic problems with reaching the admissions 
ceiling over the many years. I would make two recommendations 
in this area. The Department of State should strive to achieve 
a travel-ready pool of at least one-quarter of the admissions 
ceiling at all times. And the Department of State should try to 
reach the designated number of arrivals per quarter instead of 
scrambling to meet admissions ceilings in the last few months 
of each year.
    Finally, Mr. Chairman, I would like to speak to the family 
reunification processing. As you know, the U.S. Catholic 
Bishops agree with you that family reunification is the 
cornerstone of the U.S. immigration and refugee systems. 
Unfortunately, family-based eligibility is becoming a closed 
avenue for admission into the U.S. In recent years the number 
of nationalities dropped from 21 to only six nationalities.
    There have been concerns raised that the program has in 
some cases led to misrepresentation of relationships. But in 
light of the new security measures which require reviews of the 
family-based cases we would hope this important category can be 
reopened to all refugee populations. Cases which are currently 
in the process of closure due to administrative deadlines 
should be reopened, and criteria involved for application to 
this program should be revisited.
    We would recommend the registration of refugees upon 
arrival in countries of first asylum by the UNHCR as an 
additional method to combat misrepresentation. Moreover, 
increased avenues of access to resettlement interviews would 
reduce the problem of misrepresentation. Mr. Chairman, each 
refugee admission number not used in a fiscal year is a refugee 
forced to continue in a hopeless situation overseas.
    I thank you very much for this opportunity to testify.
    [The prepared statement of Ms. Brown follows.]

 Statement of Migration and Refugee Services, United States Conference 
 of Catholic Bishops, Presented by Ms. Anastasia Brown, Asst. Director 
                       for Processing Operations

    I am Anastasia Brown, Assistant Director for Processing Operations, 
Migration and Refugee Services, United States Conference of Catholic 
Bishops. Mr. Chairman, I thank you for inviting me to testify.
    My written testimony represents the concerns of Migration and 
Refugee Services (MRS) of the U.S. Conference of Catholic Bishops 
(USCCB) whose Committee on Migration is chaired by Bishop Thomas 
Wenski, Auxiliary Bishop of Miami, Florida. The written testimony 
provides a comprehensive overview of the concerns and recommendations 
of Migration and Refugee Services of USCCB (USCCB/MRS). However, at 
your request, my oral presentation will focus on the number of refugees 
known to be available for resettlement interviews and recommendations 
for reaching an admissions level of 70,000 refugees in fiscal year 
2002.

                            I. Introduction

    Mr. Chairman, USCCB/MRS would first like to thank you for calling 
this hearing and for your leadership on refugee protection. Your 
leadership is sorely needed and welcomed at a time when the United 
States' commitment to protecting the persecuted has waned. USCCB/MRS 
would like to extend its appreciation to you, Senator Kennedy, for your 
tireless efforts on behalf of refugees and asylum-seekers. Indeed, we 
can trace the very establishment of our refugee protection laws to your 
vision and determination, Mr. Chairman. We would also like to extend 
our appreciation to you, Senator Brownback, for your support of the 
U.S. refugee program.
    Mr. Chairman, the U.S. Catholic bishops have long been committed to 
improving the plight of refugees and asylum-seekers. Indeed, the U.S. 
Catholic bishops Harken back to the plight of the Holy Family, 
including the infant Jesus, who fled into Egypt to escape the tyranny 
of King Herod. Jesus teaches us that in the face of the refugee and 
asylum-seeker we see the face of Christ. ``For I was hungry and you 
gave me food, thirsty and you gave me drink, a stranger and you 
welcomed me'' (Matthew 25:35).
    In response to our Lord's call, the Catholic Church in the United 
States, through the work of USCCB/MRS, the Catholic Legal Immigration 
Network, Inc. (CLINIC), our Catholic Charities agencies, and Catholic 
Relief Services, provides basic needs and resettlement assistance to 
refugees and asylum-seekers throughout the world. Through MRS, the 
Catholic Church resettles approximately one-quarter of the refugees who 
are admitted to the United States each year. MRS works with more than 
100 Catholic dioceses in 44 states to resettle refugees from all over 
the globe. In fiscal year 2001, MRS helped to resettle 16,789 refugees 
in the United States, representing refugees from 102 different ethnic 
groups and fifty-five different nationalities. Since the enactment of 
the Refugee Act of 1980, MRS, working with our government and diocesan 
resettlement programs throughout the country, has resettled nearly 
three-quarters of a million refugees.
    The policy section of this testimony will focus upon the need for 
the U.S. Department of State and the INS to commit themselves to 
admitting 70,000 refugees by the end of the fiscal year and expanding 
the U.S. refugee program through the use of creative solutions and with 
the increased involvement of non-governmental organizations. The 
testimony also provides general recommendations that can either be 
pursued through legislation, regulation or internal administrative 
guidance and will provide specific information on overseas processing. 
If these recommendations are pursued in implementing the U.S. refugee 
resettlement program, our country will go a long way in ensuring that 
refugees needing and deserving refugee protection through resettlement 
are able to obtain it.

                 II. Summary of General Recommendations

    In summary, we recommend the following:

    1. We urge the Department of State to take immediate steps to 
ensure that it can identify and admit 70,000 refugees by the end of 
fiscal year 2002;
    2. We urge the Department of State and the INS to undertake a 
number of steps to ensure that the United States is offering admission 
to especially vulnerable populations of refugees, such as unaccompanied 
refugee children, unaccompanied elderly refugees, refugees with serious 
medical conditions, at-risk women, including women heads of households, 
refugees who have languished in camps for a long period of time, 
certain urban refugees who do not have access to assistance and cannot 
integrate into the country of asylum and certain categories of refugees 
in Africa;
    3. We urge the INS to make every effort to conduct as many 
adjudications as are needed to identify and admit 70,000 refugees by 
the end of fiscal year 2002;
    4. We urge the Department of State to utilize non-governmental 
organizations (NGOs) with direct ties to domestic constituencies for 
overseas refugee processing;
    5. We urge the Department of State to engage in long-term planning 
and capacity-building with regard to refugee protection, including 
immediately planning to admit 90,000 refugees in fiscal year 2003 and 
increasing this admissions number in the years immediately following 
fiscal year 2003; and
    6. We urge the Department of State (including through the 
participation of the Secretary of State) to conduct consultations 
meaningfully with the Senate and House Judiciary Committees as early as 
possible in each fiscal year so that admissions ceilings and funding 
issues can be better coordinated.

                   III. Overview of Issues of Concern

    1. Fiscal Year 2002 Refugee Admissions
    We are disappointed in the number of refugees resettled in the 
United States in recent years. In 1980, the United States admitted more 
than 200,000 refugees and for a five-year period ending in 1994 the 
U.S. consistently admitted over 100,000 refugees each of those years. 
Since 1993, refugee admissions have fallen to the most recent low of 
70,000 in the Administration's proposal for fiscal year 2002. The 
Administration should implement a four-year plan to raise admissions 
numbers to meet levels of need.
    Millions of Africans have become new refugees or newly displaced 
persons within their own countries after years of war, repression, and 
civil unrest. Many peace negotiations have faltered, producing more 
military offensives and atrocities, forcing African refugees to seek 
protection in countries that are already suffering from armed conflict.
    A compelling example is the hundreds of thousands of Liberians and 
Sierra Leoneans in the small West African country of Guinea. We urge 
that one area of U.S. government focus be West Africa, to where a group 
of Refugee Council USA (RCUSA) Executives traveled in August 2001. The 
clear need for resettlement from such countries as Guinea, UNHCR's 
strong support for such resettlement, and the strengthened U.S. 
government and Overseas Processing Entity presence in nearby Ghana all 
argue that this area must be made a high priority for all of us.
    West Africa is of course not the only region where refugees have 
difficulties accessing protection. We must deal with the populations of 
Afghan refugees in Pakistan and Iran who cannot return to Afghanistan, 
and also address continually deteriorating situations in other areas of 
the world. Thousands of Burmese political dissidents and ethnic and 
religious minorities are particularly vulnerable in India and languish 
without effective solutions in Thailand. Large numbers of uprooted 
people from the Sudan and the Balkans still lack a durable solution. 
These are a few examples of the grim future faced by refugees 
worldwide.
    United States refugee assistance helps relieve explosive 
international tensions and sets an example for the rest of the world. 
This example, in turn, makes it more likely that other nations will 
accept refugees fleeing into their territory, provide assistance to 
refugees who languish in camps in first countries of asylum, and 
resettle those refugees for whom resettlement in a third country is the 
only durable solution.

    2. Admission of Vulnerable Refugees
    Efforts should be made to identify and resettle particularly 
vulnerable refugee groups, including unaccompanied refugee minors, 
unaccompanied elderly refugees, refugees with serious medical problems, 
at-risk women, including women heads of households, refugees who have 
languished in camps for a long period of time, certain urban refugees 
who do not have access to assistance and cannot integrate in the 
country of asylum and certain categories of refugees in Africa. This 
effort complements the program's capacity to rescue those in imminent 
danger of return.

    3. INS Adjudications for Fiscal Year 2002 and Beyond
    INS conducts adjudications of individual cases based on the 
recommendations of the Department of State regarding caseloads. In 
order for INS to conduct adjudications this fiscal year and beyond for 
greater numbers of refugees, additional financial resources from 
Congress and current information from non-governmental organizations 
regarding individual claims and country conditions will be necessary. 
Given the current difficult situation in which refugees find 
themselves, we stand ready to work with Congress and the INS on how to 
continue to welcome refugees. The INS contribution, of course, will be 
vital, and thus planning the travel schedule to conduct adjudications 
of individual cases is an urgent priority if there is to be any 
prospect of bringing in the number of refugees authorized by the 
President this fiscal year and beyond.

    4. U.S. Government Collaboration with Non-governmental 
Organizations (NGOs)
    In the past, private sector Joint Voluntary Agencies (JVAs) have 
been successfully used by the Department of State to help identify and 
process refugees in the field. This collaboration with NGOs could be 
expanded so that NGO expertise could be utilized in making resettlement 
determinations.
    Though the State Department has been creating more outreach 
capacity through the creation of additional Overseas Processing 
Entities (OPEs), more can and should be done. The government should 
develop partnerships with NGOs to assist in the identification and 
referral of prospective U.S.-eligible refugees in need of resettlement 
and create formal mechanisms through which NGO-referred refugees 
receive consideration from U.S. authorities. This concept is different 
from the ``Joint Voluntary Agency'' arrangements currently in place in 
at least one significant way. Under these arrangements the NGO partners 
would identify and refer prospective refugees, but would not be 
involved in the processing typically done by JVAs and OPEs.
    Another dimension of this needed expansion could be the 
strengthening of the so-called ``deployment'' program, through which 
NGO personnel are seconded on temporary assignments to augment United 
Nations High Commissioner for Refugees (UNHCR) personnel in various 
resettlement processing regions of the world. With more resources and 
program management enhancements applied to this effort, a greater 
number of NGO personnel can be added to expand the international 
capacity to identify and process refugees for resettlement.

    5. Capacity-Building and the U.S. Refugee Program
    In each of the last ten years, the number of refugees admitted to 
the United States was below the authorized and budgeted admissions 
levels. Actual admissions of refugees during this period ranged between 
seven and sixteen percent below the levels authorized by the President 
in consultation with Congress. Had the U.S. government fully utilized 
its admissions authority, more than 100,000 additional refugees could 
have been resettled over the past decade. Considering that the 
population of refugees in need of resettlement far exceeds the number 
of resettlement offers from the international community, this under-
utilization of U.S. capacity is unacceptable.

    A. Political Will and Commitment
    There are a multitude of reasons for this under-utilization. First, 
the political will and commitment to take full advantage of the U.S. 
government's admissions authority has not been in evidence. Until very 
recently, the chronic under-utilization of its admissions authority was 
not perceived by political leaders, in the Administration and in 
Congress, as a problem. Also, historically, for some in government, the 
level of admissions set forth in the annual Presidential Determination 
was not perceived as a target towards which to strive. If there had 
been political commitment to taking full advantage of its admissions 
authority, the governmental agents responsible for administering the 
admissions program would have been held more accountable for the 
chronic under usage in admissions each year.

    B. Management of Refugee Admissions
    Second, inadequacies in the management of refugee admissions have 
also contributed to the annual admissions shortfalls. Some of the 
problems have been as follows:

        (i) Over-reliance on UNHCR referrals, even as that 
        organization's capacity to identify and process refugees for 
        resettlement consideration has been inadequate to the task and 
        has not been a high priority;
        (ii) A lack of aggressive, comprehensive efforts to identify 
        prospective U.S.-eligible refugees in need of resettlement;
        (iii) An inadequately proactive development of ?'admissions 
        pipelines,'' resulting not only in admissions shortfalls, but 
        the creation of end-of-year surges (bulges) in arrivals;
        (iv) A lack of comprehensive and viable contingencies when 
        logistical impediments interfere with the creation and 
        processing of ``admissions pipelines;''
        (v) Restrictive and narrowly-defined processing priorities 
        applied to refugee groups;
        (vi) An underutilization of the priority 2 category, or special 
        ``groups of concern,'' for processing refugees; and
        (vii) Inconsistent INS approval rates and lack of oversight and 
        timely interventions when negative trends appear.

    C. Global Infrastructure to Carry Out Resettlement
    Third, a significant impediment to the U.S. government's taking 
full advantage of its admissions authority has been the inadequacy of 
the worldwide infrastructures designed to identify and process refugees 
in need of resettlement. As the U.S. admissions program has shifted 
away from 6 large scale processing operations in a few regions of the 
world, in place in the 1970s and 1980s, to a more diverse and dispersed 
caseload, a more dynamic processing capacity has been necessary. Though 
the State Department has been creating more outreach capacity through 
the funding of NGO deployments through UNHCR and expansion of OPEs, 
more can and should be done. A few suggestions for expanding and 
enhancing the capacity to identify and process refugees follow.
    The establishment of formal partnerships with NGOs for the 
deployment of ``mobile rapid response teams'' is a way in which to 
expand the international capacity to identify and process refugees for 
resettlement. The Refugee Council USA has developed a number of 
concepts, one referred to as a ``Joint Mobile Processing Team'' and the 
other a ``Rapid Response Team.''The following functions could be 
envisioned for such non-governmental teams of experts:

        <bullet> ongoing monitoring of refugee situations around the 
        world, with a view toward identifying those refugees whose only 
        viable option lies in third country resettlement;

        <bullet> assisting UNHCR, especially in emergent and newly-
        created refugee situations, to register refugees and, for those 
        in need of resettlement, develop biographical profiles and 
        prepare documentation for resettlement consideration by the 
        U.S. government;

        <bullet> establishing or augmenting, on a temporary basis, an 
        overseas processing operation; and

        <bullet> assisting with training and technical assistance to 
        UNHCR and other processing entities.

    It needs to be more clearly recognized within UNHCR that 
resettlement is a viable durable solution and tool of protection. One 
way in which this can be achieved is to hire a senior staff person who 
reports directly to the High Commissioner, Mr. Ruud Lubbers, who since 
being appointed as head of UNHCR has called for increased resettlement 
by a number of countries, including the United States, in order to 
assist beleaguered countries of first asylum in providing protection to 
refugees.
    UNHCR personnel with responsibility for identifying and processing 
prospective resettlement applicants require additional and ongoing 
training on the mechanics of national resettlement programs and 
sensitization on resettlement as a viable protection tool. This 
training and sensitization is particularly needed when UNHCR personnel 
responsible for carrying out resettlement activities, including 
Protection Officers, also have other pressing responsibilities in large 
camp settings.
    The U.S. government should augment, as necessary, facilities and 
staffing of OPEs and INS so that adjudications result in at least a 
three-month pipeline of travel ready (not just approved) refugees at 
all times. The INS should consider the creation of a Refugee 
Adjudication Corps, similar to the Asylum Officer Corps, which would 
consist of specially-trained officers who would only adjudicate refugee 
resettlement claims.
    The U.S. government and UNHCR should create more dynamic 
infrastructures for identifying and processing refugees that can be 
more proactive and responsive to urgent developments around the world. 
In this regard, the U.S. government should be working to increase the 
number of countries who offer resettlement to refugees who do not have 
meaningful protection in their first countries of asylum. Certain 
European countries with substantial financial resources have no 
resettlement programs, but expect much poorer countries to keep 
refugees indefinitely in camps. They also compound the difficulties 
associated with lack of access to refugee protection by erecting 
barriers to asylum-seekers. The U.S. government and UNHCR should press 
certain European countries to develop resettlement programs or expand 
existing resettlement programs and should work with other countries who 
have expressed an interest in developing their capacities to resettle 
refugees.

    6. The Consultation Process
    As you know, cabinet-level representatives are required to consult 
with Members of the House and Senate Judiciary Committees each year 
before a Presidential determination is made on refugee admissions for 
the coming fiscal year. Due to exceptional circumstances, consultations 
were not possible prior to September 30, 2001 and before the fiscal 
year 2002 Presidential determination was issued. In years past, the 
consultation process has occurred after hearings on the federal budget 
have been held, and in some cases, after spending levels have been 
determined. Most important, in recent years, the Secretary of State has 
not participated in the consultation process.
    We would like to see these trends reversed. We ask that the 
Secretary of State participate in future consultations, and that this 
process commence earlier in the year, so that refugee admission levels 
and funding decisions can be better coordinated.

   IV. Refugees Ready for Interviews and Admission into the U.S. for 
                            Fiscal Year 2002

    As Assistant Director for Processing Operations at MRS, I would 
like to point out that while the aftermath of September 11<SUP>th</SUP> 
brought the flow of refugees to the U.S. to a near standstill, there 
has been a serious ongoing problem with meeting the refugee admission 
ceiling over the last few years. Refugee Council USA has raised this 
concern with the Department of State consistently for several years. 
Refugee Council USA has made recommendations on processing new groups 
of refugees and increasing or expanding the infrastructure to process 
refugees overseas. Each admission number missed in a fiscal year is a 
refugee forced to continue in a hopeless situation overseas.
    One of the Refugee Council's greatest concerns is the relatively 
low number of new cases which enter the system every month. Prior to 
September 11<SUP>th</SUP>, I analyzed data available from non- 
governmental organizations that are Overseas Processing Entities (OPEs) 
and data available from the Department of State and found that while 
the program could technically admit 70,000 refugees in the fiscal year, 
there would need to be an effort to push cases through in the last few 
months of the year, with little or no available cases for the next 
fiscal year. The crisis of September 11<SUP>th</SUP> has compounded 
what was already a difficult situation regarding refugees admissions.
    The U.S. program now provides virtually no access to an interview 
except through a referral from the Office of the United Nations High 
Commissioner for Refugees (UNHCR). Indeed in Africa, even the groups of 
refugees which have been designated Priority 2 ``Groups of Concern,'' 
or refugees who can apply to the U.S. resettlement program without a 
UNHCR or U.S. embassy referral, amount to lists of persons provided by 
UNHCR.
    The refugee resettlement agencies have also had concerns regarding 
other categories of refugees eligible for resettlement in the United 
States, including refugee claims based on a family relationship. Over 
the past few years the number of nationalities eligible for refugee 
consideration based on a family relationship to an individual in the 
United States has dropped from 21 to only 6 nationalities. The 
Department of State has indicated that it is reluctant to consider 
broadening this category of refugee eligibility to other nationalities 
due to concerns regarding misrepresentation of family relationships. 
There is no doubt that there are indications of misrepresentation of 
relationships in this program, but there are steps being instituted to 
address this issue. Unfortunately, some of the new measures have placed 
a burden on the resources of INS which previously were concentrated on 
the actual refugee interview. Additionally, there have been 
administrative deadlines implemented and criteria used which have at 
times appeared unreasonable or inflexible.
    There are additional steps which could be taken to address the 
integrity of this refugee category, including the registration of 
refugees by UNHCR upon their arrival in first countries of asylum. This 
registration would be conducted outside the context of a request for 
resettlement in a third country. The registration process would involve 
the opening of a file that would include photographs of the members of 
the family and a list of each member's location.
    The lack of adequate individual access to the refugee program has 
contributed tremendously to the misrepresentation issue. Individuals 
who have no other means to gain access to the program have been driven 
to asking persons who are under consideration to add family members to 
their cases.
    Processing a refugee overseas is a complicated process involving 
registration, pre-screening, security name check, INS interview, 
medical screening, assurance of sponsorship by a resettlement agency 
and securing travel arrangements. From start to finish, the process can 
often extend over many years. The period of time from INS interview to 
arrival in the United States is estimated to be between 4-6 months. 
That said, in certain situations the U.S. program has been known to 
process large numbers of refugees in a very short period of time. One 
need look no further than the crisis in Kosovo in 1999 to illustrate 
this. When INS officers were not able to interview refugees in their 
first asylum locations, refugees have been moved to where INS could go. 
Guam, Fort Dix and Romania are recent examples.
    I have stated that with a concentrated effort the arrival of 70,000 
refugees into the country this fiscal year appears possible. At any 
given time there are thousands of refugees at various stages in the 
process of being interviewed or admitted--this is commonly referred to 
as the admissions ``pipeline.''
    Assertions that there are not ready caseloads of refugees to 
resettle are baseless. Analysis of the most recent data from the 
overseas posts and the Department of State indicates that as of the end 
of November 2001, a pool of approved refugees from all regions of the 
world awaiting resettlement totaled 21,435 persons.
    Reports indicate that 54,825 persons were awaiting INS interviews. 
An approval rate of 75 percent for INS adjudications of refugee 
resettlement claims is a conservative rate. If we applied this 
conservative approval to these individuals, that would result in 41,119 
persons added to the pipeline. In addition, the reports indicate that 
cases were opened for 7,472 new persons in one month. Assuming another 
6 months of persons being added to the interview pool, this would allow 
for another 45,216 persons to be interviewed. A 75 percent approval 
rate would add another 33,912 persons to the pipeline. In May 2001, the 
voluntary agencies received requests for sponsorship assurances for 
8,416 refugees approved by INS. If INS were to interview at this rate 
for the next 7 months, 58,912 persons could be added to the pipeline 
and could arrive by the end of the fiscal year.
    However, there are new ``bottle necks'' in the refugee flow not 
present prior to September 11<SUP>th</SUP>. These currently are:

        A. Limited arrivals at ports of entry due to fingerprinting 
        requirements;

        B. Delays in processing refugees whose eligibility is based on 
        their relationship with family members in the U.S. due to new 
        requirements, including that INS review each file;

        C. Delays related to the time required to obtain Security 
        Advisory Opinions (name checks conducted by the FBI) on certain 
        nationalities; and

        D. Security concerns for INS personnel conducting refugee 
        interviews overseas.

    All of these measures are meant to protect national security and 
the security of U.S. personnel overseas and cannot be dismissed. 
However, there are ways to streamline procedures without compromising 
security.
    With regard to delays associated with arrivals at ports of entry, 
the problem appears to be centered around the newly reinstated 
requirement that all refugees be fingerprinted prior to arrival in the 
United States. The long-term solution to this problem is to ensure that 
this procedure is part of the interview process overseas, as it had 
been in the past. In the short-term, it is necessary to ensure that INS 
be provided with the staffing resources and physical facilities to 
fingerprint arriving refugees at rates of 200 or more per flight. 
Historically, the use of chartered flights with several hundred 
refugees arriving at one time has been needed to facilitate large 
numbers of arrivals in a short period of time.
    With regard to INS reviews of family-based refugee claims, the INS 
must have sufficient staff to complete this review process within 6 
months in order to prepare the cases for interview or clear cases for 
departure from the first countries of asylum. Additionally, steps must 
be taken to ensure that all other possible steps are taken concurrent 
with the INS review to ensure that the case can be processed to 
completion as quickly as possible. This would include conducting 
security name checks, sending approved refugees to medical exams and 
ensuring they are kept up to date, and transmitting biographical 
information needed to produce sponsorship assurances. To the best of my 
knowledge, at this time, these processing steps are not taking place 
until the review of approved cases is complete.
    With regard to Security Advisory Opinions, the FBI must have the 
capacity to complete the higher numbers of name checks required (which 
is considerably more than in the past) expeditiously. Additionally, the 
fact that the completion of these name checks is a priority to the 
Department of State needs to be communicated. Once again, all other 
steps should be completed while waiting for the results of the name 
checks.
    With regard to secure facilities overseas for INS to conduct 
interviews, the responsibility for finding such secure facilities 
should be lodged with the Department of State. Currently, Regional 
Security Officers at U.S. embassies overseas are visiting interview 
locations and providing opinions on security. The Department of State 
should communicate to the embassies that locating a secure interview 
facility is a priority and is the responsibility of the embassy-not the 
non-governmental Overseas Processing Entity (OPE).
    After the current crisis in refugee admissions is addressed for 
this fiscal year, it is crucial that the Department of State turn its 
attention to the chronic problems of the refugee admissions flow. As 
stated in the above recommendations and conclusion, the Department of 
State should strive to achieve a travel ready pool of refugees 
equivalent to one quarter of the refugee ceiling at all times. 
Infrastructure needed to process this number of refugees overseas 
(including staff and facilities) must be increased. Refugee flows from 
all regions must be monitored throughout the year, and regions should 
be expected to meet quarterly arrival expectations. This type of 
scrutiny of the admissions flow was present in the past, and returning 
to this practice will enable the United States to meet refugees 
admissions ceilings each year and maintain an even flow of refugees 
arriving in the country throughout the year.

                             V. Conclusion

    In conclusion, Mr. Chairman, we ask that your Subcommittee work 
with this Administration to maintain a commitment to refugees 
protection that addresses the long- term, chronic and systemic problems 
that have resulted in refugees not accessing the protection they need 
and deserve in this country. In summary, we recommend the following: 1. 
The Department of State must take immediate steps to identify and admit 
70,000 refugees by the end of fiscal year 2002; 11 2. The INS must make 
every effort to conduct as many adjudications as are needed to identify 
and admit 70,000 refugees by the end of fiscal year 2002; 3. The 
Department of State and the INS must ensure that the United States is 
offering admission to especially vulnerable populations of refugees; 4. 
The Department of State must utilize non-governmental organizations 
with direct ties to domestic constituencies for overseas refugees 
processing;
    5. The Department of State must engage in long-term planning and 
capacity-building with regard to refugees protection, including 
immediately planning to admit 90, 000 refugees in fiscal year 2003 and 
increasing this admissions number in the years immediately following 
fiscal year 2003; and
    6. The Department of State (through the Secretary of State) must 
meaningfully conduct consultations on the refugee program with the 
Senate and House Judiciary Committees as early as possible in each 
fiscal year.
    Mr. Chairman, it has been my experience and the experience of 
countless others that refugee protection is not a burden to this 
country. Rather, it is an opportunity to fulfill one of the highest 
purposes for which this nation has been blessed--to respond to the hope 
of the persecuted. We know that you and your colleagues are sensitive 
to these important issues and will give them due attention. Thank you 
for your consideration of our views.

    Chairman Kennedy. Thank you.
    Mr. Frelick?

 STATEMENT OF BILL FRELICK, DIRECTOR OF POLICY, U.S. COMMITTEE 
                 FOR REFUGEES, WASHINGTON, D.C.

    Mr. Frelick. Thank you, Mr. Chairman, and Senator 
Brownback. And particularly for your opening remarks, Senator 
Brownback, talking about getting this program back on track, I 
think is exactly the purpose of this hearing and hopefully my 
remarks will contribute to that.
    What I am going to do is focus really in two areas. One is 
to look at the processing priorities themselves. The priorities 
have set who gets interviewed by the INS and how we identify 
groups of concern. I will make some suggestions for how they 
could be more responsive to conditions of refugees in the world 
today. Then I am going to go into some of the specific groups 
that I think are identifiable groups with common 
characteristics that would more expeditiously be able to move 
through the system.
    I will hasten to add that very few of the groups that I 
would mention would be ones that would be unfamiliar to the 
State Department. We have been in discussions with them for 
years on some of these groups; Somali Bantu in Kenya, for 
example, or the Bakor Armenians in Moscow. I would have to say 
that the response has often by bureaucratic, passive, and at 
times downright uncaring and cynical.
    We are very grateful that Gene Dewey has taken over as 
assistant secretary. We look forward to working with him. We 
appreciate the remarks of Commissioner Ziglar as well and hope 
that the leadership that both of them have exhibited here today 
will translate through the bureaucracy and it will be more 
proactive and more engaged in looking for refugees and trying 
to rescue them.
    I would like to start with making recommendations on 
processing priorities, and essentially to really call for an 
overhaul of the refugee processing priority system. This will 
be particularly familiar I think to you, Senator Kennedy, 
because a lot of this goes back to the 1980s and to the old 
system that we had before. What happened is P-1, which is 
supposed to be for the most urgent and the most compelling 
cases, became bloated. More and more groups were added to it 
and it became dysfunctional essentially. So groups that we have 
talked about today, such as women at risk, have been overlooked 
entirely, even though technically they are included within the 
P-1 category.
    What I would suggest is that P-1 actually be made leaner 
and meaner, and that it really relates specifically to urgent 
cases, urgent protection cases in first asylum countries. For 
example, cases like Sierra Leoneans and Liberians in Guinea who 
have been subjected to harassment, rapes, beatings. They cannot 
go back to Sierra Leone. They cannot go back to Liberia. Yet 
they are in extreme danger where they are.
    UNHCR has a plan to refer as P-1 3,000 cases a year for the 
next five years. They have not been able to do that because of 
a lack of resources. So there again we are looking at 
bottlenecks and how to free them up. Trying to provide greater 
resources to UNHCR I think is critical to enable that to 
happen.
    But there are other ways that we can help to free up P-1. 
Lenny Glickman, for example, has mentioned the increased role 
that NGOs can play. The current processing priorities refer to 
both UNHCR referrals as well as U.S. embassy identified cases. 
NGOs can go out. We can be in the field. We are working there 
already to be able to identify cases that ought to be moved and 
that can be moved.
    Also I think a very simple and straightforward solution to 
the problem of INS security of their officers in the field is 
to let us go. We are there anyway. We can do videoconferencing. 
They can remain in the safety of their offices. They can 
conduct interviews the same way that immigration judges do here 
in the United States in the domestic forum. They conduct 
refugee status determinations through videoconferencing. We 
could do the same thing overseas.
    I am suggesting a new P-2 category, and the new P-2 
category that I would suggest is part of an overall 
restructuring of processing priorities is refugees who are 
persecuted on the basis of their association with the U.S. 
Government or U.S. NGOs. That actually, going back to the 
1980s, was a P-2 category and a P-4 category at that time. I 
think with the war on terrorism now there is a greater 
likelihood that people will be persecuted for their association 
with the United States and we ought to be prepared to rescue 
those people.
    We have had the experience as recently as 1996 of having to 
evacuate thousands of Iraqis from northern Iraq who were 
persecuted and a direct threat because of their association 
with the United States. And we are still finding Iraqis that 
are presenting themselves with claims of U.S. ties.
    I would also suggest a new P-3 category that would be 
specifically for women at risk. There is an inherent bias in 
the U.S. refugee program based in the structure of U.S. law. 
INS officers are told to focus on the question of persecution 
in the country of origin. That is their major focus. However, 
when you are talking about the need for resettlement, very 
often what you have are people who are in danger in the country 
of asylum. Many women find themselves precisely in danger in 
just that way. So I am just calling for a rebalancing in 
looking at that question.
    Afghan women in Pakistan have mentioned, Sudanese lost 
girls in Kenya, Chechen women in Moscow who I have seen in 
dreadful circumstances, who could be moved because the U.S. 
presidential determination allows for in-country processing 
from Moscow.
    I would also include a P-4 cateogry for survivors of 
torture and violence and disabled refugees. For example, going 
back to the Sierra Leoneans, people who have had their arms 
amputated. Who not only cannot lead a life of dignity in the 
countries where they are living, but who have an imputed 
political opinion attributed to them by virtue of not having 
their limbs.
    Then I would go for P-5 that would be comprised essentially 
of the current P-2 groups, and of course I would expand that. 
In my written testimony which is submitted to the record I have 
identified 18 possible new P-2 groups that ought to be 
considered.
    I will mention just a couple here in the interest of time. 
Long term Africans in Moscow. They are harassed. They are 
discriminated against. There are about 2,000 of them that have 
been identified. Roma from Kosovo who have been scapegoated by 
Serbs, by Albanians, by everyone. In the breakup of Yugoslavia 
there is no place for the Roma, for the gypsy populations. They 
are treated miserably. Some of the worst conditions I have ever 
seen firsthand have been for those Roma refugees. They are 
registered. They are in camps. They are in Macedonia. I visited 
with them there. They are in Bosnia. We could move those 
groups.
    Then I would have a P-6 category which would be the 
immediate family reunification group that is currently a P-3. I 
would also urge you not to limit that category to particular 
nationalities. It is a universal principle of family 
reunification. It is a mysterious process and a capricious one 
by which we choose the six nationalities that currently are 
chosen for that program. If there are questionable claims then 
you can resolve those claims through DNA testing. I gave a 
suggested mechanism for doing that in my written testimony.
    Finally, I would have a P-7 category for long stayers; 
people in need of a durable solution. We have in closed camps 
people that have been living there for 10 years or more; 
100,000 Bhutanese refugees in Nepal, 123,000 Burmese ethnic 
minorities living in Thailand, 5,000 Iraqis still in the Rafa 
camp in Saudi Arabia. There are many groups, that through the 
initiative of the United States, we could forge comprehensive 
solutions that would involve repatriation of those who could 
safely return, local integration of those who could integrate 
in the country in which they have asylum, and leveraging offers 
of resettlement from other countries as well, and bring to 
closure some of these seemingly intractable situations.
    Senators Kennedy and Brownback, what we do not want to see 
happening is putting refugee numbers to waste. They can be 
used. They can save lives. They save not only the lives of the 
individual refugees that we rescue, but they can be used to 
keep doors of first asylum open for millions of additional 
refugees, to prevent other refugees from being forcibly 
returned, and to leverage durable solutions from partner 
agencies as part of international responsibility sharing.
    Thank you very, very much for inviting me. I appreciate the 
opportunity.
    [The prepared statement of Mr. Frelick follows.]

    Statement of Bill Frelick, Director, U.S. Committee for Refugees

    Thank you, Mr. Chairman, for giving me the opportunity to comment 
on the role of the U.S. refugee program in providing protection, 
assistance, and durable solutions for refugees worldwide.
    Although the particular focus of this hearing is on the refugee 
admissions program, refugee resettlement should not be regarded in 
isolation. The United States cannot hope to resolve the plight of more 
than 14 million refugees and 20 million internally displaced people 
through resettlement alone. Resettlement is an option for only a tiny 
fraction of the world's refugees. Resettlement should be regarded 
therefore as an important tool, to be used as part of comprehensive 
solutions and in conjunction with our overseas assistance programs, not 
only to provide safety and restore hope to the immediate beneficiaries 
of our country's generosity, but also to accomplish the broader goal of 
enhancing protection for millions of additional refugees for whom 
admission to this country will not be a possibility.
    Because it is a limited tool, resettlement must be smart. Ideally, 
it should be used to create additional leverage with other countries-so 
that countries of first asylum will keep their doors open and provide 
at least temporary asylum in the immediate vicinity of conflict, and so 
that other more distant countries will be encouraged to share with us 
the responsibility for resolving the plight of refugees.
    The United States leads best when it leads by example. Its 
leadership in the refugee field is unsurpassed. But that leadership at 
the moment, at least in one critically important program, is on the 
line. As you know, the U.S. refugee admissions program was suspended in 
the immediate aftermath of the September 11 terrorist attacks, and 
remained closed for two months, during which a security review was 
conducted. Since restarting officially on November 21, only a trickle 
of refugees have arrived, and processing has started in only a handful 
of processing posts. Now that the security review has been completed, 
the purpose of this hearing is to suggest how the program should get 
back on track.
    At this moment, in the face of a significant anticipated shortfall 
in refugee admissions, the refugee resettlement debate sounds numbers 
driven. It is true that human misery is quantified, as I have just done 
by citing more than 34 million uprooted people who cannot safely return 
to their homes. But we are also concerned with the quality of 
resettlement. Knowing how few refugees directly benefit from 
resettlement, we want to be sure both that the most deserving are 
admitted and that resettlement, when possible, accomplishes larger 
goals than the rescue of certain individuals. But we also must not lose 
sight of individual rescue, knowing that each refugee we save is not a 
number, but a person with a unique history and an uncertain future.
    As members of this subcommittee examine both how admissions numbers 
goals might be achieved this year and next, and also how the 
resettlement program might best achieve its objectives of selecting 
refugees of greatest humanitarian concern to this country and of using 
resettlement as part of larger comprehensive solutions, I hope to 
contribute to your assessment by identifying particularly vulnerable 
groups who, at present, are underserved or not served at all by this 
program. I will also make recommendations for revising the State 
Department's priority-setting mechanisms for identifying refugees of 
concern, as well as suggestions for overcoming other problems with the 
program.
    As I identify groups that are especially at risk and in need of 
resettlement, I will also try to show how resettling them might help to 
improve the situations for larger numbers of refugees (or local 
populations) in the places where they currently reside.
    I hasten to add that the State Department's Bureau of Population, 
Refugees, and Migration (PRM) is well aware of most of the groups I 
will be talking about today. Nongovernmental organizations (NGOs), the 
UN High Commissioner for Refugees (UNHCR), and others have repeatedly 
and often provided PRM with information about vulnerable groups in need 
of resettlement, but PRM has rarely shown the political will to act on 
that information. PRM's response to suggestions for new refugee groups 
in need of resettlement has all-too-often been passive and 
bureaucratic, if not downright cynical and uncaring. We are genuinely 
pleased, therefore, to welcome Assistant Secretary Gene Dewey as the 
new director of PRM, a man with a long history and a deep understanding 
of refugee protection, and very much hope he will make PRM more 
proactive and engaged in searching for and rescuing refugees in need of 
resettlement.
    I would also like to take the opportunity of this hearing to 
suggest ways in which the resettlement program might be improved, and 
how it might be made more responsive to the world's most vulnerable 
people. Let me start with those recommendations, and then conclude with 
a listing of groups that need the protection that U.S. resettlement can 
provide.

                       Part One: Recommendations

    1) Overhaul the State Department's processing priorities for 
refugee admissions.\1\ All persons admitted under the U.S. refugee 
admissions program must meet the refugee definition in U.S. law. The 
processing priorities are intended, therefore, to establish an order of 
preference based on U.S. levels of humanitarian concern among refugees, 
all of whom have a well-founded fear of persecution in their countries 
of origin. Functionally, the priority categories set the order for 
interviews by Immigration and Naturalization Service (INS) officers. As 
currently written and used, however, the processing priorities fail to 
establish fair and useful priorities. They should be changed, as 
follows:
---------------------------------------------------------------------------
    \1\ Appended to this testimony is a chart describing in detail the 
current processing priorities.
---------------------------------------------------------------------------
    a. Limit Priority One (P-1) to the most urgent protection cases in 
countries of first asylum. P-1 should be limited to include 1) refugees 
facing compelling security concerns in countries of first asylum, 2) 
refugees in need of legal protection because of danger of refoulement, 
3) refugees in danger of armed in attack in their immediate location, 
and 4) refugees in urgent need of medical attention not available in 
the first asylum country.
    Much of the language in the current P-1 designation should be 
deleted. P-1 has become a bloated catchall that does not serve the 
difficult but necessary purpose of setting priorities among vulnerable 
groups of refugees. Consequently, many of the groups included in P-1 
are actually under-served because they are lost in the crowd. As 
currently written, the P-1 category also dilutes the urgency of this 
priority category by including cases that don't involve immediate 
protection needs, such as disabled persons and long-stayers in need of 
durable solutions. Of course, members of any of the groups I suggest 
deleting from P-1 would still be eligible for P-1 consideration if they 
fit any of the four criteria listed above.
    b. Expand considerably current Priority Two (P-2): refugee groups 
of special concern to the United States. Specific suggestions will 
follow later in this testimony. P-2 is a useful expedient to processing 
that relieves the burden on UNHCR for making individual refugee status 
determinations and referrals, and expedites admission of groups of 
similarly situated refugees who share common characteristics supporting 
strong persecution claims.
    With more than 14 million refugees in the world today, it is 
nothing short of scandalous that PRM only recognizes four P-2 category 
groups, all four of which have been on the list of nationality 
categories of special concern for well over a decade, and only one of 
which was chosen at PRM's initiative (the other three were mandated by 
Congress or pursuant to international agreements). Currently, P-2 is 
limited to in-country processing of certain category groups in Cuba and 
in-country processing in the former Soviet Union and Vietnam for the 
Lautenberg caseloads. The only group currently designated for P-2 which 
does not have Cold War origins (although it is an equally old 
designated P-2 group) and whose members meet the technical 
international refugee definition of being outside their home country is 
the category of members of religious minorities from Iran (although 
since PRM discontinued P-2 for Iranian applicants in Germany, and in 
Austria makes P-2 processing available only to Iranian religious 
minority members who enter the country through a special Austrian ``D'' 
visa, it has, in effect, turned Iranian P-2, in large part, into an in-
country processing program as well). A meaningless ``placeholder'' P-2 
exists for Africa, but no actual refugee groups there are currently 
eligible for P-2 processing. (Current P-2 should be re-designated as 
Priority Five-P-5.)
    c. Open to all nationalities the current Priority Three (P-3) for 
immediate family reunificatioN. Currently only members of six 
nationality groups are eligible to petition for their immediate refugee 
relatives to join them. The process by which PRM chooses these six 
nationalities, and excludes all the rest, is mysterious to say the 
least, and seems arbitrary and unfair. Family reunification is a 
bedrock principle. It ought to apply universally to separated refugees, 
regardless of nationality. (Current P-3 should be re-designated as 
Priority Six-P6.)
    d. Eliminate Priority Four and Five for more distant relatives (if 
current P-3 is made available to refugees regardless of nationality). 
In order to limit the universe of applicants, widening the scope of 
family relations logically dictates limiting the pool by particular 
nationalities. By adopting the previous recommendation (1.c.), priority 
is appropriately accorded based on the closeness of the relationship 
and no other factor. Since no actual refugee groups are included in P-4 
or P-5 anyway, and since PRM officials have given no indication that 
they plan to use these priorities again, maintaining them as empty 
processing priorities sends false signals and clutters an already 
dysfunctional priority setting system.
    e. Create a new Priority Two (P-2) for refugees whose persecution 
or fear of persecution is based on actual or imputed association with 
the U.S. government or U.S. nongovernmental entities. During the 1980s, 
the U.S. refugee resettlement program demonstrated a particular concern 
for refugees persecuted for their association with the United States. 
In fact, the original P-2 category was exclusively for former ``U.S. 
government employees'' and P-4 was for persons with ``other ties to the 
United States,'' including ``refugees employed by U.S. foundations, 
U.S. voluntary agencies, or U.S. business firms for at least one year 
prior to the claim for refugee status'' and refugees ``trained or 
educated in the United States or abroad under U.S. government 
auspices.'' As the United States embarks on an open-ended and multi-
faceted War on Terrorism, persecution based on association with the 
United States becomes much more likely, and we should exercise 
particular responsibility to protect those who are put at risk through 
their association with our country and its values.
    f. Create a new Priority Three (P-3) for refugee women-at-risk. 
Women-at-risk are currently listed in the overcrowded P-1, where they 
appear to be overlooked. Obviously, my suggested narrowing of P-1 is 
not intended in any manner to exclude women who establish eligibility 
for P-1 processing if they have urgent and compelling need to be 
resettled. In removing them from P-1, however, they should not be 
relegated to a lower priority than the current P-2 (groups of special 
concern) or P-3 (immediate family) priorities. A separate priority 
category for refugee ``women-at-risk'' would be defined to include 
refugee women-headed households (including families in which an adult 
male is unable to support and assume the role of the head of the 
family). Such women are at particular risk in places of first asylum 
where a woman's protection is dependent on male relatives. Widowed 
women are particularly vulnerable, both in terms of their physical 
safety, but also because of the added hardship of having to support 
children and elderly relatives without the material support of a male 
partner. Such women are susceptible to exploitation and abuse. It is 
often difficult for them to provide for the material needs of their 
families without putting themselves at additional risk.
    The U.S. refugee program has a built-in bias against identifying 
refugee women-at-risk. Under law, INS officers are required to conduct 
refugee status determination interviews (based on the standard of a 
well-founded fear of persecution in the country of origin) to ensure 
that applicants qualify for refugee admission, but are not directed by 
law to accord any particular weight to conditions in countries of 
asylum. In many places, but most particularly in Africa (where refugee 
status is established under the broader OAU Convention definition), 
refugee women often have difficulty establishing individual refugee 
claims based on a narrowly interpreted persecution standard. Often, 
they are part of larger groups fleeing generalized violence in their 
country of origin. The main reason they are at risk is often because of 
their high level of vulnerability in the country of first asylum, but 
the INS officers' attention is directed away from examining those 
threats because of their concentration on finding specific and explicit 
grounding of the underlying refugee claim in political, religious, or 
ethnic persecution of the individual refugee woman in the country of 
origin. Creating a specific P-3 for women-at-risk would help INS 
officers to appreciate better the compelling need for resettlement in 
such cases by focusing greater attention on-and according greater 
weight to-threats and danger toward refugee women in countries of first 
asylum, even though such women would still need to satisfy the INS 
officers that they meet the U.S. statutory refugee definition based on 
fear of being persecuted in their countries of origin. They would also 
need to be UNHCR-referred or embassy-identified (qualified by 
Recommendation 4, below).
    g. Create a new Priority Four (P-4) for physically or mentally 
disabled refugees and refugee survivors of torture or violence. This 
group, also mentioned under the current catchall P-1, should be 
designated as a separate priority category, especially since the 
assessment of disability falls outside the unique competence of the 
UNHCR, which is charged with making P-1 referrals. U.S. embassies and 
diplomatic posts could find additional partners better trained to 
identify and refer refugees in need of resettlement based on special 
needs arising from torture trauma or physical and mental disabilities. 
These might include NGOs, often UNHCR implementing partners, who 
provide community services for refugee populations with special needs. 
Finding other partners for embassy-identified cases would not preclude 
UNHCR referrals of P-4 cases.
    As with women-at-risk, physically and mentally disabled refugees 
and refugee survivors of torture or violence are currently included in 
P-1. They should not, therefore, be placed in a lower priority than the 
current P-2 (groups of special concern) or P-3 (immediate family) 
priorities.
    Disabled and traumatized refugees usually suffer disproportionately 
in refugee camps because such facilities are rarely able to make 
special accommodations to meet their needs. The consequences are often 
severe hardship, utter dependency, and discriminatory treatment. For 
such refugees, the only chance for a life of human dignity is 
resettlement to a country that is able to provide the basic 
infrastructure to enable a normal existence. As in the case of women-
at-risk, mentioned above, creating a specific admissions category for 
disabled refugees might help to reorient INS officers as they conduct 
their interviews so that they might recalibrate their assessment of 
vulnerability to accord more weight to threats to refugees in countries 
of first asylum, often the more relevant factor in assessing the need 
for resettlement than the strength of the underlying refugee claim in 
the country of origin per se. As in the case of women-at-risk, disabled 
refugees would still need to establish threshold eligibility as 
refugees under U.S. law.
    h. Create a new Priority Seven (P-7) for long-stayer refugees. 
Millions of refugees worldwide have been relegated to a limbo 
existence, warehoused in camps or settlements with no prospects for 
voluntary repatriation or local integration. Children born and raised 
in the closed confines of camps often never see normal life outside the 
fences. These populations often become dependent and despondent, with 
all the negative social consequences that entails.
    The last clause of P-1, which refers to persons in need of durable 
solutions, should be deleted, so that P-1 is reserved for truly urgent 
cases. P-7 should take as its starting point the language at the end of 
the current P-1 designation: persons for whom other durable solutions 
are not feasible and whose status in the place of asylum does not 
present a satisfactory long-term solution. A new P-7 would bear some 
similarity to the old P-6 from the 1980s (``refugees whose admission is 
in the national interest '').
    Such refugees could be processed for resettlement towards the end 
of a fiscal year if the U.S. government anticipates a refugee 
admissions shortfall in the higher priorities. Instead of having 
federally funded resettlement slots go unused, these places would be 
used for long-stayers with no other durable solutions.
    I would recommend the following criteria be used to determine P-7 
groups of special humanitarian concern to the United States: Long-
stayers, as defined above, who:

        a. do not have fully guaranteed legal status or stable physical 
        security in the place of asylum;
        b. do not have full freedom of movement; and
        c. are denied officially the right to work, or prevented 
        unofficially from meaningful employment, on account of being 
        refugees.

    Priority could then be accorded based on ties to the United States, 
including the more distant family ties currently included in Priority 
Four (P-4) and Priority Five (P-5).
    An offer to help relieve a long-term refugee population through 
resettlement needs to be approached carefully. It should be accompanied 
with transparency through public information campaigns with the 
refugees themselves so that they understand the selection process and 
the purpose of the resettlement. If done improperly, such initiatives 
risk backfiring-creating unrealistic expectations among large refugee 
populations, causing anger and resentment among refugees not chosen for 
resettlement, and precipitating new movement into camps by persons 
seeking resettlement opportunities for which they are not eligible.
    In identifying potential P-7 populations, the State Department 
should choose situations where a U.S. resettlement initiative might 
help to improve international responsibility sharing and bring closure 
to the situations of specific long-stayer populations with no other 
durable solutions in sight. The U.S. government should use resettlement 
in such contexts to encourage comprehensive solutions. This includes 
expanding the involvement of other resettlement countries in providing 
durable solutions. It also includes using resettlement-in conjunction 
with overseas assistance funding-to persuade countries of first asylum 
to provide local integration for residual caseloads and countries of 
origin to accept the voluntary repatriation of those willing to return.
    Long-stayer refugees often fit a common profile, sharing the same 
ethnic/political background, fleeing the same persecution at the same 
time. Choosing fairly among the long-stayers is difficult. As 
mentioned, if they have particular vulnerabilities or other ties to the 
United States, they would be eligible for higher priority than others 
without such ties. However, where finding such distinctions becomes 
problematic, I would recommend a transparent mechanism of random 
selection, such as a lottery, as the fairest method for making such 
choices for large camp populations whose members essentially share a 
common profile. Such lotteries would go into effect only after all 
higher processing priorities had been exhausted. There is a current 
precedent for such lotteries in the Cuban admissions program.
    This recommendation is made in the context of a multi-year history 
of significant shortfalls in the targeted annual refugee admissions, 
and, of course, by the particular predicament we are in this year. I 
would certainly prefer that all 70,000 places be filled by cases of 
compelling vulnerability, but we need to recognize the realities we 
face, among which is an acknowledgement that such processing is labor 
intensive and often slow and that many obstacles stand in the way. I 
believe that this recommendation provides a proper and humane way to 
meet our commitments and to enhance refugee protection worldwide.
    2) Contract with nongovernmental organizations (Joint Voluntary 
Agencies/Overseas Processing Entities) to set up videoconferencing so 
that the INS can conduct interviews from the safety of their offices. 
If one of the major impediments to resuming normal refugee processing 
is, in fact, the unwillingness, for security reasons, to send INS 
officers into the field to conduct interviews, then videoconferencing 
would be a relatively simple and straightforward way to reach the 
refugees without compromising the safety of INS officers. Immigration 
judges currently use such technology in domestic removal proceedings, 
during which they often conduct refugee status determination interviews 
similar to those performed by INS officers overseas.
    3) Use DNA testing to resolve questionable family reunification 
claims. If one of the main obstacles to resuming normal refugee 
processing is, in fact, the concern that overseas applicants and their 
associates in the United States are submitting fraudulent claims of 
family relationship, the problem can be handled in a straightforward 
manner. This procedure should apply equally to all P-3 cases (or P-6 
under the new proposed priorities).

        a. JVAs/OPEs as a first step should compare the family 
        information on the Affidavit of Relationship (AOR) with the 
        bio-data from the anchor relative's original A-file.
        b. If the two match, the relationship should be presumed 
        genuine.
        c. If the two do not match, the petitioning family should be 
        allowed to

                i. Withdraw the AOR,
                ii. Submit to DNA testing to establish the family 
                relationship, or
                iii. Be advised on how to petition for a non-blood-
                related dependent (who lived in the same household 
                prior to displacement; who fled at the same time for 
                the same reasons, etc.).

        d. The anchor relatives should bear the cost of their own DNA 
        testing in the United States, but the U.S. government should 
        bear the cost of DNA testing of the overseas refugee relatives 
        (as it assumes the costs of pre-arrival medical testing). The 
        United Kingdom government, which uses DNA testing as part of 
        its family-based refugee admissions procedure, pays for the 
        testing.
    4) PRM should provide U.S. diplomatic posts abroad with clear 
guidelines (and encouragement) to forge predominantly informal 
partnerships with NGOs serving refugee populations to identify specific 
cases in need of resettlement that could be processed as P-1 embassy-
identified cases. One factor that appears to slow refugee admissions is 
UNHCR's so-called ``gatekeeper'' role. In practice, most P-1 cases 
require a specific UNHCR referral. UNHCR, however, often lacks the 
resources to devote to resettlement, and UNHCR staff in field offices 
sometimes feel that their own priorities become distorted by demands 
from resettlement countries. Another avenue exists, however, for 
identifying P-1 cases, but it is underutilized-U.S. embassy-identified 
cases. NGOs are often closest to the ground, and best situated to 
identify compelling cases in need of resettlement. U.S. embassies 
should be alerted to this possibility and encouraged to make use of it.
    The U.S. government should also address the problem by providing 
more resources to UNHCR, by, for example, funding more protection 
officers to conduct refugee status determination interviews and to 
complete the extensive paper work associated with resettlement, such as 
filling out the Resettlement Registration Forms. Without adequate staff 
capacity, UNHCR cannot be expected to fulfill the need for making P-1 
referrals. Quite simply, that requires donors-particularly resettlement 
countries-to provide additional funding for UNHCR.
    Under the new processing priorities suggested above, the new P-2, 
P-3, and P-4 would still need to be individually referred by UNHCR or 
identified by a U.S. embassy.

           Part Two: Groups of Special Humanitarian Concern:

    Each member of the following groups would still need to establish 
threshold eligibility by establishing that he or she is a refugee under 
U.S. law. However, seeking out groups with common characteristics is 
often a helpful and expeditious way to establish the refugee identity 
of similarly situated persecuted persons. This is also a way of 
identifying, among the millions of refugees, populations that ought to 
be of special humanitarian concern to the United States.
    In this section of my testimony, I will identify three different 
types of groups. First, I will identify two non-nationality-specific 
``thematic'' groups that do not fit comfortably into the nationality-
specific sub-groups in the current P-2 category, but who nevertheless 
share some common characteristics that U.S. refugee officials should be 
aware of when considering possible groups of P-1 concern or new 
selections of P-2 groups in particular locations who share these 
generic characteristics. Secondly, I will identify new groups that 
ought to be considered for the current P-2 (new P-5) processing, groups 
of special concern to the United States. Finally, I draw attention to 
highly vulnerable P-1 groups, and suggest that PRM should request UNHCR 
to refer members of these groups to the United States for highest 
priority U.S. admission.

    A. Non-nationality specific groups:
    Although I would not include the following two groups either as 
separate processing priorities or as current P-2 groups per se, I would 
recommend that PRM keep them in mind when assessing current P-1 cases 
that include these elements and, where they constitute a distinct 
nationality subgroup to identify for current P-2 (or proposed P-5) 
processing.

    1) Urban refugees/irregular movers
    In many parts of the world, UNHCR offices take an extremely 
restrictive interpretation of ``irregular movers'' that at times appear 
to contradict their own policy guidelines. Although the relevant UNHCR 
Executive Committee Conclusion (58) defines ``irregular movers'' as 
refugees who have found protection in another country, UNHCR offices 
often deny resettlement opportunities to refugees who have moved 
irregularly from first-asylum countries that do not, in fact, offer 
secure protection.
    In applying this overly restrictive concept, some UNHCR offices 
appear to have lost track of their protection mandate in an effort 1) 
to combat the unauthorized migration of refugees and 2) to conserve 
their scarce resources for refugee care and maintenance by discouraging 
urban refugees and seeking to maintain refugees in camp settings, which 
is cheaper for the international community, but usually far less 
satisfactory for the dignity of the refugee.
    PRM could use resettlement to fill an important protection gap left 
by UNHCR. Such cases, would, of necessity, need to be identified by 
U.S. embassies (NGOs could help) rather than UNHCR. The problem is 
particularly acute for:

        a) African, Middle Eastern, and Asian refugees in Mexico City.
        b) Middle Eastern and African refugees in Cairo.
        c) Afghans and Burmese in New Delhi.
        d) ``Far abroad'' refugees in Moscow.
        e) Iranian refugees who entered Turkey via Northern Iraq.

    1) Ethnically mixed families who have fled areas of ethnic conflict
    Ethnic conflict is one of the leading causes of forced 
displacement. Usually in such circumstances, persons who were members 
of ethnic minorities in one place are forced out and find asylum in a 
place where they belong to the ethnic majority, where ethnic solidarity 
provides for at least temporary asylum, if not local integration. 
However, as has been shown in the Balkans and the Great Lakes region of 
Africa, ethnically mixed families are often placed in an untenable 
situation that leaves them no durable solutions within their polarized 
communities of origin as well as in countries of asylum.

    B. Potential New Priority Two (P-2) Groups
    Again, members of each of the groups suggested below would need to 
establish threshold eligibility as refugees. Designating them as P-2 
groups, under the current processing priorities, is a means of 
expediting the process by identifying groups with a common profile as 
the basis for their refugee claim and for their need for resettlement 
as a tool of protection and/or durable solution. Under the new 
processing priorities, proposed above, these would be re-designated as 
P-5 groups.
    I left many extremely vulnerable refugee groups off my list for 
inclusion in the current P-2 (new P-5). In some cases, I did not 
personally know enough about groups to feel competent to suggest them 
(for example, others have suggested Rohingyas from Burma in Bangladesh, 
Meshketian Turks in Krasnador, Liberian Mandingo former civil servants 
in Lofa County, and Uighurs from western China in central Asian 
republics of the former Soviet Union). The following groups are not 
presented in any internal priority order, but rather by region.

                          REFUGEES FROM AFRICA

    1) Somali Bantu refugees in Kenya: This is one of the better-known 
potential P-2 groups in Africa, and has been discussed as a possible P-
2 group for several years. PRM has indicated that it is seriously 
considering designating the Somali Bantu as a P-2 group this year, but 
has not finalized that decision. During a visit to the Dadaab camp in 
Kenya in December, I was pleased to see that UNHCR was engaged in 
additional screenings of this group to ensure that it would meet U.S. 
standards, if and when the United States decided to act on this 
caseload.
    The Somali Bantu, descendents of slaves taken to Somalia from 
Mozambique and Tanzania, have never been accepted within the Somali 
clan structure. A visibly distinct group, they have suffered 
discrimination and persecution as the lowest rung on the Somali social 
scale. With the onset of civil war, the Bantus of Somalia were subject 
to horrific violence, including massacres, rapes, looting and burning 
of homes, and in the early 1990s, nearly all Bantus fled to Kenya. They 
are only marginally safer in the Dadaab camp, a place notorious for its 
insecurity. Once again, they are at the bottom of the social pecking 
order, and subject to daily indignities and danger. The group has about 
11,000 members. They are easily identified and distinct from other 
refugees in the camp. Their names are already on a list, created in an 
unsuccessful bid to resettle them to Mozambique and Tanzania.
    2) Sudanese ``Lost Girls'' in the Kakuma camp, Kenya: There are up 
to 2,000 unaccompanied girls and young women, survivors of an ordeal 
similar to the better-known ``Lost Boys'' who were previously resettled 
to the United States. UNHCR is currently assessing this caseload. This 
group is highly vulnerable, and subject to exploitation.
    3) Residual caseload of Sudanese ``Lost Boys'': There are up to 
4,000 of these unaccompanied boys still in the Kakuma camp who were not 
included in the previously identified group.
    4) Sudanese ``Lost Boys'' in Ethiopia: The now-famous odyssey of 
the Lost Boys first took them from Sudan into Ethiopia. A small number 
were stranded in Ethiopia when most of the group was forced across the 
Gilo River back into Sudan (from where they fled into Kenya). Their 
number is estimated at several hundred. UNHCR is now trying to register 
unaccompanied minors among this group (others have reached adulthood).
    5) Sudanese ``protection'' cases in the Dadaab camp: A small group 
of Sudanese refugees in the overwhelmingly Somali refugee camp of 
Dadaab were moved there by UNHCR for their own safety because they had 
run afoul of Sudanese political factions within the Kakuma camp. I met 
with some of these refugees during a recent trip to Dadaab. They now 
not only fear persecution in Sudan itself, as well as in Kakuma, but 
also are fearful, isolated, and miserable in the Dadaab camp, where 
they feel, once again, like a persecuted religious and ethnic minority. 
This is also potentially a P-1 group, but the U.S. is not currently 
accepting P-1 referrals from UNHCR-Kenya, except in extreme emergency 
cases.
    6) Long-term African refugees in Moscow: They stand out (because of 
their race) and are subject to regular abuse and exploitation. Between 
2,000 and 3,000 are in need of resettlement. Many are long-stayers who 
arrived in the Soviet Union as students in the 1980s, and became 
refugees sur place. They have UNHCR mandate status, but lack any status 
allowing them to remain legally in Russia. They are not permitted to 
work and are not eligible for education. They are harassed both by 
police and other officials as well as by thugs. UNHCR is only able to 
provide cash assistance to about 5-10 percent of its Moscow caseload, 
and says it is very expensive. Costs include medical and legal 
expenses. A UNHCR protection officer in Moscow described the group to 
me as ``totally psychologically exhausted.'' I discussed resettlement 
with the relevant Russian government official in the successor bureau 
to the Federal Migration Service. Although he was negative about 
resettlement of former Soviet citizens and of Afghans (fearing a magnet 
effect), he was quite positive about the possibility of the U.S. 
resettling African refugees from Moscow. He said, ``We would welcome 
this proposal. We could organize a meeting to set up a working group to 
consider this proposal in detail. We can work this out in an efficient 
manner. We can define the categories, for example, people originating 
in Zaire, Congo. We can define categories based on their origin and on 
experience we have gathered.''

                     NEAR EAST/SOUTH ASIAN REFUGEES

    1) Afghan refugee widows or female heads of household: Despite 
assurances by the interim Afghan government, many refugee women in 
Pakistan express fear of the new authorities, remembering their 
treatment at the hands of the Northern Alliance commanders in power 
prior to the Taliban. Whatever formal changes in government occur, 
Afghan society will be slow to change, and single Afghan women with 
dependent children and elders will remain especially vulnerable. 
Numbers are unknown, but the International Rescue Committee has a pilot 
program in Pakistan to assist the U.S. embassy in Islamabad to identify 
women-at-risk for possible resettlement. (See Recommendation 1.f., 
above calling for a new P-3 category for women-at-risk as a generic 
category within which these women would fit.)
    2) Iraqi refugees whose persecution or fear of persecution is based 
on actual or imputed association with the U.S. government or U.S. 
nongovernmental entities: More than 6,000 persons associated with the 
United States were evacuated in 1996 and brought to the United States. 
A small number of persons, who were not included in the original 
evacuation and who claim ties with U.S. humanitarian organizations, 
still present themselves to UNHCR in Ankara. U.S. NGOs are prepared to 
assist UN and U.S. officials in establishing whether their records 
support such claims. (This is a specific example of a group that would 
be included in Recommendation 1.e.'s new generic P-2 category for 
people persecuted for their association with the United States.)
    3) Iraqi Chaldean Christians in Mexico: Several hundred are 
believed to have arrived in Mexico in recent years. After September 11, 
Mexico arrested and detained a group of Iraqi Chaldeans who had asylum 
claims pending in the United States. (This is a specific case that 
illustrates the problem of ``irregular movers'' discussed in A.1. 
above.)
    4) Iranian ``irregular mover'' refugees in Ankara who arrived via 
Northern Iraq: There are hundreds in Ankara, and about 5,000 Iranian 
refugees in Northern Iraq who might be drawn to Ankara if they thought 
resettlement out of Ankara was a possibility. This has been an 
extremely vulnerable caseload of mostly Iranian Kurds. Over the years, 
hundreds have been assassinated by agents of the Iranian regime, 
according to sources within this community that can't be independently 
verified. UNHCR-Ankara recognizes them as refugees, but refuses to 
refer them for resettlement for fear that it might cause a magnet 
effect. Magnet effect or not, they are not safe in Northern Iraq and no 
one there can guarantee their safety. Their so-called ``irregular 
movement'' is completely justified as an attempt to seek asylum from 
persecution both from their home country as well as from their 
``country'' of first asylum. The U.S. government would have to identify 
this caseload without UNHCR cooperation and would need to negotiate an 
exit arrangement with the Turkish authorities. The diplomats won't 
start working on this, however, to see if it is possible, unless 
directed to do so from Washington. (This is another specific case that 
illustrates the problem of ``irregular movers'' discussed in A.1. 
above.)
    5) Afghan and Iraqi refugees interdicted by Australia and on Nauru 
Island and Papua New Guinea: In the fall of 2001, Australia adopted a 
dramatic new policy toward the unauthorized arrival of asylum seekers 
by boat at its offshore territories. A major component of this policy 
is the so-called ``Pacific Solution,'' under which Australia transfers 
asylum seekers arriving at its territories (such as Christmas Island, 
Ashmore Reef, and the Cocos Islands) to other Pacific nations that have 
agreed to house them temporarily for purposes of refugee screening.
    Thus far, the countries of Nauru and Papua New Guinea have agreed 
to house the asylum seekers, who are mostly from Afghanistan and Iraq, 
with smaller numbers from elsewhere in the Middle East and South Asia. 
At the end of 2001, some 1,000 asylum seekers intercepted by Australia 
were in Nauru and more than 200 in Papua New Guinea. Hundreds of others 
were on Australian territories awaiting possible transfer to Nauru or 
Papua New Guinea, and boats carrying asylum seekers were continuing to 
arrive near the Australian territories.
    UNHCR is conducting refugee screening for some of the asylum 
seekers on Nauru, while Australian immigration authorities are 
screening the rest on Nauru and all of those on Papua New Guinea. UNHCR 
has indicated that a significant number are expected to be approved as 
refugees. Australia has said that it will resettle its ``fair share'' 
of those approved, but that it expects other countries to do the same. 
Although UNHCR feels that Australia should play the lead resettlement 
role, Australia has insisted on more equitable ``burden sharing'' for 
this group. Australia's immigration minister has indicated that many of 
the approved refugees could be left languishing in the remote 
facilities on Nauru or Papua New Guinea for a year or longer. In 
addition, Australia has indicated that most Afghans should soon be able 
to return home.
    New Zealand admitted and screened some 130 of the asylum seekers 
initially taken to Nauru, and it has since approved almost all of those 
as refugees. Thus far, the only other country that has agreed to admit 
any of this population is Ireland, which has indicated that it will 
resettle 50 approved refugees.
    Human Rights Watch has described conditions at the processing 
center on Nauru as ``hellish,'' and both Nauru and Papua New Guinea 
have indicated their desire for the refugees to depart as soon as 
possible. The United States could help resolve the situation of these 
refugees caught up in Australia's harsh stance toward asylum seekers by 
offering to resettle members of this caseload who do not have ties to 
Australia.
    (This is another specific case that illustrates the problem of 
``irregular movers'' discussed in A.1. above.)
    6) Iraqi Refugees at the Rafha Camp in Saudi Arabia: About 5,000 
Iraqi refugees still live in the Rafha refugee camp in northern Saudi 
Arabia. These refugees are the remainder of a group of some 33,000, 
mostly Shi'a, Iraqis, whom coalition forces evacuated to Saudi Arabia 
after Saddam Hussein crushed their uprising in the immediate weeks 
following the 1991 Gulf War cease-fire. Unable to return home safely 
and not permitted to locally integrate in Saudi Arabia, and living for 
more than 10 years in desolate and prison-like conditions, they are a 
long-stayer population of the type discussed generically above, in 
Recommendation 1.h., which calls for a new P-7 category for long-
stayers.
    Because they responded to a call from the elder president Bush 
urging ``the Iraqi military and the Iraqi people to take matters into 
their own hands to force Saddam Hussein the dictator to step aside,'' 
the U.S. government bears a particular responsibility on this group's 
behalf.
    While living conditions in Rafha are difficult for everyone, they 
are particularly poor for women and children. Saudi authorities allow 
Iraqi refugee women to move about the camp only when fully veiled and 
in the presence of a male escort. This has a particularly isolating 
effect on most Iraqi women in the camp, whose modes of dress and social 
interaction tended to be far more liberal in Iraq. Also deeply 
troubling is the fact that one-fourth of the camp population are 
children under the age of nine who have known nothing but life in the 
camp. A full 40 percent of the camp population are refugee children 
under the age of 18. For these children, Rafha is a dead end.
    Rafha stands as an example of how resettlement can be used to 
leverage international burden sharing. The United States resettled more 
than 12,100 Iraqis from Rafha between 1991 and 1997. Other countries 
combined accepted another 12,600-Iran, Sweden, Australia, and Canada 
taking the largest numbers. Most resettlement activity ceased after 
1997, however, and the job was left unfinished.
    When the United States closed its resettlement program in Rafha in 
1997, it appeared that most of the remaining refugees did not wish, or 
were ineligible, to resettle to the United States. Most hoped instead 
to repatriate or resettle to other Muslim countries. However, the 
passage of four more difficult years in the camp without any movement 
on durable solutions understandably has led many refugees to change 
their minds. According to a UNHCR survey, about two-thirds of the 
refugees in Rafha now are actively seeking resettlement, while the 
remaining third wish to remain in Saudi Arabia pending repatriation. 
Those refugees who did not seek resettlement in the mid-1990s because 
they were holding out hope that they would be able to repatriate safely 
to their homeland should not now be penalized, more than four years 
later (and more than ten years after their original displacement), for 
deciding that repatriation is not a viable option and that they must 
get on with their lives.

                           EUROPEAN REFUGEES

    1) Roma, Muslim Slav, Gorani, Ashkali, and ``Egyptian'' Kosovars 
outside Kosovo: These non-Albanian, non-Serb Kosovars have fled severe 
persecution in Kosovo and are decidedly unwelcome in all the 
surrounding areas, including Macedonia, Serbia, and Montenegro. There 
are two camps in Macedonia that predominantly accommodate Roma, 
Ashkali, and ``Egyptian'' refugees from Kosovo (various ``gypsy'' 
subgroups), Suto Orizori (known as ``Shutka '') and Katlonovo. I 
visited both camps in June 2001, at which time Shutka held 1,264 and 
Katlonovo, 518. A third camp, Roolusha, accommodated 221 mostly ethnic 
Albanians from southern Serbia.
    I had the opportunity to interview some of these refugees in groups 
and privately as individuals during my visit. They expressed 
considerable anxiety about the ethnic tensions then escalating in 
Macedonia between ethnic Albanians and Macedonian Slavs. These tensions 
extend outside the camps to the gypsy population of Macedonia itself. 
In separate interviews in different locations, gypsy refugees from 
Kosovo used the term ``deja vu'' to describe their sense of impending 
doom. ``We are afraid we will experience again here what we experienced 
in Kosovo,'' one of the elders in Shutka said to me. Another added, 
``For peaceful people like us, there is nothing. We have suffered for 
two years. Our children don't go to school; we are without human 
rights. We are known, but not counted as human beings. Is there a place 
on earth for us? We ask only for a normal, decent life. I don't see any 
solution here. I have a dark image about what will happen in the 
future. This is not just a Macedonia question, it is a whole Balkans 
question.''
    The refugees are easily identified. Macedonia registers Roma, 
Ashkali, Egyptian, Serb, and mixed marriage refugees from Kosovo (but 
generally not ethnic Albanians). Those accommodated in camps are issued 
blue cards. At the time of my visit, there were almost 2,000 blue 
cardholders. Based on my observations of conditions inside and outside 
the camps, I would say that persons in both the Shutka and Katlonovo 
camps ought to be considered for U.S. refugee resettlement based both 
on protection needs in their country of asylum as well as the lack of 
durable solutions in the region. I would add that the more vulnerable 
population appears to be the one residing in Katlonovo. The Katlonovo 
camp is isolated, which heightens the sense of anxiety in the camp. 
Katlonovo residents told me of current protection problems. ``The 
soldiers at the gate tell us we have Muslim names, that we are 
terrorists,'' said a war-injured refugee woman. ``But when we go out, 
and Albanians hear us speaking Serbian, we have problems with them too, 
so we avoid talking in public.'' Tensions are particularly heightened 
with Albanians, not only because ethnic Albanians continue to persecute 
Roma in Kosovo and because Kosovar and Macedonian Albanians continue to 
accuse those who fled to Macedonia as being collaborators with the 
Serbs, but also because most Roma do not speak Albanian, but only 
Serbian (more Ashkalis and Egyptians speak Albanian).
    Resettlement should also be considered for roughly 2,000 gypsies 
from Kosovo in collective centers in Bosnia.
    It makes sense to categorize the various Kosovar ``gypsy'' groups 
as a P-2 group because they have shared group characteristics that 
establish their well-founded fear of persecution in Kosovo and 
vulnerability in their countries of first asylum, and they have already 
been identified and registered, obviating the need for--and expense 
of--a separate UNHCR refugee status adjudication and referral.
    I would also like to see the creation of a resettlement processing 
``pipeline'' for identifying gypsy groups displaced from Kosovo into 
Serbia. They could be preliminarily identified by JVA/OPEs and 
transported by the International Organization for Migration via 
Belgrade to be interviewed in Timisoara, Romania or via Podgorica, 
Montenegro to be interviewed in Split, Croatia. The living conditions 
for gypsies displaced from Kosovo into Serbia are among the worst I 
have ever seen.
    2) Ethnic Armenians from Azerbaijan living in Moscow: There were 
less than 2,000 of this group in Moscow at the time of my last visit in 
December 2000. They were evacuated from Baku following the anti-
Armenian pogroms in January 1990, which killed at least 46 Armenians at 
the outset. Although most ethnic Armenians in Azerbaijan fled to 
Armenia (about 200,000), then-Soviet forces evacuated a relatively 
small number to Moscow. This group had no connection with Armenia, 
other than nominal ethnicity, and, perhaps, were moved to Moscow for 
protection reasons, since Armenia at that time was also hotly 
nationalistic (both Armenia and Azerbaijan declared independence in 
August 1990).
    Citizenship and documentation is problematic for this group. They 
were citizens of the former USSR, and were Soviet citizens at the time 
of their evacuation. Having never lived in Armenia, their post-Soviet 
citizenship would normally be Azeri, but that is out of the question. 
After the break-up of the Soviet Union and the establishment of the law 
on forced migrants and the law on refugees, most of the Baku Armenians 
were given refugee status rather than forced migrant status (despite 
what would appear to be eligibility to qualify as forced migrants). 
According to the new citizenship law, all former Soviet citizens who 
arrived in the Russian Federation before February 1992 had the right 
(in theory) until December 31, 2000 to avail themselves of a simple 
naturalization procedure by which a Russian citizenship sticker would 
be pasted in their passport. Those arriving after February 1992 had a 
more complicated process, including a five-year residence requirement 
in Russia (2 = years for former Soviet citizens).
    The main documentation problem for the Baku Armenians is that most 
were only issued temporary propiskas by the Moscow authorities, who 
have refused, in many cases to renew their temporary residence 
propiskas, which are also a prerequisite for permanent residence 
documents, which they also lack. In many cases, their refugee status 
was also not renewed. Some have valid citizenship (passports), but lack 
propiskas, which are needed (despite having been ruled as 
unconstitutional by the courts) for renting apartments and for many 
jobs. It is widely believed that the Moscow city government issued 
secret orders forbidding the issuance of propiskas to Baku Armenians. 
Many are still living in temporary accommodation centers, ten years 
after arriving in the capital. These are essentially run-down hotels. 
Recently, the Moscow authorities have been trying to move them out of 
the city center into the outskirts of Moscow. The Baku Armenians are 
discriminated against in Moscow, particularly as regards employment and 
housing. The group is easily identified based on the array of documents 
that have been issued, but not renewed, on their behalf.
    Although some of the Baku Armenians may, in fact, be Russian 
citizens, this would not preclude their admission to the United States 
as refugees, because the Presidential Determination, signed on November 
21, designates that ``persons in Cuba, Vietnam, and the former Soviet 
Union, who, if they otherwise qualify for admission as refugees, may be 
considered refugees under the INA even though they are still within 
their own country of nationality or habitual residence.''
    3) Chechens in Moscow: This would be a limited caseload of highly 
vulnerable internally displaced Chechens living in Moscow (as mentioned 
above, the annual presidential determination on refugee admissions 
specifically permits in-country processing for persons still within the 
former Soviet Union). Essentially, these would be P-1 cases, except 
that they are internally displaced, and, therefore, UNHCR would not be 
able to refer them. I would suggest that the U.S. embassy in Moscow 
work with IOM and an NGO partner to identify particularly vulnerable 
cases for whom resettlement would be warranted.
    Many of these are also women-at-risk, female-headed households. 
During my visit to Moscow, I also met with Chechen women with children 
in need of medical attention who could not (or would not) be treated by 
clinics or hospitals in Moscow based on the Chechen origin of the 
displaced people. The displaced Chechens told me of being frequently 
threatened and abused by landlords and employers, harassed by the 
police, denied social services, and left feeling that they have no 
legal remedies for redressing the wrongs they are experiencing.

                        REFUGEES FROM EAST ASIA:

    1) Bhutanese Refugees in Nepal: More than 100,000 of these refugees 
have lived in refugee camps for more than ten years, with no durable 
solution in sight. The Buddhist-dominated Bhutanese government refuses 
to accept the return of most of the Hindu Bhutanese refugees, claiming 
that they are not citizens of Bhutan. The government of Nepal refuses 
to let the refugees integrate locally and insists they live in camps. 
They are not permitted to work or farm outside the camps. (This is a 
specific example of a long-stayer population, discussed in 
Recommendation 1.h.)
    2) Vietnamese Montagnards in Cambodia: About 1,000 ethnic 
minorities from the central highlands of Vietnam-collectively known as 
Montagnards-are in two UNHCR-administered camps in the remote Cambodian 
provinces of Mondulkiri and Ratanakiri. They fled to Cambodia beginning 
in March 2001, following a Vietnamese government crackdown on ethnic 
unrest. The Montagnards, who are mostly Christian, reported 
governmental burnings of house-churches, other human rights abuses, and 
land rights violations. These arrivals were the latest of a few 
thousand Montagnards who have fled Vietnam since the fall of Saigon-
most of whom were resettled in the United States. In April 2001, the 
United States resettled as refugees 38 Montagnards who had been 
arrested by the Cambodian government, taken to the Cambodian capital of 
Phnom Penh, and granted refugee status by UNHCR. For the nearly 1,000 
Montagnards in the two UNHCR-run camps (and potentially others who have 
fled to Cambodia but are not yet known to UNHCR), U.S. resettlement 
should also be an option.
    3) Burmese in Thailand: Some 123,000 refugees from Burma-mostly 
ethnic Karen and Karenni-live in camps in Thailand, just over the 
Burmese border. Many have been there for nearly 12 years, since the 
latest military junta to rule Burma, which seized power in 1988, 
refused to honor the results of the 1990 elections that would have put 
the National League for Democracy (NLD) in power. Burma has one of the 
world's most egregious human rights records, with abuses aimed not only 
at NLD supporters and other pro-democracy activists but also at the 
ethnic minorities who make up as much as half of the country's 
population, and who have for years sought greater autonomy within 
Burma. The refugees in Thailand have fled a litany of violations that 
include murder, rape, torture, and systematic forced labor and forced 
relocation. For the past few years, Thailand has grown increasingly 
weary of hosting this refugee population. In addition to adopting 
extremely narrow criteria for the admission of new refugees into 
Thailand and into the camps, Thai authorities have forcibly returned 
some refugees to Burma and have engaged their Burmese counterparts in 
plans for a large-scale ``repatriation.'' Unfortunately, the political 
and human rights situation in Burma shows no sign of improvement, 
leaving the refugees in continued limbo. It is time to consider 
resettlement for this ``long-stayer'' refugee population (see 
Recommendation 1.h.). In addition to the ethnic minorities, the United 
States should consider for resettlement some 300-400 Burmese democracy 
activists forced by the Thai government to move from an urban location 
to the border camps at the end of 2001.
b. nationality groups among whom there are p-1 cases of special concern
    There are other very compelling P-1 cases involving danger in the 
country of asylum as well as well-founded fear of persecution in the 
countries of origin of groups that do not have clear enough common 
characteristics to define as a P-2 (or new P-5) group. Although they 
are broadly identifiable as a group, their circumstances indicate that 
it would be preferable to require them to be referred by UNHCR before 
being considered for the U.S. program. PRM should encourage UNHCR to 
refer as P-1 cases refugees from among them:
    1) Liberian and Sierra Leonean refugees in Guinea: Following 
inciting remarks by the Guinean head of state in September 2000, 
Guinean military and police officials, as well as nonstate actors, 
subjected Sierra Leonean and Liberian refugees to human rights abuses, 
including arbitrary arrest, harassment, sexual abuse, extortion, 
eviction, and disappearances. UNHCR has been able to relocate some 
refugees to safer locations within Guinea and facilitated the return of 
others to their home countries, but many who remain are in urgent need 
of resettlement. They include many women-at-risk (the suggested new P-
3) and survivors of torture and violence (the suggested new P-4). In 
Conakry alone, there are about 1,000 in need of resettlement. For 
security (and other) reasons, however, UNHCR prefers that these not be 
designated as a P-2 group, but be identified individually. UNHCR has a 
plan to resettle about 3,000 P-1 cases out of Guinea per year for the 
next five years, but has not had sufficient resources to move forward 
expeditiously with the plan. The United States and other resettlement 
countries should-as a matter of urgency-provide the human and financial 
resources to enable UNHCR to identify refugees in need of resettlement 
and to facilitate their processing.
    2) Sudanese and Iraqi Refugees in Lebanon: At the end of 2001, 
there were about 2,800 recognized refugees and 3,000 asylum seekers 
registered with UNHCR in Lebanon, who continued to face serious threats 
to their safety, making resettlement more important than ever as a tool 
of protection. In early January 2002, the Lebanese authorities deported 
186 Iraqis to northern Iraq, including asylum seekers and UNHCR-
recognized refugees. As a result of increased insecurity for many in 
Lebanon whose presence the government had previously tolerated, the 
number of asylum seekers applying for refugee status has increased 
substantially.
    Lebanon is not a signatory to the UN Refugee Convention. UNHCR-
recognized refugees therefore have neither legal status in Lebanon nor 
any prospect of obtaining it. Therefore, local integration is not an 
option, a fact underscored by recent crackdowns on refugees and other 
foreigners without legal status. Reports during 2000 and 2001 suggest 
that Lebanon is detaining hundreds of asylum seekers-mostly Iraqi and 
Sudanese-many of whom allegedly have been mistreated and denied access 
to UNHCR to pursue their refugee claims. There have been credible 
allegations that Lebanese authorities mistreated, and in some cases 
tortured, detainees. Lebanese authorities reportedly have refouled 
hundreds of recognized refugees and asylum seekers during the course of 
the past two years.

[GRAPHIC] [TIFF OMITTED] T4502.001

[GRAPHIC] [TIFF OMITTED] T4502.002


    Chairman Kennedy. I want to thank all of you for excellent 
presentations and giving us a lot of very good material to try 
and work with. So I am grateful for all of your services to 
this cause to you as a group or individually and not believe 
that we could get to our number this year without a lot of 
difficulty, given the kinds of recommendations that you have 
made. So many of these recommendations I think just make such a 
compelling case for, perhaps as arguments on the other side, 
but they do not leap out at me or jump out at us at the outset.
    Let me ask, I guess Ms. Brown and the others about how much 
fraud is in all of this area. We all obviously want to deal 
with that kind of issue, but it is sort of raised as we just 
cannot do anything more because of fraud. What is it that we 
ought to be worried about, and is it manageable, and can we get 
to the bottom of where it is and move ahead in some of these 
areas? What can you tell us, or any of the others of you?
    Ms. Brown. I think certainly there has been 
misrepresentation, and this is not restricted to the refugee 
program. There is misrepresentation in normal immigrant claims. 
However, what we need to focus on is, why is the 
misrepresentation happening, which I feel is predominantly that 
there is no access for the individual to get a refugee 
interview. You often have misrepresentations which are perhaps 
minor. By minor I would say, the individual in question is not 
in fact the son of the family, but the nephew of the family and 
the mother and father of that nephew are dead. The family will 
then claim that this is their son.
    There is an indication that there are misrepresentations. 
To have actual statistics on this you would have to ask the 
INS, which are currently conducting the review. But we feel 
measures have been taken to address this, and measures which 
were in place many years ago are being reinstated.
    Chairman Kennedy. So we can deal with this?
    Ms. Brown. Yes, we can.
    Chairman Kennedy. This is a problem, it is an issue but it 
can be dealt with without having it as a significant block.
    Let me ask Mr. Frelick, what happens when you make these 
recommendations in terms of the changes in Title II? How long 
have you been making them?
    Mr. Frelick. I have been working in this field for nearly 
20 years. We have had discussions certainly with the State 
Department and it depends obviously--the bureau is a small 
bureau and you are dealing with civil servants, and oftentimes 
you are down to one or two people, especially in the last 
months, the most recent months where we really have not had the 
new leadership in place yet.
    But frequently when there have been emergencies--I think 
back to Kosovo and other times where everyone internationally 
seemed to be gearing up and really pulling together, the State 
Department just seemed to be on another planet in terms of 
concern. Again, the Bureau of Population, Refugees, and 
Migration in particular, and within that, the admissions part 
of it.
    So again, I agree very much with Lenny Glickman. There are 
some wonderful people there. We find people to be responsive. 
But when you look over the years and you look at the P-2 
groups, they are essentially holdovers from the Cold War. In my 
written testimony I go into some detail about who is in P-2 now 
and who is not there. We basically have a placeholder for 
Africans that is not being used at all, and we have groups that 
were mandated by Congress for in-country processing, the 
Lautenberg groups from the former Soviet Union, Vietnam. We 
have Iran, which has become a Lautenberg-like group as well.
    So it has not been responsive, not been proactive. We 
really need to hopefully see that the new leadership will 
follow through and help to move some of the groups that are 
easily identifiable, do have common characteristics, and could 
be moved through the system because they do have common 
characteristics of persecution.
    Mr. Glickman. If I may add to that, last spring--this is 
from the top, the front office of the bureau really started a 
process that was terrific. It engaged the NGO community in a 
review of the P-2 category, asking us to identify new 
populations. We had several meeting with them, we presented 
papers to them, and from the front office of PRM it really 
seemed like we were making progress towards an eventual 
revision of the P-2 categories and identifying new populations. 
Then it sort of ground to a halt this end of the summer, this 
past fall, and nothing has happened.
    I think one of the most startling examples of that is the 
Somali Bantu. It was clearly identified as a group who were in 
need of resettlement, in need of the protection of the United 
States. Everybody was on the same page including PRM and UNHCR 
that this was a group that needed our services, and not a 
single Somali Bantu has arrived in the United States. It is 
outrageous.
    So I think that with the new leadership at PRM we may have 
a chance at addressing this, but we have got to maintain the 
pressure on the front office.
    Chairman Kennedy. One possibility, this is for you Mr. 
Glickman, for increasing the number of applicants, eligible 
refugees for the State Department to work with the private 
sector joint voluntary and other non-governmental organizations 
to identify and process the cases. I understand that in the 
case the partnerships have been very successful. Are the 
private sector refugee agencies capable of assuming a greater 
role in identification and screening?
    Mr. Glickman. The simple and short answer in the interest 
of time is yes.
    Chairman Kennedy. One other point that has been raised is 
the more difficult, today's refugees experience more difficulty 
than past groups of refugees?
    Mr. Glickman. In terms of their resettlement here or 
processing overseas?
    Chairman Kennedy. Here.
    Mr. Glickman. No. I have to say that the system that has 
been built up over the years of refugee resettlement is pretty 
extraordinary in terms of the public-private partnerships that 
have been forged at the local level, the thousands of 
volunteers that we have involved in the program, the 
caseworkers that have been engaged in this type of thing.
    I do not think any refugee group has a more difficult time 
than others. Now we could argue perhaps maybe--not to single 
out a particularly group, but the Hmong, for example, had a 
difficult time making an adjustment here, for obvious reason. 
Perhaps a more educated population, a more Western oriented 
population may have an easier time.
    I do not think it is a matter of groups arriving this year 
versus groups arriving 20 years ago. It is really a matter of 
good planning among all of the units of Government involved and 
a good process that is inclusive and transparent. I think any 
refugee group would be well-served being resettled here in the 
United States.
    Chairman Kennedy. We had a situation in my home State 
settling 100 Tibetans. We took in about 1,000 just a few years 
ago and Massachusetts had 100 of them. I went one evening over 
to a church service where they brought them all--all of them 
came on in together. It had been the most remarkable settlement 
effort that was done by the agencies. It had just been--there 
may have been some complications or difficulties, but you sure 
did not detect it either from any of the groups, from the 
people themselves, from those that had been moved and affected.
    And what they were doing with their lives in the State. It 
was just a remarkable, remarkable success. There are 
challenges, Lord only knows, in different programs, but I will 
tell you that this was--and this Tibetan culture and tradition, 
language and all the rest, arriving in an American State and 
how that process worked was just really one of the most 
extraordinary works of success that I have seen in the whole 
refugee settlement. I think it can be done and people are 
willing to help and assist.
    Thank you very much.
    Senator Brownback?
    Senator Brownback. Thank you, Mr. Chairman.
    Do we need to go more of the Lautenberg approach than to 
changes, and put in statute certain groups to drive this 
process to move it on forward?
    Mr. Frelick. I would hope not, because in part what that 
tends to do is to calcify a situation, and we have got a 
changing refugee world out there. On the other hand, I am not 
sure how you mandate and direct the State Department to act.
    Senator Brownback. I look at a calcified approach as going 
the wrong way.
    Mr. Frelick. Right.
    Senator Brownback. It has been for a long time under both 
types of administration.
    Mr. Frelick. Yes. Frankly, it is a tough choice. We 
certainly--I would like to see Gene Dewey given a chance. I 
would like to see Commissioner Ziglar who has come in here, 
both of them have expressed goodwill to try to work with us, to 
try to get the system back on track. My preference certainly 
would be to see that that happens, and to keep the heat on to 
make sure that it does happen. Certainly your willingness to 
introduce legislation as need be would be one of the things 
that would keep the heat on.
    Senator Brownback. Mr. Glickman, do you have any thoughts 
on that?
    Mr. Glickman. The only thought I have is that the Refugee 
Act itself is one of the most extraordinary pieces of 
legislation I think this Congress has ever enacted into law. It 
is extremely flexible. It allows for all sorts of things. Even 
though it was enacted in 1980, even today it is as relevant as 
it was in 1980. It is really a matter of the people who are 
charged with implementing it doing their jobs.
    Rather than enact new legislation, which obviously is 
dangerous to do, particularly in our field, it would just be 
appropriate, as you are doing right now, to oversee the 
implementation of the Refugee Act and see how it is going. I do 
not want to make a direct linkage, although it is pretty 
coincidental that all of a sudden we are hearing all sorts of 
good words. Maybe not the deeds yet, but we are getting there. 
But all sorts of good words come out of the new Administration 
leadership coincidentally that today here we are in front of 
your Subcommittee talking about refugee admissions. So I think 
that is the way to go.
    Senator Brownback. It may well be, but I look up here and 
we are looking at 70,000 this year and that is less than half 
of what was approved in 1992, 10 years ago, and we are happy 
about it. That may not be the right way to put it, but we are 
delighted that maybe we are going to make 70,000. It seems like 
we just keep defining the target down further and further, and 
I think as each of you testified and it has certainly been my 
experience as I have traveled, there is no shortage of refugees 
or of vulnerable populations around the world. It is not 
substantially different than 1992. It may be in different 
locations and different places, but there are huge populations 
that are in terrible plight and we are happy about 70,000, that 
we may hit that target.
    Mr. Glickman. No, we are not.
    [Laughter.]
    Mr. Glickman. We will live with it. It is better than the 
alternative and the direction that they were going.
    Senator Brownback. That is not properly put, but we have 
been trending down under both type of administration. I guess I 
look at it as this to me is definitionally what compassionate 
conservatism is about: you take care of the most vulnerable of 
the populations that are there. The people least able to take 
care of themselves you help.
    Ms. Brown, are we doing sufficient in our refugee programs 
for particularly vulnerable female populations, widows, 
orphans, little children, are we doing sufficiently? And if 
not, what particular suggestions might you have that we could 
do better?
    Ms. Brown. Sir, I do not believe we are addressing this 
sufficiently. I feel that leaving the onus again on the UNHCR 
to refer women and children--forgive me for saying this, but I 
might as well tell a refugee that he must approach the 
President of the United States. It is almost that impossible to 
get to a UNHCR representative in certain situations.
    If we had the ability of NGOs on the ground to refer women 
who they felt were in need, if we were to broaden our 
definitions so that--for instance, I have individual family 
members here in the United States who contact my office 
frequently and talk about their sister who is stranded in a 
refugee camp. I have no means to get that individual person 
access to a refugee interview at this time.
    Senator Brownback. Any thoughts on that, Mr. Glickman or 
Mr. Frelick?
    Mr. Frelick. Yes. As I said earlier, I think there is an 
inherent bias in the system, and that is that the focus of the 
INS interview is on the situation in the country of origin that 
caused a person to be a refugee. Oftentimes women do not have 
as prominent a position politically or what have you. They may 
not have the strong kind of refugee claim that showed high 
profile political activity in their country of origin.
    However, in the asylum country where they are sitting in a 
refugee camp, particularly if they are a widow or if they are a 
single woman household they could be extremely vulnerable. 
Every time they go out to gather wood they could be subject to 
rape, they can be exploited. The focus has not shifted to take 
that into account.
    We are looking in the refugee program at the need for 
asylum essentially: are you a refugee? But we are not looking 
at the need for resettlement. So we have to say, what is it 
about this person that makes her particularly vulnerable and in 
need of being resettled to the United States among the 14 
million refugees that are out there in the world today?
    That I think is something that, by creating a priority 
category specifically for women at risk, will redirect the INS 
to somewhat weigh differently the way that they approach their 
adjudications overseas to be more responsive to refugee women 
who again, as I said, oftentimes come as part of large 
movements of people. If the focus of the interview is put into 
that undifferentiated broad-based persecution, the INS officer 
is going to say, she is no more compelling. This male political 
leader is ever so much more deserving of our protection. But he 
may not be in danger in that refugee camp; she is.
    Mr. Glickman. The only thing I would add is it is my hope 
that the INS will go back to the standard that the law says 
that one must just demonstrate a well-founded fear of 
persecution. That is what the law says. They simply have to 
state a credible, well-founded fear. I think particularly this 
group and in other groups of potential refugees it is almost a 
lead pipe cinch that these folks have well-founded fears of 
persecution.
    Senator Brownback. That has been my personal experience as 
I have traveled and seen some of these populations. They are in 
a precarious situation. Their daily struggles with life are 
having them in a very precarious situation. One of you have 
said that you might just as well go see the President or 
another. I think, Mr. Glickman, you pointed out that this is 
the patience and the length of time you have to wait in this 
system.
    Sometimes when people are just in such precarious 
situations they cannot stand it that long before something 
horrible happens to them. Yet our system seems to just lean 
almost Darwinian towards the strong making it on through the 
system, that can survive through something, and we are not 
reaching out to those that are in the most vulnerable 
situations.
    I look forward to working with you. I think we have really 
got to get these numbers in a much better situation. I think we 
have to update a calcified system that is currently in place, 
and we can do it.
    One thing I might throw out to you as an idea, because I 
have had raised to me, there is a budgetary matter that is part 
of this, because you may allow this many resettlements but you 
are also going to have to pay for a certain period of time--
about working with non-profit organizations, NGOs, about 
helping out even further with that. Not only in the screening 
process, which I think is a very good recommendation.
    We use NGO groups to help us distribute food aid. This is 
another way that we could work carefully with these groups in a 
very positive fashion. But also in helping of the resettlement 
in the United States. Many of you do that work now in a very 
aggressive fashion. I think we are going to need to continue to 
work with you, and maybe even in a more aggressive fashion, on 
some of that settlement effort as well.
    Mr. Chairman, I think this has been a vital hearing. Every 
time you can help one person at least we have helped somebody, 
and they deeply appreciate it. Thanks for holding it.
    Chairman Kennedy. Thank you very much. Senator Brownback 
and I intend to follow up on these recommendations. They have 
been very good and very helpful to us, and we will call on you 
to keep after us on it. We thank you very much. The Committee 
stands in recess.
    [Whereupon, at 4:37 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

                       SUBMISSIONS FOR THE RECORD

  Statement of Hon. Maria Cantwell, a U.S. Senator from the State of 
                               Washington

    I would like to thank Chairman Kennedy for calling this hearing of 
the Immigration Subcommittee today to review the current state of the 
United States Refugee Program, and to examine the enormous slowdown in 
refugee processing that has occurred in the wake of the September 11 
attacks.
    As a result of the events of September 11<SUP>th</SUP>, and 
accompanying concerns about security, there was an obvious slowing in 
the processing of refugees. This included a temporary suspension of 
refugee admissions that affected tens of thousands of refugees already 
approved for resettlement, and a two-month delay in finalizing the 
authorization to admit an additional 70,000 refugees over the coming 
year. Additionally, the terrorist attacks placed particular burdens on 
INS and the State Department that caused temporary delays in the 
processing of many different types of immigration applications.
    However, the refugee situation has now become extremely serious. 
Despite extensive security reviews fewer than 3,000 refugees have been 
admitted into the United States since September 2001. This problem is 
not solely attributable to the events of September 11, but rather 
reflects an alarming erosion of the refugee program over the past 
decade. The number of refugees permitted to enter has declined almost 
fifty percent from 142,000 in 1992 to only 70,000 in 2002. In addition, 
the number of refugees actually admitted has consistently fallen well 
below the numbers that are allowed to enter. Over the past two years 
the numbers of refugees admitted have fallen fifteen to twenty percent 
short of the numbers authorized. Estimates suggest that at the current 
rate, even if drastic improvements are made immediately, the number of 
refugees actually admitted this year is unlikely to be more that 45,000 
of the 70,000 allowed admissions.
    The reduction in admissions since September has impacted more than 
the 14 million refugees worldwide. Local communities in the United 
States and the refugee program itself have suffered a disastrous blow 
from the reduction in refugee admissions.
    In my state, this crisis in refugee admissions is having very 
serious impacts on established organizations that work to resettle 
refugees who are admitted. Since September, the Seattle Office of the 
International Rescue Committee has resettled only nine refugees, 
compared to 185 refugees during the same time period last year, while 
the Refugee Public Health Center, that performs health screening for 
King County, has had only 17 arrivals since the beginning of 2002 
compared with 160 during the same period last year. This has forced 
over eleven layoffs of experienced public health officials and 
translators. These unanticipated effects mean that not only are 
refugees continuing to wait for the elusive date of their admittance, 
but at the same time, these excellent organizations are losing 
qualified and experienced staff that will be difficult to replace. 
Meanwhile, additional workers are being displaced in my state, which is 
already suffering disproportionate economic consequences from the 
economic slowdown and the effects of September 11. These losses 
severely undermine the ability of refugee programs to facilitate 
increased admissions in the future. Additionally, local communities 
suffer the absence of innumerable contributions refugees provide upon 
resettlement.
    Despite real security concerns, I find it particularly disturbing 
that refugee admissions came to a screeching halt, while tourists, 
temporary workers, and students from abroad encountered much less 
severe barriers in their travels. Not one of the suspected terrorists 
involved in the September 11<SUP>th</SUP> tragedy gained entry to this 
country through the refugee program. In fact, enduring years in a 
refugee camp on the off-chance of being selected for admission to the 
United States through the considerably scaled-back refugee program 
presents a true test of the desire of refugees to enter the United 
States and to make a new life for themselves as Americans.
    In November, several colleagues and I participated in a forum on 
the future of women in Afghanistan. We spoke of education and job 
opportunities, and the resources necessary to support the families of 
Afghanistan-nearly all of which the Taliban regime denied Afghan women 
for years. It disheartens me to think that through a slow-down in the 
refugee admissions process we are victimizing these very people who 
seek our help.
    Fortunately, the recent delays can be reversed. If the State 
Department and the INS are willing to make a concerted effort to 
improve refugee admissions, the numbers approved for admission this 
year can still be achieved. We must process the backlog of refugees, 
particularly those who have already been approved for resettlement, and 
the interview process must resume to confirm eligibility of refugees 
who have not yet been approved. I support the use of technology to 
facilitate the interview process through videoconferencing and similar 
mechanisms until agents are able to return to the field, and am hopeful 
that the INS and the State Department will take from this hearing the 
message that they must work together to get admissions back on track.
    September 11<SUP>th</SUP> has changed our lives forever. But this 
tragedy is no excuse not to come to the aid of the refugees who need 
and deserve our assistance. Commissioner Ziglar has demonstrated a 
willingness to implement plans for improvement, and I look forward to 
similar demonstrations of commitment from the Department of State.

                                <F-dash>

 Statement of Hon. Dianne Feinstein, a U.S. Senator from the State of 
                               California

    Mr. Chairman, thank you for holding this important hearing today on 
the United States refugee admissions program.

                      A Nation Founded by Refugees

    Our nation was founded, in part, by brave souls who set out to a 
new land to escape persecution in their home country. Ever since, our 
nation has generously extended a welcome hand to those facing torture, 
genocide, forced prostitution, systematic rape, and government-
sponsored killings in their homelands. We are, indeed, a beacon of 
light to many who seek refuge from these atrocities.
                  Scope of the World's Refugee Crisis
    The statistics of who makes up the world's population of refugees 
is stunning.
        <bullet> The U.S. Committee for Refugees has estimated that 
        there are more than 14 million refugees throughout the world 
        today.
        <bullet> They estimate, further, that there are another 20 
        million people who are internally displaced within their 
        countries of origin.
        <bullet> Two-thirds of the refugees are women and children.
        Resettlement is Only One Tool to Solving Refugee Crises
    Clearly, with such a large and growing population of refugees and 
internally displaced people, the United States cannot possibly admit 
all of them. And so while this hearing will focus on our admissions 
program, we must also be mindful of more durable solutions to the 
situations that produce refugees in the first place.
    I know that these issues are the province of other committees of 
the Senate, such as the Committee on Foreign Relations and the 
Committee on Armed Services. I encourage this Committee to work closely 
with those committees to see if we can't find more durable solutions to 
today's and future refugee crises.
    Most, if not all refugees want to return to their homes in peace 
when it is safe for them to do so. The ultimate answer to the world's 
refugee crises, therefore, must be to settle the disputes that cause 
the refugee situations to occur.
    The NATO military action in the Balkans in the 1990s is an example 
of an enormous refugee situation that was eased with the settlement of 
the crisis that propelled refugees to flee their homes in search of 
protection.
    I am hopeful that our action in Afghanistan, as well, will make it 
possible for most, if not all, of that country's 2.5 million refugees 
to return safely to their homes and rebuild their country's government, 
society, and economy.

          Resettling Refugees Helps Ease Foreign Policy Crises

    Clearly, Mr. Chairman, the most durable and preferable solution to 
refugee crises is settling the disputes and permitting refugees to be 
safely repatriated. But at the same time, there are many refugees who 
have fled to a country of first asylum who will never be able to return 
to their homes. For them, resettlement in a third country is the only 
alternative to languishing in refugee camps for years, if not decades.
    I believe the United States must set the example and lead the way 
in admitting and resettling these refugees. It must do this for a 
number of reasons. First, for humanitarian reasons. But also, for 
foreign policy reasons.
    The humanitarian reasons are obvious why we should admit and 
resettle some of the world's refugees who cannot be repatriated to 
their homelands. They need not be set out here in detail.
    Let me give two brief examples of the practical foreign policy 
reasons why we must maintain the capacity to admit and resettle 
refugees in the United States.
    In 1992, the United States urged Iraqi Kurds to revolt against 
Saddam Hussein in Iraq to assist us in our efforts to liberate Kuwait. 
When the United States decided not to pursue Saddam's Republican Guard 
into Iraq and decided against toppling his regime, these Iraqi Kurds, 
who had revolted against Saddam at our urging, were left unprotected 
and fled to neighboring Turkey.
    The United States, fearing both a massacre of the Kurds and fearing 
that our credibility in future crises was at stake, urged Turkey to 
permit the Kurds to stay there temporarily and used resettlement of a 
relative small number of Kurds as both an incentive to the government 
of Turkey and a way of rescuing some, who would never be able to safely 
return to Iraq.
    Not only did we do the right thing for humanitarian reasons in that 
particular situation by resettling a small number of Iraqi Kurds in the 
United States, but it no doubt had an effect in Afghanistan, convincing 
some in the Northern Alliance that we would not abandon them if they 
failed to topple the Taliban regime there.
    Another example of the foreign policy reasons why we should 
maintain the capacity to admit and resettlement refugees is the 
situation in the Balkans that I referred to earlier in my statement. In 
that situation, hundreds of thousands of refugees fleeing systematic 
rape, forced prostitution, genocide, and torture fled to neighboring 
Albania, which threatened to refuse to admit them for temporary safe-
haven.
    NATO was undertaking military action in the region to restore 
peace, but could not have done so unless the refugees amassing on the 
borders had a place of refuge. The United States convinced the host 
countries to permit the refugees temporary refuge in camps, in part, by 
agreeing to resettle a small number of refugees in the United States.
    The United States commitment led the way for other countries, too, 
to admit some of the refugees for resettlement in their countries.

          The Current United States Refugee Admissions Program

    In the wake of the September 11, 2001, terrorist attacks on the 
United States, the Department of State and Department of Justice have 
undertaken a review of our refugee admissions program to ensure the 
security of U.S. government personnel involved in interviewing and 
processing refugee applicants, as well as to ensure that those whom we 
admit as refugees do not pose a danger to our national security or to 
public safety.
    While this review has caused unavoidable disruptions to the 
program, I think it is prudent to take extra precautions, and agree 
that a review was necessary.
    I realize that none of those accused of participating in the 
September 11 terrorist attacks entered the United States as refugees. 
Indeed, refugees already are among the most closely scrutinized of 
aliens seeking to enter the United States. Nonetheless, I support 
efforts to further ensure the integrity and security of the program.
    From the earliest days of our republic, and continuing to the 
present, refugees have made enormous contributions to our society.
    We must continue to hold our door open to a measure of the world's 
refugees, both for humanitarian reasons as well as to advance our 
nation's foreign policy interests. At the same time, we must ensure the 
safety and security of the program.
    I look forward to the testimony from today's distinguished panels 
of witnesses who, hopefully, will be able to advise us on how we can 
accomplish both of those important goals.
    Thank you Mr. Chairman.

                                <F-dash>

Statement of Hon. Orrin G. Hatch, a U.S. Senator from the State of Utah

    Thank you Mr. Chairman for holding this important hearing on the 
plight of refugees and the refugee program.
    I believe no country has as much interest or compassion as the 
United States when it comes to protecting innocents from persecution 
abroad. Under our immigration laws, those who demonstrate a well-
founded fear of persecution in their country of nationality on account 
of race, religion, nationality, membership in a particular social 
group, or political opinion are rightly provided refuge. Each year, as 
a consequence of the refugee program, thousands of lives are saved and 
bettered through relocation into the United States where immigrants 
take refuge under the blanket of liberty and freedom that our 
Constitution provides. In short, generations are changed for the 
better, one life at a time. I am proud of that legacy and commend the 
President for his recent authorization of the admission of up to 70,000 
refugees for fiscal year 2002. I also commend Commissioner Ziglar for 
his efforts to transform the INS into the agency it must be to protect 
those worthy of the same.
    While I recognize the duty we have to protect innocents abroad, I 
am also keenly interested in protecting the general public within the 
United States and those dedicated Americans who risk their personal 
safety in some very dangerous parts of the world to facilitate the 
admission of refugees. In this regard, I believe the public is 
interested in (1) an explanation of the enhanced security checks added 
to the refugee program in light of the events of September 11, and (2) 
steps that are being taken to protect the INS and State Department 
personnel who are responsible for overseeing refugee processing 
overseas.
    Thank you again, Mr. Chairman, for holding this hearing. I know 
that you and the distinguished Ranking Member, my good friend from 
Kansas, Senator Brownback, have an intense interest in the refugee 
program and I commend your collective leadership on the issue.

                                <F-dash>

 Statement of Hon. Patrick J. Leahy, a U.S. Senator from the State of 
                                Vermont

    More than ever after the tragic events of September 11, we must 
maintain our commitment to refugees. Our refugee policies show our 
nation at its best, and we need to preserve them. I would like to thank 
Senator Kennedy for holding this hearing and emphasizing that point, 
and Senator Brownback for making this Committee's dedication to 
refugees truly bipartisan.
    I was pleased when the President announced last fall that the 
United States would accept 70,000 refugees in FY 2002, because it 
confirmed that our nation would not allow the terrorist attacks to 
interfere with our commitments to provide a home for people fleeing 
persecution and chaos throughout the world. I understood when refugee 
interviews slowed to a near halt after September 11 due to the removal 
of U.S. government personnel from various troubled regions of the 
world, and I agreed with the need to develop additional security 
mechanisms before admitting refugees, to ensure that no terrorist could 
abuse the admissions process. But I have been concerned by some of the 
conflicting signals being sent by different parts of the 
Administration, and I hope this hearing will assure the Committee that 
the President's directive to admit 70,000 refugees will be realized.
    Not long after the President announced his directive, others in the 
executive branch suggested that it was impossible to meet. The State 
Department made plans to admit only 50,000 refugees, and the 
Immigration and Naturalization Service did not have its normal 
complement of officers dedicated to conducting screening interviews. I 
joined with Senators Kennedy and Brownback in writing last month to INS 
Commissioner Ziglar and Secretary of State Powell to urge them to take 
the steps necessary. More recently, there have been encouraging signs 
from both the INS and the State Department. I was heartened by 
Commissioner Ziglar's address to the National Immigration Forum earlier 
this month, in which he said he would be detailing ``a significant 
number of INS personnel to conduct refugee interviews worldwide with a 
goal of meeting 70,000 admissions this year.'' That is the right goal, 
and I thank Commissioner Ziglar for expressing it so publicly and for 
joining us today to discuss it. Similarly, the State Department has 
recently suggested that it too is committed to the task.
    Our refugee program shows our nation's commitment to the 
dispossessed and persecuted, and our continued dedication to it after 
the September 11 attacks shows that we will not sacrifice our ideals. 
Especially in these uncertain times, other nations may follow our lead 
if we scale back our commitments. I know there are now many logistical 
hurdles to overcome in implementing the program, but I am confident 
that our experts at the State Department and INS can get the job done.
    We must remember that there are thousands of desperate people in 
refugee camps around the world--including refugees from Afghanistan--
waiting for the promise of a new life in America. There are also 
thousands of Americans, many in my State of Vermont, who stand ready to 
help these refugees adjust to life in the United States. This is a 
system that has worked in the past and will work in the future--
preserving it is worth extraordinary effort, and I hope to hear today 
that the Administration intends to mount such an effort in the coming 
months.

                                <F-dash>

Statement of Rev. Richard Ryscavage, on behalf of InterAction (American 
              Council for Voluntary International Action)

    Thank you. Senator Kennedy and Senator Brownback, for this 
opportunity to submit testimony on the U.S. refugee program.
    I am Chair of InterAction's Committee on Migration and Refugee 
Affairs (known as CMRA). InterAction is the largest membership alliance 
of U.S.-based international development and humanitarian 
nongovernmental organizations (NGOs) striving to overcome poverty and 
suffering by advancing social justice, inclusion, and basic dignity for 
all. InterAction s 160+ nonprofit member organizations, both faith-
based and secular, are operating in more than 100 countries, serving 
tens of millions on a range of concerns throughout the world.
    I present this testimony on behalf of InterAction and the scores of 
its member agencies working on migration and refugee protection, 
assistance and resettlement. We seek a renewed commitment from the 
Executive Branch and Congress to this country's refugee program.
    Migration and refugee assistance continues to be a pressing need 
around the world. This is most assuredly true and now widely understood 
by Americans to be the case in Pakistan and Afghanistan as we all 
follow the ongoing war on terrorism. But even before the tragic events 
of September 11th, crises on nearly every continent were leading and 
continue to lead to the migration of people, forced from their homes 
and livelihoods by famine, disease, national disaster and/or armed 
conflict. Today there are 12 million refugees worldwide and 25 million 
internally displaced persons, uprooted and homeless within the borders 
of their own countries. While many refugees are in need of 
resettlement, ALL are in need of assistance.
    Most U.S. funding for refugees is for overseas assistance that 
provides life-sustaining support to these expanding numbers of 
refugees. Robust levels of support from the United States make it more 
likely that nations will accept refugees fleeing into their territory, 
provide assistance to refugees, or offer resettlement in a third 
country when that is the only alternative.
    The refugee resettlement program has fallen on hard times in recent 
years. The need for resettlement has grown as refugee situations in the 
Balkans, Africa and the Middle East have exceeded falling levels of 
refugees from Indochina and the states of the former Soviet Union. The 
continuing spread of war and civil strife, especially in Africa, make 
it clear that these needs will continue to grow. Even now there are 
many refugee individuals and discrete populations who are in desperate 
need of resettlement but who remain unassisted. And yet, the authorized 
admissions levels have fallen from 120,000 in 1993 when President 
George H.W. Bush left of fice, to 70,000 in FY 2002. However, we were 
heartened by assurances by the Bush Administration that this year was 
to be a consolidation year and that FY 2003 admissions could be 
expected to rise to even higher levels.
    In the face of recent indications that the Bush Administration 
planned to reduce authorized admission levels this year even further to 
50,000, we have been very heartened by the strong commitment of INS 
Commissioner Ziglar, Assistant Secretary Dewey and by you, Mr. 
Chairman, and the members of this Subcommittee to support the admission 
numbers of 70,000 for FY 2002. However, make no mistake, we do not 
suggest that it is going to be easy to admit 70,000 this year. Business 
as usual would leave us far short. Without a commitment, there was no 
hope. With this commitment, we have a tough job ahead of us but one in 
which the voluntary agencies will do everything in their power to meet.
    While the INS dedicates more staff to field of fices overseas, and 
particularly in Africa, where processing had been slowed following the 
September 11 attacks, we are hopeful that the Department of State will 
also do what is needed to increase refugee processing staff at 
embassies and consulates in countries where the Department may not have 
been planning to make an investment of personnel and resources. In 
order to protect the refugee resettlement and assistance program and 
meet the current authorized admission ceiling of 70,000 refugees, 
processing overseas must become more aggressive and efficient, and in 
several instances, particularly in Africa, reopened for business. In 
the end, an Administration-wide commitment will be needed to meet these 
refugee numbers by the end of this fiscal year.
    We have noted that funds allocated for refugee resettlement are 
inadequate to fund the 70,000 refugees now planned for FY 2003, much 
less fund our hoped-for increases in U.S. admissions. The leadership at 
the Bureau of Population, Refugees and Migration (BPRM) has indicated 
that it would find the funds to resettle refugees in FY 2003. Some have 
suggested that this would have to come out of funds planned for 
overseas assistance in FY 2003. We believe that this is wrong thinking. 
While only a fraction of the world's refugees can be resettled in the 
United States in any given year, the Bush Administration must find the 
funds to support the operations to meet refugee admissions without 
taking funds away from vital assistance programs. Making this a zero 
sum exercise would be unjust.
    We come before you to appeal that sufficient funds be found to 
support both our refugee assistance and resettlement prograrns. These 
programs are not mutually exclusive. Refugee assistance projects in the 
field are closely interconnected with refugee resettlement at home. 
Cutting U.S. support for NGO and UNHCR's refugee assistance work will 
ultimately result in even feebler capacity to identify refugees for 
resettlement, and to offer them the protection assistance they need. 
All sides of the refugee world will suffer. InterAction's members 
strongly support full funding for International Organizations, 
including the UN High Commissioner for Refugees that are critical 
actors in the international protection and resettlement regimes for 
refugees.
    While the numbers of refugees admitted by the United States are 
critical, they reflect only a small fraction of the refugees around the 
world who are not resettled here, but who depend on our assistance. 
Unfortunately, refugee assistance provided by the international 
community, including the United States, continually falls far short of 
the need. Urgently needed programs go unfunded because, in many refugee 
situations, the international community's resources are not sufficient 
to provide more than the most basic food, shelter and health programs. 
Continued crises mean that there will be increased need and mounting 
assistance costs. Any suggestion of a reduction in the U.S. share and 
commitment for refugee assistance ignores these realities. Continued 
support for a robust refugee assistance and protection program is, 
indeed, in our national interest and most certainly in keeping with 
what has always made this country great.
    We all have a stake in reaching these resettlement and assistance 
goals and must each do our respective part, in partnership, to commit 
all necessary resources and personnel- U.S. government and NGOs alike.
    As NGOs, we will do our part to help the United States government 
meet its resettlement and assistance objectives. The NGO community can 
help in myriad ways by working with INS and State Department staff in 
identifying refugee groups. Through the direct secondment of trained 
and experienced staff to posts at our embassies, NGOs can also help, as 
they have in the past, with prescreening and in setting up cases for 
review by INS and State Department staff. To help support this 
collaboration, we urge the continued appropriation of funding for the 
Joint Voluntary Programs at the Department of State.
    As you consider the future of the refugee resettlement, protection 
and assistance programs, you can be confident that we stand before you 
at the ready and in search of partnership with you to meet our 
obligations as a country to provide assistance and protection to the 
millions of refugees across the globe today.
    In closing, on behalf of InterAction, I thank you for this 
opportunity to submit this testimony and am grateful to you for 
convening this hearing.

                InterAction Member List (as of 1/06/02)

Academy for Educational Development
ACCION Intemational
ACDI/VOCA
Action Against Hunger/USA
Adventist Development and Relief
Agency International (ADRA)
The Advocacy Institute
African Medical Research Foundation
Africare
Aga Khan Foundation USA
Aid to Artisans
Air Serv Intemational
Amazon Conservation Team
American Friends Service Committee
American Jewish Joint Distribution Committee
American Jewish World Service
American Near East Refugee Aid
American ORT
American Red Cross/Int'l
American Refugee Committee
AmenCares
America's Development Foundation (ADF)
Amigos de las Americas
Ananda Marga Universal Relief Team
Baptist World Alliance
B'nai B'rith International
Bread for the World
Bread for the World Institute
Brother's Brother Foundation
Campaign for Tobacco-Free Kids
CARE
Catholic Medical Mission Board
Catholic Relief Services
Center for International Health and Cooperation (CIHC)
Center of Concern
Center for Development and Population Activities (CEDPA)
Child Health Foundation
Childreach/Plan International
Children International
Christian Children's Fund (CCF)
Christian Reformed World Relief Committee (CRWRC)
Church World Service
Citizens Democracy Corps
Citizens Network for Foreign Affairs
Concern America
CONCERN Worldwide U.S., Inc.
Congressional Hunger Center
Counterpart International
Cross-Cultural Solutions
Direct Relief International
Doctors of the World
Doctors Without Borders (MSF)
The End Hunger Network
Enersol Associates
ENTERPRISE Development Int'l
Episcopal Relief & Development
Ethiopian Community Development Council
FINCA International
Floresta
Food For The Hungry, Inc.
Freedom From Hunger
Friends of Liberia
Gifts In Kind International
Global Health Council
Global Links
HALO, USA
Health Volunteers Overseas
Heart to Heart International
Hebrew Immigrant Aid Society (HIAS)
Heifer Project International
Helen Keller Worldwide
Holt International Children's Services
The Hunger Project
Institute of Cultural Affairs
Interchurch Medical Assistance
International Aid, Inc.
International Catholic Migration Commission (ICMC)
International Center for Research on Women (ICRW)
International Executive Service Corps
International Eye Foundation
International Institute of Rural Reconstruction
International Medical Corps
International Medical Services for Health (INMED)
International Orthodox Christian
Charities (IOCC)
International Reading Association
International Relief PE Development
International Relief Teams
International Rescue Committee
International Voluntary Service, Inc.
International Women's Health Coalition
International Youth Foundation
Islamic American Relief Agency USA
Jesuit Refugee Services/USA
Katalysis Partnership, Inc.
Latter-Day Saint Charities
Laubach Literacy International
Lutheran World Relief
MAP International
Margaret Sanger Center International
Medical Care Development
Mercy Corps International
Mercy USA for Aid and Development
Minnesota International Health Volunteers
Mobility International USA
National Council of Negro Women
National Peace Corps Association
Near East Foundation
Northwest Medical Teams
OIC International
Operation USA
Opportunity International
Oxfam America
Pact
Partners for Development
Partners in Health
Partners of the Americas
Pathfinder International
Pearl S. Buck International Inc.
Physicians for Human Rights
Physicians For Peace
Planning Assistance
Points of Light Foundation
Population Action International
Population Communication
Presbyterian Disaster Assistance and Hunger Program
Project Concern International
Project HOPE
Quest for Peace/Quixote Center
Refugees International
Relief International
RESULTS, Inc.
Salvation Army World Service Office
Save the Children
Service and Development Agency of the African Methodist Episcopal 
Church
SHARE Foundation
Sierra Club
Solar Cookers International
Southeast Asia Resource Action Center (SEARAC)
Stop Hunger Now
The Synergos Institute
Trickle Up Program
United Israel Appeal
United Jewish Communities
United Methodist Committee on Relief
United Way International
USA For UNHCR
U.S. Fund for UNICEF
Volunteers in Technical Assistance (VITA)
Winrock International
Women's EDGE
World Concern
World Hope International
World Education
World Learning
World Relief
World Resources Institute (WRI)
World Vision
YMCA of the USA
Zero Population Growth


</pre></body></html>
